<html>
<title> - THE PRELIMINARY RECOMMENDATIONS OF THE U.S. COMMISSION ON OCEAN POLICY</title>
<body><pre>[Senate Hearing 108-946]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-946

 
 THE PRELIMINARY RECOMMENDATIONS OF THE U.S. COMMISSION ON OCEAN POLICY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
76-608                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2004...................................     1
Statement of Senator Breaux......................................     7
Statement of Senator Cantwell....................................    73
Statement of Senator Hollings....................................     2
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................     5
Statement of Senator Lott........................................    12
    Prepared statement...........................................    12
Statement of Senator McCain......................................     1
Statement of Senator Nelson......................................    75
Statement of Senator Snowe.......................................     5
    Prepared statement...........................................     6
Statement of Senator Stevens.....................................     4

                               Witnesses

Ehlers, Hon. Vernon, U.S. Representative from Michigan...........     8
Farr, Hon. Sam, U.S. Representative from California..............    10
    Prepared statement...........................................    11
Watkins, James D., Admiral, USN (Ret.), Chairman, U.S. Commission 
  on Ocean Policy; accompanied by Dr. Robert Ballard, 
  Commissioner; Marc J. Hershman, Commissioner; Christopher Koch, 
  Commissioner; Edward B. Rasmuson, Commissioner; Dr. Andrew A. 
  Rosenberg, Commissioner; and Dr. Paul A. Sandifer, Commissioner    13
    Prepared statement...........................................    17

                                Appendix

Response to written questions submitted to Admiral James D. 
  Watkins by:
    Hon. Ernest F. Hollings......................................    83
    Hon. Trent Lott..............................................    94


 THE PRELIMINARY RECOMMENDATIONS OF THE U.S. COMMISSION ON OCEAN POLICY

                              ----------                              


                        THURSDAY, APRIL 22, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The Committee meets today to 
hear testimony from Admiral Watkins, the Chairman of the U.S. 
Commission on Ocean Policy concerning the release of its 
preliminary report. I might add I had the pleasure of knowing 
and serving under Admiral Watkins for many, many years, and I 
am forever grateful for his many contributions to this Nation 
and its security.
    Our oceans comprise approximately 70 percent of the Earth's 
surface, and as the Commission's preliminary report states, 
they're in crisis. If we're to be good stewards of the Earth, 
we have to be--we have to better protect our oceans. Congress 
recognized this need in 2000 in past legislation creating the 
U.S. Commission on Ocean Policy. The Commission is tasked with 
making recommendations to the President and Congress for 
coordinated and comprehensive national ocean policy.
    I'm convening this hearing this morning so we can hear how 
the process is going and provide feedback to the Commission, 
which it can use in drafting its final report. The last 
congressionally-authorized commission to review and make 
recommendations for a national ocean policy was the Stratton 
Commission, which was a watershed event that led to the 
creation of the National Oceanic and Atmospheric Administration 
in 1970. More than 30 years later, much has changed, and we 
again are looking for recommendations for an updated national 
ocean policy.
    According to the preliminary report released earlier this 
week, the Commission found that pollution threatens our water 
quality, many fishing stocks are in danger of depletion, 
competing interests vie for limited resources, and global 
climate change is significantly impacting our oceans.
    The challenge of correcting this crisis in our oceans is 
significant and we appear ill-prepared to address it at this 
time. The Commission states in its report that our ocean and 
coastal responsibilities are arrayed across numerous Federal 
departments and agencies, the states and territories, and 
tribal and local levels. In many cases, these efforts are 
poorly coordinated and redundant. In other areas there are 
serious gaps. We clearly need a national ocean policy and this 
preliminary report is the place to start.
    I look forward to Admiral Watkins' testimony and that of 
the other Commissioners for learning more about the 
Commissions's recommendations on how we can more effectively 
manage our oceans and coastal waters.
    Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you, Mr. Chairman. I'll just put my 
statement in the record.
    The Chairman. Without objection.
    Senator Hollings. And just welcome our House members. Thank 
you.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    Mr. Chairman, thank you for convening today's hearing on the 
Preliminary Report of the U.S. Commission on Ocean Policy. It is only 
fitting that we hold this hearing on Earth Day since the oceans 
comprise fully seven-tenths of our planet. That's a lot of water--and 
more than you would find with a Mars Rover, let me assure you. We ought 
to set aside extra-terrestrials--even terrestrial species--and reaffirm 
our national priorities by declaring today as ``Ocean Day.''
    We really needed to take stock of how well our oceans are doing, 
and how well we are doing by our oceans. It has been well over thirty 
years since the Stratton Commission recommended a comprehensive ocean 
policy for the Nation. The Stratton Commission's report and 
recommendations led to the creation of the National Oceanic and 
Atmospheric Administration (NOAA) and passage of major marine 
conservation statutes such as the Magnuson-Stevens Fishery Conservation 
and Management Act, the National Marine Sanctuaries Act, and the 
Coastal Zone Management Act. Since then, no other report has generated 
as much talk and anticipation in the ocean community as this report. 
This is because our oceans and coasts are at a crossroads.
    Throughout history, our society has turned to the oceans and coasts 
for food, transportation, commerce and recreation. It is no coincidence 
that today, over 50 percent of the U.S. population lives in the coastal 
zone, and this number is expected to increase to 75 percent by 2025. 
Hundreds of millions of Americans spend their vacations along the 
coasts each year and more than 13 million jobs stem from trade along 
our Nation's marine transportation system. Our oceans are inextricably 
linked to our personal and economic well-being.
    But increasing pressures threaten our oceans and coasts. Our coral 
reefs and wetlands are disappearing or being degraded at an alarming 
rate. Increased use has led to increased pollution of our oceans. In 
2002, more than 12,000 beach closings and swimming advisories were 
issued nationwide due to fecal bacteria or other pollution. Just last 
month, over 100 dolphin carcasses were found along Florida's panhandle 
beaches and bays. Preliminary test results point to one or more 
biotoxins that are associated with red tides. We have also over-used 
some of our ocean bounty--twenty-five percent of the Nation's major 
fish stocks are over-fished or experiencing over-fishing, causing 
millions of dollars in economic losses. While we are making some 
progress here at home, the Committee knows that global overfishing--and 
bycatch--caused by foreign fleets is posing serious risks to marine 
ecosystems worldwide. Other costs are closer to our homes--coastal 
storms and El Nino related events pose increasingly serious and costly 
risks to human health and coastal property.
    Despite our dependence on oceans and coasts, the Nation 
surprisingly spends only 3.5 percent of its Federal research budget on 
oceans. The oceans are home to 80 percent of all life forms on Earth, 
holding incredible promise of new medicines, technologies, and 
ecological resources, but 95 percent of the deep ocean remains 
unexplored.
    Our country needs a new vision for ocean policy and management. 
This is why I sponsored the Oceans Act of 2000, along with several of 
my distinguished colleagues. The Oceans Act created a Commission of 
national experts who we asked to conduct a rigorous assessment of ocean 
and coastal issues and offer their recommendations for a coordinated 
national ocean policy.
    The release of the Ocean Commission's Preliminary Report this week 
presents state Governors and others with the opportunity to offer 
comments before a final report is issued to Congress and the President. 
I urge the Governors of every state to take the report's 
recommendations very seriously and offer their comments to the 
Commission. Following the release of the Ocean Commission's final 
report, the President will have 90 days to submit to Congress his 
proposals for implementing or responding to the Commission's 
recommendations.
    The Preliminary Report includes some important new directions for 
our oceans policy. It appropriately places a premium on strengthening 
our ocean science and research base, calling for a doubling of the 
annual Federal investment in ocean research, for instance. The 
Commission's report also highlights the importance of deepening our 
understanding of oceans and coasts through investments in ocean 
exploration, ocean observing systems, and ocean education.
    The Report also reaffirms the importance of coastal zone 
management, and the role that states must continue to play in this 
regard. It upholds the need to carefully manage our living marine 
resources, and notes growing concerns from land and vessel-based 
sources of pollution as well as other risks such as invasive species to 
our oceans. I am particularly pleased to find that the Commission has 
devoted an entire chapter to the need to understand the connection 
between our oceans and human health--we need to bring these connections 
to the attention of all Americans, whether they live or work by the 
sea, or could one day benefit from medicines developed from the immense 
diversity of marine life we are still discovering.
    I commend the Commission too for recognizing that the National 
Oceanic and Atmospheric Administration (NOAA) is the Nation's premier 
civilian ocean agency, and that it needs to be strengthened to lead the 
Nation toward a more prosperous and healthy era for our oceans and 
coasts. This leadership role was envisioned by the Stratton Commission 
but has been marred by underfunded mandates, overlapping jurisdictions, 
and lack of coordination between programs and agencies. I hope the 
Commission will elaborate today on precisely how its recommendations 
will strengthen NOAA as well as address critical gaps in Federal ocean 
funding. The recommendations describe numerous investment needs but 
provide little detail about the precise funding estimates and sources.
    I am encouraged that our Committee and the Commission seem to be 
thinking along the same lines on many of these issues. Members of the 
Commerce Committee have already acted on a number of important 
legislative proposals to address the challenges facing our oceans and 
coasts--and I am sure we will see more bills introduced in the coming 
weeks.
    Senator Snowe has demonstrated leadership on these issues by 
sponsoring S. 1400, the Coastal and Ocean Observing System Act, which 
calls for the establishment of a coordinated coastal and ocean 
observing system--a bill that recently passed the Senate, and which I 
am proud to cosponsor. In addition, the Senate recently passed S. 1218, 
the Oceans and Human Health Act, legislation I introduced with Sen. 
Stevens, and which is supported by many of my Senate and Committee 
colleagues. The Committee also unanimously reported S. 861, the Coastal 
and Estuarine Land Protection Act, a bill I introduced with Senator 
Gregg and cosponsored by many Committee members. I hope to see that 
pass the Senate very soon. I am particularly proud to cosponsor, along 
with Senator Inouye, Senator Stevens' National Ocean Exploration Act 
(S. 2280), a bill that will strengthen and enlarge NOAA's Ocean 
Exploration Program.
    All of these initiatives are supported by the Ocean Commission's 
recommendations. I also am pleased that Sen. McCain and I will be 
working together on the Commission's recommendation to pass an 
``organic'' act to affirm NOAA as the lead ocean agency in the U.S.
    Finally, I would like to take this opportunity to welcome and 
publicly thank Admiral Watkins for his leadership on the Commission. 
Admiral Watkins, you and the other commissioners have done a great 
service for this country. Thank you for your hard work and for engaging 
us in a critical dialogue about the future of our oceans and coasts. 
This spring, Dr. Bob Ballard, NOAA's Office of Ocean Exploration, and 
other partners will conduct an exciting expedition to the Titanic on 
NOAA Ship RON BROWN. Bob never ceases to capture our imaginations when 
he embarks on one exciting voyage of discovery or another. We wish him 
much success.
    Thank you, Mr. Chairman, for this opportunity to comment on the 
Preliminary Report. I look forward to hearing Admiral Watkins' 
testimony.

    The Chairman. Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. I do 
have a short statement, not too long. But I do thank you for 
holding this important hearing. We had originally scheduled a 
hearing in the Appropriations Committee because of the broad-
sweeping recommendations for financing the industry report, but 
we delayed that so that the Committee of jurisdiction, the 
legislative committee, can have a first look at this ocean 
policy.
    This is, as you said, the first time in 35 years that we 
have reviewed our Nation's ocean policy, and Senator Hollings 
and I have been together during those 35 years and have tried 
in the past to have this type of review, but I'm delighted that 
we've finally been able to accomplish it, and I think the 
Commission under Admiral Watkins' leadership, as you said, has 
done extraordinary work in pulling together the documents that 
will be before us.
    They've had 15 public meetings and 17 site visits around 
the country, including meetings held in Anchorage and site 
visits in our fishery communities. And I want to give special 
thanks to my good friend who's here today, Ed Rasmuson, who has 
followed his father's footsteps, who was Chairman of the 
International Joint Commission for Fisheries. And now Ed has 
spent considerable time and effort on this Commission and I 
understand he's not missed a single meeting of this Commission.
    This has provided the Commission with an important Alaska 
voice on the impacts of ocean and coastal development on our 
State. No state has the relationship to the ocean that ours 
does, with half the coastline of the United States, and it is 
the economic driver for our state's economy. And at the same 
time its beauty and wonder has symbolized our pioneering 
heritage.
    The Commission has given us a great deal to think about, 
with nearly 200 recommendations and over 400 pages of analysis 
of our oceans and coastal management framework. I really truly 
am encouraged by the recommendations of this Commission on 
ocean policy, it has made, at least what we've seen in the 
preliminary report, and we look forward to exploring these 
concepts with you and others.
    I want to point out that this report closely follows the 
practices that already exist in the North Pacific, and in the 
North Pacific there are no endangered species. There are no 
over-fished species in the North Pacific because we have 
followed ecosystem concepts, and I'm delighted to see that is 
the recommendation, basic recommendation of this Commission. 
Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Stevens.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman. Your 
action here reflects the urgency of the message contained in 
the Ocean Policy Commission report. It should be obvious to 
everybody that our oceans and coastal areas are in serious 
trouble and that we've got to quickly turn around the 
disturbing trends that the Commission has documented. From what 
I understand of the report, Admiral Watkins and the other 
commissioners have produced a balanced and responsible 
assessment of our coasts and oceans and offered smart, 
practical recommendations to better protect these resources.
    The ocean holds a special meaning to my State of New Jersey 
and to me personally as the result of childhood memories of 
visits there. So during my years in the Senate, one of my 
principal goals has always been to protect our beaches and 
oceans, and we've had some successes. My home State of New 
Jersey has 127 miles of shoreline. We're proud of each and 
every mile.
    But I remember back to the 1980s when medical waste, 
sewage, and garbage began washing up on the shore. We were 
horrified and we did something about it, and I'm happy to 
report that those days have come and gone. Congress passed 
bills to stop ocean dumping and other problems, but new, 
equally ominous threats have taken their place.
    I was very disturbed last May when the journal, Nature, 
reported a 90 percent decline in the world's large predatory 
ocean fish over the last half-century. The number of times 
beaches have been closed for pollution has increased 
substantially. Population development pressures are colliding 
with the desire of many coastal residents to protect their 
beaches. Because of these and other stresses, I'm convinced 
that major changes must be made. Unlike land environments, 
ocean ecosystems are essentially unseen by the average person 
and easier to take for granted. But we do so at our peril.
    Mr. Chairman, I look forward to the testimony of our 
witnesses, and again thank you for holding this hearing.
    The Chairman. Thank you.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, for holding this 
hearing to consider the preliminary report from the Ocean 
Commission. I want to commend Senator Hollings for his 
leadership on this issue over the years as well as our House 
colleagues who are here. They helped to play a critical role in 
the creation of this commission that was charged to view all 
facets of our ocean-related policies and activities and to 
consolidate them under one comprehensive national policy.
    I certainly want to express my gratitude and appreciation 
to Admiral Watkins for his exemplary leadership as chair of the 
Commission on Ocean Policy and to all the commissioners, some 
of whom are here today, for undertaking this responsibility. 
They are helping to enhance our knowledge of our oceans and 
what steps are essential for this Nation to take in order to 
protect this invaluable resource.
    What I find to be truly alarming is our lack of knowledge 
about our marine environment and our oceans. Even while we 
probe the surface of Mars, remarkably 95 percent of the world's 
oceans remains unexplored. And as the commission report 
indicates, we have had a significant under investment in marine 
assets. That is a broad indication of the fact that we have not 
made this a great national priority.
    I think so many of the recommendations that have been 
included in here, Mr. Chairman, will require thorough and 
timely consideration by the Congress. Not only have they 
provided many constructive ideas, especially creating a 
national ocean policy and a national oceans council, but I 
think it's a matter of national imperative as well.
    The Commission rightly cites the fact that we need to 
coordinate all of our Federal oceans-related activities. When 
you have 14, 15 disparate agencies, it's very difficult to 
create a cohesive, coherent, and coordinated policy among all 
those agencies when it comes to sound marine, environmental 
policy and management. I applaud the Commission for taking a 
proactive, visionary, and far-reaching approach. We must 
address all of these issues related to protecting this critical 
national asset that, as others have indicated today, creates 
jobs and is a great contributor to our economy. Moreover, our 
oceans support and provide life-supporting capacities and 
production for our marine environment, which is so important to 
our fisheries. Considering the very long coastline along the 
State of Maine, and the course of fisheries that are dependent 
upon it, it is very critical that we look at these issues in a 
comprehensive fashion.
    The Commission has performed a tremendous service to this 
country by creating a meaningful approach for ocean policy. Now 
it's going to be our responsibility to undertake a review of 
that approach and to find ways to implement it sooner rather 
than later.
    Mr. Chairman, I ask unanimous consent to include my entire 
statement in the record. Thank you.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman. As Chair of the Subcommittee on Oceans, 
Fisheries, and Coast Guard, I am especially pleased to be here today to 
discuss the release of the Ocean Commission's preliminary report. For 
the first time since the Stratton Commission released its findings 35 
years ago, the Senate is receiving an eagerly anticipated 
Congressionally-mandated report on the state of our Nation's oceans and 
coasts.
    As a nation, we are increasingly aware that our environmental and 
economic health are directly linked to the oceans and coasts . . . but 
what I find to be truly alarming is the state of our knowledge about 
our marine environment. Even while we probe the surface of Mars, we 
have to realize that 95 percent of the world's oceans remain 
unexplored. We must enhance our collective knowledge of these global 
systems, and we must make investing in our oceans a greater national 
priority.
    First of all, I would like to congratulate Admiral Watkins, who has 
done an exemplary job chairing the U.S. Commission on Ocean Policy. I 
would also like to express my appreciation to the other Commissioners 
who are in attendance today, and thank them all for their hard work.
    Almost four years ago, this committee, along with our counterparts 
in the House of Representatives, charged the U.S. Commission on Ocean 
Policy with an enormous task. The Commissioners and their staff were to 
consider all facets of our Nation's interaction with the oceans, and 
bring them together under one comprehensive national ocean policy.
    The preliminary report contains myriad recommendations, and there 
are a few that I would like to highlight. The Commission rightly cites 
the need for a better Federal framework to coordinate Federal ocean-
related activities as one of its top priorities. The Commission is also 
correct in calling for an Integrated Ocean Observation Network to 
provide the Nation with much needed data on some of the most basic 
oceanographic and atmospheric measurements. Additionally, the 
Commission actually identifies a way in which to pay for its proposed 
new programs, so that we can avoid going forward with an unfunded 
mandate.
    I certainly concur with the Commission's findings that the Federal 
ocean activities need better coordination. The collection of 14 
disparate agencies that are currently handling ocean-related issues 
cannot possibly manage our Nation's marine resources and commerce in a 
sound and cohesive fashion without a formal mechanism for coordinating 
these activities.
    I was also gratified to see the Commission's focus on the 
establishment of an integrated ocean observation system. I introduced 
and the Senate passed by unanimous consent S. 1400, the Ocean and 
Coastal Observation Systems Act, which would establish such a system 
for the United States. I have long been a supporter of ocean 
observation--in particular, the Gulf of Maine Ocean Observation System, 
a regional network of data collection buoys that provides real-time 
data to researchers, the Coast Guard, mariners, and the public through 
its easy to use website. I hope the Commission's report will give the 
necessary boost we need for moving toward the critical goal of 
implementing a comprehensive, nation-wide ocean observation system.
    The implementation of this integrated ocean data collection network 
will require a significant investment--according to the Commission, it 
will require $652 million a year when it is up and running. 
Fortunately, the Commission has recommended a viable means for funding 
its proposals, by using revenues from oil and gas leases on the outer 
continental shelf, an existing source of Federal funds that can provide 
the much needed funding.
    I have, in the past, supported the concept of using revenues from 
oil and gas leases on the outer continental shelf as a funding 
mechanism for oceanographic research and management. If we as a country 
are serious about moving forward with any of the recommendations of the 
Commission, we need to take a hard look at this approach again. We need 
to avoid unfunded mandates in anything we do in response to the 
Commission's report, yet we must ensure we will have the ability to 
actually implement all of the recommendations we act upon.
    Managing our oceans properly is a costly endeavor, but we cannot 
forget that activities on our oceans contribute hundreds of billions of 
dollars to our economy every year, and directly support more than 2 
million jobs. The demands we place on our oceans will continue to 
multiply, as each year--for many years to come--more than 1.1 million 
people are expected to move to coastal areas. As a nation, we must 
pause and re-think how we can best position ourselves to continue 
maximizing the many goods and services that we reap form the seas, 
while ensuring that we do not undercut the oceans' productive and life-
supporting capacities. The oceans are one of our Nation's most valuable 
assets, and their health reflects the attitudes and actions of every 
American, no matter where they live.
    Admiral Watkins, the Commission has performed a tremendous service 
to the Nation by providing a blueprint for making meaningful 
improvements to U.S. ocean policy. I look forward to receiving the 
final report and engaging the oceans subcommittee in studying all its 
recommendations in depth. I am committed to establishing an effective, 
coordinated National Ocean Policy system--not only is this a good idea, 
but it is a national imperative. I intend to see that a sustained and 
integrated ocean observing system is part of this approach, along with 
other key science and management provisions.
    Thank you, Mr. Chairman, for convening this hearing. I appreciate 
the Commission's efforts and look forward to Admiral Watkins' 
testimony.

    The Chairman. Without objection. Thank you.
    Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you very much, Mr. Chairman. I'll try 
to be very brief. I was one of the original cosponsors with 
many of our colleagues of the legislation that created the 
Commission, and we're delighted to see the presentation of this 
preliminary report. This is something that many of us on this 
committee have been looking at for 30 years or more and we 
continue to look at it and one day we may get it right, but 
we're not there yet.
    My own state of Louisiana is not atypical, I guess, of many 
of our coastal states in the sense that we are located on the 
Gulf of Mexico and have these incredible balance problems and 
competing interests, because some would say the ocean should be 
only used for recreational fishing, some may argue that it 
should only be used for commercial fishing, some would argue 
that it should not have any energy development, some would 
argue perhaps some different perspective that the entire 
coastal area can only be used for recreational enjoyment.
    The fact is I think that you have to balance all of those 
interests, and they all have a legitimate stake in how the 
oceans are managed. Fish production in the ocean is for 
recreational use, but it is also for food for the world, and 
that's a very difficult thing to balance. We have the largest 
amount of energy development in any coastal area probably in 
the world off my coast, and we've had to balance that with 
recreational and commercial fishing interests, and it has not 
been an easy job.
    Every year, off Louisiana's coast a dead zone develops that 
is approximately 12,000 square miles in size, more than the 
size of my good friend, Senator Lautenberg's, entire state. 
There's a complete dead zone with no oxygen at all because of 
much of the run-off that comes down through the Mississippi 
River and is dumped every day into the Gulf of Mexico. These 
are huge problems and there are no simple easy answers to them, 
but I would hope that ultimately we would agree that everybody 
has a legitimate stake in the use of the oceans and everybody 
has a responsibility to manage those resources, and I thank you 
for your work.
    The Chairman. Thank you. As is our practice, we welcome our 
colleagues from the House of Representatives, and we thank you 
for coming over today and displaying your interest and 
commitment on this issue. We always begin with the oldest and 
so we'll begin with you, Congressman Ehlers.

               STATEMENT OF HON. VERNON EHLERS, 
               U.S. REPRESENTATIVE FROM MICHIGAN

    Mr. Ehlers. The oldest or the hairless?
    [Laughter.]
    Mr. Ehlers. Thank you, Chairman McCain and Senator 
Hollings. I appreciate the opportunity to testify before you on 
this preliminary report from the U.S. Commission on Ocean 
Policy. As a member of the House Science Committee and Chairman 
of its Environment, Technology, and Standards Subcommittee, I 
oversee much of the National Oceanic and Atmospheric 
Administration, better known as NOAA, except for the fisheries 
issues, which are left to my colleagues on the Resources 
Committee. I also represent the State of Michigan, which has a 
deep interest in the Great Lakes and I'm pleased to see this 
report includes that. We also have the greatest coastline of 
any state in the union except for Alaska, and of course, no one 
can compare with Alaska.
    I must commend Admiral Watkins and other commissioners for 
all their hard work, effort, and tenacity. Their charge was 
vast and difficult and they performed it admirably. They have 
given Congress and the Administration the foundation by which 
we may improve the health and management of our coast, oceans, 
and the Great Lakes.
    Let me briefly highlight some of the Commission's 
recommendations that the Science Committee intends to pursue. 
The Commission recommends that Congress pass an organic act for 
NOAA. I strongly agree. I believe it is critical for NOAA's 
mission to be clearly defined and its internal structure 
strengthened so that it can better fulfill its role in 
observing, managing, and protecting our Nation's coastal and 
ocean resources.
    My subcommittee staff and I spent many hours working on 
this task last year, but delayed introducing the bill until we 
had examined the ocean policy report. I look forward to working 
with you as well as with my colleagues in the House in a 
bipartisan fashion to pass a bill into law this year. This will 
not be an easy task, but it is so important to our environment, 
our economy, and our children and grandchildren's future that 
we must succeed.
    I thank the Commission for advocating increased funding for 
ocean research, something that many Members of Congress also 
support. However, I am concerned that the Commission did not 
clearly specify which issues and programs should be our highest 
priorities. Given our current budget constraints, I think it 
will be extremely difficult to find $4 billion in new money for 
the oceans, including doubling the funding for ocean research. 
As much as I support that effort, I certainly agree that there 
are enough problems and issues that require this much in new 
funding. I want to be certain Congress isn't immobilized by 
sticker shock that can actually fulfill many of the 
recommendations in the report. A priority list would be most 
useful in this regard.
    Finally, I would like to mention the specific 
recommendation that Congress transfer management of some of 
NASA's Earth-observing activities to NOAA. This is a 
recommendation that the Science Committee will examine closely, 
as I imagine this Committee will do too as we oversee both NASA 
and NOAA. A major shifting of duties and resources appears 
attractive, but would be a complicated undertaking and we 
should understand the complete ramifications of such an action. 
We also have to make certain, of course, that the money follows 
the transfer.
    These are but a few of the issues that the Science 
Committee will be examining from the Commission's report. Let 
me reiterate my sincere appreciation for the hard work of the 
Commissioners and their staff. Thank you for the opportunity to 
testify. I am enthusiastic and optimistic that we can all work 
together to develop a strong national ocean policy that 
protects this resource for generations to come. Thank you very 
much.
    The Chairman. Thank you.
    Congressman Farr, welcome.

                  STATEMENT OF HON. SAM FARR, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Farr. Thank you very much, Mr. Chairman, and thank you 
Senator Hollings and others for allowing me to stumble before 
you to start off this hearing. It's really a pleasure to be 
alongside my fellow Oceans Caucus member, Mr. Ehlers, and we 
have created in the House an Ocean Caucus. We have four Co-
Chairs, two Republicans, two Democrats, Jim Greenwood, Tom 
Allen, Curt Weldon, and myself. The Ocean Caucus represents a 
diverse constituency of inland states like Missouri and islands 
like American Samoa.
    I speak to you today about the urgent need to protect our 
oceans. Let me say that it couldn't be more appropriate for you 
to hold this hearing today on Earth Day, a day that we reflect, 
take stock, and hopefully make some resolutions. With that in 
mind, Tuesday's release of the U.S. Commission on Ocean Policy 
report makes a milestone for our oceans and how we view them.
    As shown in the report, the oceans are in a state of 
crisis, a crisis that affects each and every one of us, because 
we are all dependent on the oceans. They provide food, 
opportunities for both scientific discovery and spiritual 
reflection, and of course, jobs. Some of the tremendous 
benefits we get from the oceans can't be put into dollar 
amounts. We must recognize this. However, some of the ocean's 
benefits can be described with dollar signs. The U.S. 
Commission's report documents that our oceans and coast add 
over $1 trillion to our economy each year. We hope that we can 
agree that this huge contribution is a return that we must 
safeguard.
    Ensuring that this return keeps coming, in other words, we 
need to be guided by long-term vision of healthy marine 
ecosystems, and that will require a change in course. That 
change in course is simply that we must adopt a new stewardship 
ethic for our ocean treasures. The stewardship ethic should be 
based on long-term vision that protects, maintains, and 
restores the health of marine ecosystems.
    To implement that new stewardship, we must admit that our 
current system of ocean governance, as Senator Snowe pointed 
out, consists of 10 departments, 20 Federal agencies, and over 
140 ocean-related laws. It is inadequate or has failed and 
sometimes has failed miserably.
    The message comes across loud and clear in both the Pew 
report and the U.S. Commission's report. It is now our turn to 
act. We must devise a new national and regional approach, and I 
think that Members of the Committee, the biggest struggle for 
Congress is going to be figuring out how to do this national 
governance structure, and probably even more difficult, how we 
have a better coordinated regional management system. It should 
be based on ecosystem principles, as Senator Stevens pointed 
out. Ecosystem-based management will not be easy, but it 
certainly is necessary.
    The Ocean Caucus will be providing a strong vision on where 
our Nation should set our ocean sights. We are working on what 
we call the BOB Bill, the Big Oceans Bill, which takes the 
recommendations of all the commissions and others and puts it 
into one big bill. At the heart of this bill is a strong 
national oceans policy, one that protects, maintains, and 
restores our oceans so we won't be making excuses to the next 
generations. We are hopeful there will be a movement once our 
bill is introduced demonstrating that the protection of our 
oceans and resources is a bipartisan issue and can't wait until 
after the next election.
    So the time for leadership is now. The Senate is showing 
that today by convening the first of these hearings. The 
bipartisan House Oceans Caucus is showing it by working on 
legislation, and I urge the administration to show it by 
supporting the efforts of both of these houses.
    Thank you for letting me appear today and I'd be glad to 
respond to any questions you might have.
    [The prepared statement of Mr. Farr follows:]

     Prepared Statement of Hon. Sam Farr, U.S. Representative from 
                               California

    Chairman McCain, Senator Hollings, and members of the Committee, 
thank you for allowing me, along with my fellow House Oceans Caucus Co-
Chair, James Greenwood, to testify this morning on the absolute 
importance of using the U.S. Commission on Ocean Policy's Report as an 
impetus for national action. With over 50 Members in the House Oceans 
Caucus, we represent diverse constituencies--from inland states like 
Missouri to island territories like American Samoa. This broad appeal 
demonstrates the recognition that every American has a stake in the 
state of our oceans.
    Tuesday's release of the U.S. Commission on Ocean Policy's 
comprehensive report marks a milestone for our oceans and for the way 
we view them. It has been more than 30 years since we, as a nation, 
have evaluated our relationship with the sea. Unfortunately, the state 
of our oceans has significantly decreased since our last evaluation. So 
much so that today, our oceans are in a state of crisis--a crisis that 
affects each and every one of us.
    We all depend on our oceans and coasts, from the person who lives 
off the water to the person who visits once in a lifetime. The oceans 
provide food, jobs, vacation spots, scientific knowledge, and 
opportunities for reflection. Despite our inability to measure the many 
non-market values associated with our oceans and coasts, we are able to 
quantify some of the benefits they provide. For example, over a 
trillion dollars is added to our economy each year by ocean and coastal 
economies. I trust that we can all agree that this is a huge 
contribution; a contribution that must be protected so the returns keep 
coming. We can craft our uses of the ocean to ensure that they are 
conducted in a sustainable manner, such that the resources will be 
there for future generations.
    Protection of our oceans will require a change of course. 
Unfortunately, all too often we take our oceans for granted: we 
underestimate their value and we ignore the negative consequences 
human-related activities can have on them. Our oceans represent the 
largest public trust resource in the U.S. and cover an area nearly one 
and a half times the size of the continental United States. Americans 
expect the Government to safeguard this vast resource and I hope that 
the Report just released will be the motivation for us to actually 
begin to do so.
    Simply put, our current ocean and coastal management system, 
created over thirty years ago, is archaic and incompatible with new 
knowledge about how the oceans and coastal waters function as a whole. 
Our policies are fragmented, both institutionally and geographically. 
For example, today we find ourselves with over ten Federal departments 
involved in the implementation of more than 130 ocean-related statutes. 
It is time to re-consider this incoherent and often times incompatible 
management situation and bring order to our ocean governance structure. 
The U.S. Commission's Report offers some guidance on how to do just 
this.
    One of the biggest advances in our understanding of oceans to occur 
since our last national review of ocean policy is that the natural 
world functions as ecosystems, with each species intricately connected 
to the other parts that make up the whole. The U.S. Commission's 
Report, as well as the independent Pew Oceans Commission Report 
released last June, clearly states that we must adopt a new policy 
framework that is based on the concept of ``the whole,'' an ecosystem-
based approach rather than one based on political boundaries. This 
approach will not be as easy or straight forward as our previous 
approaches, but we must dedicate ourselves to making it a reality. Part 
of making it a reality is creating a strong regional governance 
structure. With a comprehensive national ocean policy explicitly 
written to maintain healthy ocean ecosystems, our oceans will be a 
bountiful resource in which we can all take pride.
    The Report also stresses the importance of instilling a new 
ecosystem-based stewardship ethic. Involved in instilling this ethic is 
increasing ocean-related education for all Americans at all levels, 
from first-graders learning how to read to graduate students 
investigating challenging scientific processes. The U.S. Commission 
details suggestions on how we can instill a new stewardship ethic by 
emphasizing and investing in greater marine science education.
    As you know, the Report released earlier this week is, technically, 
a Preliminary Report. It is being sent to the Governors for their 
comments. This comment period lasts until May 21, 2004. I sincerely 
hope that all states will take this opportunity to acknowledge that the 
oceans provide value for every American, whether intrinsic worth or 
direct economic benefit, and provide the Commission with input before 
the comment period ends. Despite historic and geographic patterns 
suggesting otherwise, every state has a role to play in the management 
of our oceans.
    The House Oceans Caucus leadership is drafting legislation--the 
BOB, or Big Oceans Bill--that sets our country on the right path--the 
path of protecting our oceans. Many of the details are still being 
worked out; however, the broad sections of BOB include national 
governance, regional governance, science and technology, and education. 
We will be introducing our legislation this session. We have high hopes 
that our comprehensive bill will receive hearings and be considered 
this year, thereby demonstrating the bipartisan nature of the 
importance of protecting the health of our oceans for future 
generations.
    It is up to each of us to not let this unprecedented opportunity 
pass us by. With the U.S. Commission on Ocean Policy and The Pew Oceans 
Commission Reports in the last year, the Bush Administration has a 
prime opportunity to take the steps necessary to instill a new ocean 
ethic in our government. Action by this Administration could very well 
save our largest public trust. The time for leadership is now. The 
Senate is showing its leadership by holding this hearing. I am 
dedicated to providing leadership in the House, with the help of my 
fellow Oceans Caucus co-chairs, and I hope the President will provide 
it in the White House.

    The Chairman. We thank you both for coming today and we 
appreciate your commitment on this issue. We look forward to 
working with you as we seek to implement many of the valuable 
recommendations of the Commission that we're about to hear. 
Thank you for coming over today. Thank you.
    Now we'd like to have Admiral James D. Watkins, Chairman of 
the U.S. Commission on Ocean Policy, who is accompanied by 
Commissioners Dr. Robert Ballard, Professor Marc J. Hershman, 
Mr. Christopher Koch, Mr. Edward Rasmuson, Mr. Andrew 
Rosenberg, and Dr. Paul Sandifer. Would you please come 
forward?
    Senator Lott. Mr. Chairman?
    The Chairman. Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. While they're coming forward, I'd just like 
to ask consent that my brief statement be made a part of the 
record after the panel makes their presentation.
    The Chairman. Without objection. Thank you.
    [The prepared statement of Senator Lott follows:]

  Prepared Statement of Hon. Trent Lott, U.S. Senator from Mississippi

    I want to thank Admiral Watkins and all of the Commissioners for 
their service on the Oceans Commission. You and your fellow 
commissioners have helped focus the attention of our Nation on our 
neighboring oceans and our coastal regions.
    As a resident of a coastal state, and a coastal city, I have seen 
firsthand many of the concerns the Commission raised. The attraction of 
coastal living has significantly increased the population of 
Mississippi's coastal counties in recent years. The good news is the 
economic benefit that has flowed to the people of the coast during that 
time. However, this growth requires coastal residents and governments 
to have to work harder to ensure that the natural features that 
attracted the people to the coast are preserved.
    Managing our coastal regions and waters requires the collaboration 
of many people and interest groups. This is best handled locally, but 
there clearly is a role for the Federal government to play. Management 
of offshore fisheries, outer continental shelf resources, national 
seashores, and estuarine reserves are some of those areas where the 
Federal government has played an active role.
    I look forward to working with the Commerce Committee and the 
Senate in conducting a detailed review of your report. While I may not 
end up agreeing with some of your recommendations, I'm sure that the 
Committee will carefully consider all of them.
    I also want to praise another member of the Commission, Vice 
Admiral Paul Gaffney, for his service on the Commission. Admiral 
Gaffney commanded the Navy Meteorological and Oceanographic Command at 
Stennis Space Center on the Mississippi coast. He has an in-depth 
understanding of the oceans and has been a real asset to this country. 
I wish him well in his current endeavor as a university president.

    The Chairman. Admiral Watkins, welcome, and welcome to all 
of the Members of the Commission. Thank you for being with us 
today. Please proceed, Admiral Watkins.

       STATEMENT OF ADMIRAL JAMES D. WATKINS, USN (RET.),

           CHAIRMAN, U.S. COMMISSION ON OCEAN POLICY;

        ACCOMPANIED BY DR. ROBERT BALLARD, COMMISSIONER;

       MARC J. HERSHMAN, COMMISSIONER; CHRISTOPHER KOCH,

        COMMISSIONER; EDWARD B. RASMUSON, COMMISSIONER;

             DR. ANDREW A. ROSENBERG, COMMISSIONER;

             AND DR. PAUL A. SANDIFER, COMMISSIONER

    Admiral Watkins. Thank you very much, Mr. Chairman, and 
Members of the Committee. I'm very pleased to be appearing 
before you today to provide a brief overview of the U.S. 
Commission on Ocean Policy's preliminary report. I ask that my 
longer written statement be accepted into the record.
    The Chairman. Without objection.
    Admiral Watkins. Our preliminary report offers a practical 
blueprint for ocean policy in the 21st century. It lays the 
groundwork for a coordinated, comprehensive, national ocean 
policy, with a logical sequence of actions that can start 
immediately. The report includes almost 200 action-oriented 
recommendations that present Congress, the President, the 
Federal agencies, and Governors with workable solutions for 
some of the most pressing problems facing our oceans and 
coasts.
    There are a few key messages I'd like to convey today. 
First, our oceans and coasts are a national asset that's in 
trouble. Second, an opportunity is at hand to reverse these 
negative trends. And last, our existing fragmented system for 
managing oceans and coasts is not up to the task. We urgently 
need better governance, science, and education to achieve 
meaningful improvements. My fellow commissioners and I believe 
that implementation of the recommendations in our report will 
result in bountiful, sustainable oceans that benefit and 
inspire Americans for decades to come.
    Let me now address the basic question. Why should anyone 
care about these issues? Well, to start, oceans and coasts are 
major contributors to the United States' economy. Over half of 
the U.S. population lives in coastal watershed counties, and 
roughly one-half of the Nation's gross domestic product, which 
was $4\1/2\ trillion in the year 2000, is generated in these 
counties and ocean waters. The figure of $1 trillion comes off 
the counties, the coastal counties alone, so we're talking 
about half the GDP comes out of these regions, and obviously 
that puts great stress on the region.
    As one example, recreation and tourism is the largest 
sector of the coastal economy and it continues to grow rapidly. 
Despite selected achievements over the past three decades, 
however, evidence shows continued degradation of marine 
ecosystems. For example, about 12,000 beach closures and 
swimming advisories are issued annually and non-point sources 
of pollution, often generated far from the coast, are major, 
largely uncontrolled contributors to coastal contamination.
    In our view, it quickly became apparent that the current 
management regime is outdated and incompatible with the 
developing picture of complex ecosystems. A Byzantine patchwork 
of the 15 Federal departments and independent agencies governs 
ocean and coastal policy in addition to regional, State, and 
local authority. The current system works poorly to address 
cumulative impacts and cross-jurisdictional ecosystem-based 
issues. There's a lack of coordination, of goals, of programs, 
of funding, at all levels.
    These problems were not caused by any particular 
administration. They're the result of three decades of 
piecemeal administrative and legislative decisions. But it's 
absolutely vital that we act now to begin addressing them. Our 
vision for the future of ocean and coastal management relies on 
an ecosystem-based approach and that acknowledges the 
complexity of ecosystems and of human needs.
    Ecosystem-based management cannot be constrained by 
artificial political boundaries such as county or state lines. 
Rather, it must consider broad ecosystem regions, including 
upstream watersheds, coastal communities, and offshore uses. 
This approach to management recognizes the relationships among 
all ecosystem components--the land, air, water, humans, and 
other species.
    In order to move in these new directions, fundamental 
changes in governance and greatly improved science and 
education will be essential. I'd like to spend a few minutes 
discussing these changes. Let's talk about governance. Although 
it's hardly a catchy, headline-grabbing subject, good 
governance is at the heart of any policy change. To begin 
improving ocean governance, a new national ocean policy 
framework is essential.
    That framework will be central to a comprehensive and 
coordinated national ocean policy, if in fact we want to carry 
one out, and it consists of several components. One, a National 
Ocean Council composed of Cabinet Secretaries and heads of 
independent agencies with ocean-related responsibilities to 
coordinate Federal ocean activities. Two, a President's Council 
of Advisors on Ocean Policy composed of representatives from 
State, local government, industry, non-governmental 
organizations, and others who can provide non-Federal 
perspectives on ocean policy. And I might add that this is not 
dissimilar from the Presidential Council of Advisers on Science 
and Technology.
    Third, an assistant to the President to serve as a focal 
point for ocean policy in the Executive Office of the 
President, chair the National Ocean Council and co-chair the 
Presidential Council of Advisers on Ocean Policy. Fourth, a 
network of broadly inclusive, voluntarily established, Regional 
Ocean Councils to help coordinate programs at the regional 
ecosystem level. Next, a coordinated offshore management regime 
that encompasses traditional and emerging uses and is flexible 
enough to incorporate uses not yet foreseen. And finally, a 
strengthened and streamlined Federal agency structure achieved 
through a phased approach as outlined in our report.
    Talk about science. Improved governance based on ecosystem-
based management principles will provide many benefits, but it 
also imposes additional responsibilities on managers. Perhaps 
foremost among these new responsibilities is the need to 
collect better data, provide good science-based information, 
and improve our understanding of ecosystem function. This 
improved understanding will allow us to manage marine 
environments and resources wisely, conserving precious species 
and habitats while exploring beneficial new uses and protecting 
national security.
    Based on our analysis, the ocean research budget could be 
doubled to $1.3 billion a year to support essential basic and 
applied research. Just a few of the many topics to be explored 
should include the links between upstream activities and 
coastal water quality, the impacts of ocean and coastal 
conditions on human health, the role of oceans in climate, the 
status and functioning of marine systems and biodiversity, the 
socioeconomic contributions of coastal communities, and the 
mysteries awaiting in the vast unknown areas of the ocean.
    To do their jobs, managers will also need vastly improved 
ocean and coastal monitoring and assessments. Implementation of 
the national Integrated Ocean Observing System, including both 
coastal and ocean components, will be a key to meeting this 
need. It was interesting this morning, Mr. Chairman, to read 
David Broder's comment in the Washington Post that dealt with 
the current meeting on Earth-observing system in Kyoto--or, I'm 
sorry, in Tokyo. And we are feeding a key component, the key 
component of that in our Integrated Ocean Observing System, 
which is the module to insert into the Earth-observing system, 
because it is key to climate change understanding, and so 
throughout our report we stress this.
    And so our IOOS as we call it, Integrated Ocean Observing 
System, is the only program that we're really pushing very hard 
by this commission. The rest is policy, but this one we feel is 
so connected with policy and so connected with implementation 
that it must go forward, must be a national commitment. We must 
move out on it.
    Education is next. Unfortunately, recent studies show that 
a majority of Americans have only a superficial understanding 
of the important role of the oceans to our economy and global 
ecosystem. Better lifelong education is recommended to promote 
public awareness and a sense of stewardship for the ocean. This 
awareness will then become the foundation for sustained public 
support. The interdisciplinary nature of ocean studies can be 
used to convey the basic principles of biology, chemistry, 
geology, physics, and the language of mathematics, and in an 
engaging manner.
    We've also recommended that ocean-based curricula be 
developed to enhance student performance in areas such as 
geography, history, economics, policy, and law. In addition to 
educating the future leaders of our Nation, there are limited--
there are a number of specific recommendations outlined in the 
report to improve ocean awareness among the American public.
    What about the management challenges? So far I've discussed 
the four cross-cutting themes of our report: ecosystem-based 
management, improved governance, better science for 
decisionmaking, and broad public education. But the commission 
also addressed a wide range of specific ocean management 
challenges. Eventually, solutions to all of these problems 
should be integrated within a more ecosystem-based management 
approach. The specific management challenges and detailed 
recommendations for solving them are outlined in our report.
    Let's talk about implementation now of a policy. From the 
beginning, one of our priorities was to ensure that our 
recommendations for our integrated national ocean policy, one 
that could be implemented. In our report we are very specific 
about who should take the lead in carrying out every one of our 
nearly 200 recommendations. We also put considerable effort 
into estimating the costs involved. The commission strived to 
avoid creating unfunded mandates. We determined that new 
funding for States and Federal agencies will be essential for 
them to fulfill their front line ocean and coastal 
responsibilities. Our Nation's leaders, including the honorable 
members of this committee, should view funding for oceans and 
coasts as an investment in America's future.
    The estimated new costs of the initiatives outlined in our 
report, including direct support to states for the critical 
role they play, will ramp up from $1.2 billion in the first 
year to $3.2 billion in the third and subsequent years. We 
believe this is a modest investment when you consider the 
economic, aesthetic, and ecosystem values of the oceans and 
coasts.
    To cover these costs, the Commission recommends that 
revenue generated from activities in Federal waters should be 
considered as an appropriate funding stream. Through creation 
of an Ocean Policy Trust Fund, funded primarily out of 
unallocated outer continental shelf revenues, monies could be 
provided to coastal states and Federal agencies to support 
improved ocean and coastal management consistent with a new 
national ocean policy. These funds would supplement, not 
replace, existing appropriations, as well as supporting new or 
expanded duties.
    Let me close by saying that I think we can all agree on the 
goal, achieving bountiful, sustainable oceans that benefit and 
inspire all Americans now and in the future. Implementation of 
the recommendations in our report will move us toward this 
goal, but the time to act is now, and everyone who cares about 
the oceans and coasts must play a part.
    As a specific call to action for the U.S. Senate, we 
believe it's critical for the following actions to occur as 
soon as possible. Authorize the establishment in the Executive 
Office of the President of a National Ocean Council, a 
Presidential Council of Advisors on Ocean Policy, and an Office 
of Ocean Policy. Two, exact an organic act--I'm sorry, enact an 
organic act for NOAA. And third, create an Ocean Policy Trust 
Fund.
    I thank you, Mr. Chairman, and Members of this Committee 
for holding this hearing and for the continuing support of the 
members of this committee on ocean issues. It is through your 
continued leadership that this Nation will be in a position to 
realize the full potential of our oceans, and we look forward 
to working with you, and I along with all my fellow 
commissioners who are here with me today will certainly stand 
by and be happy to answer any of your questions.
    [The prepared statement of Admiral Watkins follows:]

 Prepared Statement of Admiral James D. Watkins, U.S. Navy (Retired), 
               Chairman, U.S. Commission on Ocean Policy

Introduction
    Mr. Chairman and members of the Committee, I am pleased to appear 
before you to discuss the Preliminary Report of the U.S. Commission on 
Ocean Policy, which was released to the public on Tuesday, April 20. We 
believe this report offers a blueprint for a coordinated, comprehensive 
national ocean policy for the 21st century. It includes nearly 200 
action-oriented recommendations that present workable solutions for a 
broad range of ocean- and coastal-related issues.
    As you know, the last comprehensive review of U.S. ocean policy 
took place more than 35 years ago when the Commission on Marine 
Science, Engineering and Resources--known as the Stratton Commission--
issued its report, Our Nation and the Sea. Since then, considerable 
progress has been made, but many challenges remain and new issues have 
emerged. The value of the oceans to our Nation has only grown in 35 
years, and the time to act is now.
    The simple fact is that the oceans affect and sustain all life on 
Earth. They drive and moderate weather and climate, provide us with 
food, oxygen, transportation corridors, recreational opportunities, 
energy resources and other natural products, and serve as a national 
security buffer. In our travels around the country, we heard and saw 
first-hand how communities care about the ocean and coasts, and how 
they worry about their future.

The Value of the Oceans and Coasts
    America's oceans and coasts provide ecological and aesthetic 
benefits with tremendous value to our national economy. In 2000, the 
ocean economy contributed more than $117 billion to American prosperity 
and supported well over two million jobs. More than $1 trillion, or 
one-tenth of the Nation's annual GDP, is generated within the 
relatively narrow strip of land immediately adjacent to the coast. 
Considering the economies of all coastal watershed counties, that 
contribution swells to over $4.5 trillion, fully half of the Nation's 
GDP. The contribution to employment is equally impressive, with 16 
million jobs in the nearshore zone and 60 million in coastal watershed 
counties.
    The country also remains highly dependent on marine transportation. 
More than thirteen million jobs are connected to the trade transported 
through the Nation's network of ports and inland waterways. Annually, 
the Nation's ports handle more than $700 billion in goods. The cruise 
industry and its passengers account for another $11 billion in 
spending.
    Offshore oil and gas operations have expanded into deeper waters 
with new and improved technologies. The offshore oil and gas industry's 
annual production is valued at $25-$40 billion, and its yearly bonus 
bid and royalty payments contribute approximately $5 billion to the 
U.S. Treasury.
    The commercial fishing industry's total annual value exceeds $28 
billion, with the recreational saltwater fishing industry valued at 
around $20 billion, and the annual U.S. retail trade in ornamental fish 
worth another $3 billion. Nationwide, retail expenditures on 
recreational boating exceeded $30 billion in 2002.
    In the last three decades, more than 37 million people and 19 
million homes have been added to coastal areas. Every year, hundreds of 
millions of Americans and international visitors flock to the coasts to 
enjoy the oceans, spending billions of dollars and directly supporting 
more than a million and a half jobs. In fact, tourism and recreation is 
one of the fastest-growing business sectors--enriching economies and 
supporting jobs in communities virtually everywhere along the coasts of 
the continental United States, southeast Alaska, Hawaii, and our island 
territories and commonwealths.
    These concrete, quantifiable contributions to the national economy 
are just one measure of the oceans' value. We also love the oceans for 
their beauty and majesty, and for their intrinsic power to relax, 
rejuvenate, and inspire. Unfortunately, we are starting to love our 
oceans to death.

Trouble in Paradise
    Development comes with costs, and we are only now discovering the 
full extent of those costs. Pollution, depletion of fish and other 
living marine resources, habitat destruction and degradation, and the 
introduction of invasive non-native species are just some of the ways 
people harm the oceans, with serious consequences for the entire 
planet.
    In 2001, 23 percent of the Nation's estuarine areas were not 
suitable for swimming, fishing, or supporting marine species. In 2002, 
about 12,000 beach closings and swimming advisories were issued across 
the nation, most due to the presence of bacteria associated with fecal 
contamination. Marine toxins afflict more than 90,000 people annually 
across the globe and are responsible for an estimated 62 percent of all 
seafood-related illnesses. Such events are on the rise, costing 
millions of dollars a year in decreased tourism revenues and increased 
health care costs.
    Experts estimate that 25 to 30 percent of the world's major fish 
stocks are overexploited, and many U.S. fisheries are experiencing 
similar difficulties. Since the Pilgrims first arrived at Plymouth 
Rock, over half of our fresh and saltwater wetlands--more than 110 
million acres--have been lost.
    Our failure to properly manage the human activities that affect 
oceans and coasts is compromising their ecological integrity and 
diminishing our ability to fully realize their potential. Congress 
recognized this situation when it passed the Oceans Act of 2000 calling 
for a Commission on Ocean Policy to establish findings and develop 
recommendations for a coordinated and comprehensive national ocean 
policy. Pursuant to that Act, the President appointed 16 Commission 
members, including individuals nominated by the leadership in the 
United States Senate and the House of Representatives. These 
individuals were drawn from diverse backgrounds with knowledge in ocean 
and coastal activities.
    Because of the vast scope of topics the Commission was required to 
address, it sought input from individuals across the country. The 
Commission members traveled around the United States obtaining valuable 
information from diverse marine-related interests. They heard testimony 
on ocean and coastal issues during nine regional meetings and 
experienced regional concerns first-hand during seventeen site visits. 
The regional meetings also highlighted relevant success stories and 
regional models with potential national applicability.
    Four additional public meetings were held in Washington, D.C., 
after completion of the regional meetings, to publicly present and 
discuss many of the policy options under consideration for the 
Commission's recommendations. In all, the Commission heard from some 
445 witnesses, including over 275 invited presentations and an 
additional 170 comments from the public, resulting in nearly 1,900 
pages of testimony (included as Appendices to the report).
    The message we heard was clear: the oceans and coasts are in 
trouble and major changes are urgently needed. While new scientific 
understanding shows that natural systems are complex and 
interconnected, our decisionmaking and management approaches have not 
been updated to reflect that complexity and interconnectedness. 
Responsibilities remain dispersed among a confusing array of agencies 
at the Federal, State, and local levels. Better approaches and tools 
are also needed to gather data to understand the complex marine 
environment. Perhaps most important, people must understand the role 
the oceans have on their lives and livelihoods and the impacts they 
themselves have on the oceans.
    As the result of significant thought and deliberation and the 
consideration of a wide range of potential solutions, the Commission 
prepared its preliminary report containing bold and broad-reaching 
recommendations for reform--reform that needs to start now, while it is 
still possible to reverse distressing declines, seize exciting 
opportunities, and sustain the oceans and their valuable assets for 
future generations.

Vision and Strategy for the 21st Century
    Any strategy for change must begin with a clear picture of the 
desired endpoint. In the desirable future we wish to create, the oceans 
and coasts would be clean, safe, and sustainably managed. They would 
contribute significantly to the economy, supporting multiple beneficial 
uses such as food production, development of energy and mineral 
resources, recreation, transportation of goods and people, and the 
discovery of novel medicines and other products, while preserving a 
high level of biodiversity and a full range of natural habitats. The 
coasts would be attractive places to live, work and play, with clean 
water and beaches, easy public access, sustainable economies, safe 
bustling harbors and ports, adequate roads and services, and special 
protection for sensitive habitats. Beach closings, toxic algal blooms, 
proliferation of invasive species, and vanishing native species would 
be rare. Better land use planning and improved predictions of severe 
weather and other natural hazards would save lives and money.
    The management of our oceans and coasts would also look different: 
it would follow ecosystem boundaries, considering interactions among 
all elements of the system, rather than addressing isolated areas or 
problems. In the face of scientific uncertainty, managers would balance 
competing considerations and proceed with caution. Ocean governance 
would be effective, participatory, and well-coordinated among 
government agencies, the private sector, and the public.
    Managers and politicians would recognize the critical importance of 
good data and science, providing strong support for physical, 
biological, social, and economic research. The nation would invest in 
the tools and technologies needed to conduct this research: ample, 
well-equipped surface and underwater research vessels; reliable, 
sustained satellites; state-of-the-art computing facilities; and 
innovative sensors that withstand harsh ocean conditions. A widespread 
network of observing and monitoring stations would provide data for 
research, planning, marine operations, timely forecasts, and periodic 
assessments. Scientific findings and observations would be translated 
into practical information, maps, and products used by decisionmakers 
and the public.
    Better education would be a cornerstone of ocean policy, with the 
United States once again joining the top ranks in math, science, and 
technology achievement. An ample, well-trained, and motivated workforce 
would be available to study the oceans, set wise policies, apply 
technological advances, engineer new solutions, and teach the public 
about the value and beauty of the oceans and coasts throughout their 
lives. As a result of this lifelong education, people would understand 
the links among the land, sea, air, and human activities and would be 
better stewards of the Nation's resources.
    Finally, the United States would be a leader and full partner 
globally, sharing its science, engineering, technology, and policy 
expertise, particularly with developing countries, to facilitate the 
achievement of sustainable ocean management on a global level.
    The Commission believes this vision is practical and attainable. To 
achieve it, national ocean policy should be guided by a set of 
overarching principles including the following:

        Sustainability: Ocean policy should be designed to meet the 
        needs of the present generation without compromising the 
        ability of future generations to meet their needs.

        Stewardship: The principle of stewardship applies both to the 
        government and to every citizen. The U.S. government holds 
        ocean and coastal resources in the public trust--a special 
        responsibility that necessitates balancing different uses of 
        those resources for the continued benefit of all Americans. 
        Just as important, every member of the public should recognize 
        the value of the oceans and coasts, supporting appropriate 
        policies and acting responsibly while minimizing negative 
        environmental impacts.

        Ocean-Land-Atmosphere Connections: Ocean policies should be 
        based on the recognition that the oceans, land, and atmosphere 
        are inextricably intertwined and that actions that affect one 
        Earth system component are likely to affect another.

        Ecosystem-based Management: U.S. ocean and coastal resources 
        should be managed to reflect the relationships among all 
        ecosystem components, including humans and nonhuman species and 
        the environments in which they live. Applying this principle 
        will require defining relevant geographic management areas 
        based on ecosystem, rather than political, boundaries.

        Multiple Use Management: The many potentially beneficial uses 
        of ocean and coastal resources should be acknowledged and 
        managed in a way that balances competing uses while preserving 
        and protecting the overall integrity of the ocean and coastal 
        environments.

        Preservation of Marine Biodiversity: Downward trends in marine 
        biodiversity should be reversed where they exist, with a 
        desired end of maintaining or recovering natural levels of 
        biological diversity and ecosystem services.

        Best Available Science and Information: Ocean policy decisions 
        should be based on the best available understanding of the 
        natural, social, and economic processes that affect ocean and 
        coastal environments. Decisionmakers should be able to obtain 
        and understand quality science and information in a way that 
        facilitates successful management of ocean and coastal 
        resources.

        Adaptive Management: Ocean management programs should be 
        designed to meet clear goals and provide new information to 
        continually improve the scientific basis for future management. 
        Periodic reevaluation of the goals and effectiveness of 
        management measures, and incorporation of new information in 
        implementing future management, are essential.

        Understandable Laws and Clear Decisions: Laws governing uses of 
        ocean and coastal resources should be clear, coordinated, and 
        accessible to the Nation's citizens to facilitate compliance. 
        Policy decisions and the reasoning behind them should also be 
        clear and available to all interested parties.

        Participatory Governance: Governance of ocean uses should 
        ensure widespread participation by all citizens on issues that 
        affect them.

        Timeliness: Ocean governance systems should operate with as 
        much efficiency and predictability as possible.

        Accountability: Decisionmakers and members of the public should 
        be accountable for the actions they take that affect ocean and 
        coastal resources.

        International Responsibility: The United States should act 
        cooperatively with other nations in developing and implementing 
        international ocean policy, reflecting the deep connections 
        between U.S. interests and the global ocean.

Ecosystem-based Management
    Ecosystem-based management emerged as an overarching theme of the 
Commission's work. To move toward more ecosystem-based approaches, 
managers must consider the relationships among all ecosystem 
components, including human and nonhuman species and the environments 
in which they live. Management areas should be defined based on 
ecosystem, rather than political, boundaries. A balanced precautionary 
approach should be adopted that weighs the level of scientific 
uncertainty and the potential risk of damage before proceeding.
    In moving toward an ecosystem-based approach, the U.S. Commission 
on Ocean Policy considers the following actions absolutely critical. 
First, a new national ocean policy framework must be established to 
improve Federal leadership and coordination and enhance opportunities 
for State, territorial, tribal, and local entities to improve responses 
at the regional level. Second, decisions about ocean and coastal 
resources need to be based on the most current, credible, unbiased 
scientific data. And third, improved education about the oceans is 
needed to give the general public a sense of stewardship and prepare a 
new generation of leaders to address ocean issues.

Improving Governance
    Many different entities at the Federal, regional, State, 
territorial, tribal and local levels participate in the management of 
the Nation's oceans and coasts. At the Federal level, eleven of the 
fifteen existing cabinet-level departments and four independent 
agencies play important roles in the development of ocean and coastal 
policy. All of these Federal agencies also interact in various ways 
with State, territorial, tribal, and local entities.
    A lack of communication and coordination among the various agency 
programs at the national level, and among Federal, State and local 
stakeholders at the regional level, continues to inhibit effective 
action. A new National Ocean Policy Framework is needed to provide 
high-level attention and coordinated implementation of an integrated 
national ocean policy.

National Coordination and Leadership
    A first step in enhancing management, and a central part of the new 
National Ocean Policy Framework, is improved coordination among the 
many Federal programs. A number of attempts have been made to 
coordinate on particular topics, such as coral reefs or marine 
transportation, or within a broad category, such as ocean science and 
technology. Within the Executive Office of the President, three 
entities have specific responsibilities relevant to oceans: the Office 
of Science and Technology Policy that addresses government-wide science 
and technology issues and includes an ocean subcommittee; the Council 
on Environmental Quality (CEQ) that oversees broad Federal 
environmental efforts and implementation of the National Environmental 
Policy Act; and the National Security Council's Policy Coordinating 
Committee that addresses international issues and also includes a 
subcommittee on international ocean issues.
    While all these coordinating bodies are helpful in their designated 
areas of interest, they do not constitute a high-level interagency 
mechanism able to deal with all of the interconnected ocean and coastal 
challenges facing the nation, including not only science and 
technology, the environment, and international matters, but the many 
other economic, social, and technical issues that affect the ocean.
    The value of the ocean to American society also cries out for 
greater visibility and leaderships. Only the Executive Office of the 
President can transcend traditional conflicts among departments and 
agencies, make recommendations for broad Federal agency reorganization, 
and provide guidance on funding priorities, making it the appropriate 
venue for coordinating an integrated national ocean policy.
National Ocean Council
    Congress should establish a National Ocean Council within the 
Executive Office of the President to provide high-level level attention 
to ocean and coastal issues, develop and guide the implementation of 
appropriate national policies, and coordinate the many Federal 
departments and agencies with ocean and coastal responsibilities. The 
National Ocean Council, or NOC, should be composed of cabinet 
secretaries of departments and directors of independent agencies with 
relevant ocean-and coastal-related responsibilities and should carry 
out a variety of functions including the following:

  <bullet> developing broad principles and national goals for ocean and 
        coastal governance;

  <bullet> making recommendations to the President on national ocean 
        policy;

  <bullet> coordinating and integrating activities of ocean-related 
        Federal agencies;

  <bullet> identifying statutory and regulatory redundancies or 
        omissions and developing strategies to resolve conflicts, fill 
        gaps, and address new and emerging ocean issues;

  <bullet> developing and supporting partnerships between government 
        agencies and nongovernmental organizations, the private sector, 
        academia, and the public.

Presidential Council of Advisors on Ocean Policy
    A Presidential Council of Advisors on Ocean Policy, co-chaired by 
the Chair of the National Ocean Council and a non-Federal member, 
should advise the President on ocean and coastal policy matters and 
serve as a formal structure for input from non-Federal individuals and 
organizations. It should be composed of a representative selection of 
individuals appointed by the President, including governors of coastal 
states, other appropriate State, territorial, tribal and local 
government representatives, and individuals from the private sector, 
research and education communities, nongovernmental organizations, 
watershed organizations and other non-Federal bodies with ocean 
interests. The members should be knowledgeable about and experienced in 
ocean and coastal issues.

Need for Presidential Action--the Assistant to the President
    Although Congress should establish the National Ocean Council and 
the Presidential Council of Advisors on Ocean Policy in law to ensure 
their long-term future, the Commission is cognizant of the complex and 
often lengthy nature of the legislative process. While awaiting 
congressional action, the President should immediately establish these 
entities through Executive Order, and should appoint an Assistant to 
the President to chair the Council. As chair of the NOC and co-chair of 
the Presidential Council of Advisors on Ocean Policy, the Assistant to 
the President should lead the coordination of Federal agency actions 
related to oceans and coasts, make recommendations for Federal agency 
reorganization as needed to improve ocean and coastal management, 
resolve interagency policy disputes, and promote regional approaches. 
The Assistant to the President should also advise OMB and the agencies 
on appropriate funding levels for important ocean- and coastal-related 
activities, and prepare a biennial report as mandated by section 5 of 
the Oceans Act of 2000.

Office of Ocean Policy
    Because the National Ocean Council will be responsible for planning 
and coordination rather than operational duties, the support of a small 
staff and committees will be required to carry out its functions. An 
Office of Ocean Policy should support the Assistant to the President, 
the National Ocean Council, and the Presidential Council of Advisors on 
Ocean Policy. The Office of Ocean Policy should be composed of a small 
staff that reports to the Assistant to the President, managed by an 
executive director responsible for day-to-day activities. Strong links 
should be maintained among the National Ocean Council, its committees 
and staff, other parts of the Executive Office of the President, and 
ocean-related advisory councils and commissions.

Committee on Ocean Science, Education, Technology, and Operations
    A committee under the National Ocean Council will be needed to 
assume the functions of the current National Ocean Research Leadership 
Council (NORLC), a congressionally-established government coordination 
and leadership organization for oceanographic research programs on the 
national level. By placing the NORLC under the NOC and broadening its 
responsibilities to include operational programs and educational 
activities in addition to research, it will become more visible and 
more effective. In recognition of its broader mandate, the NORLC should 
be redesignated as the Committee on Ocean Science, Education, 
Technology, and Operations (COSETO). Strong connections between the 
Office of Science and Technology Policy and the NOC (through COSETO) 
will be essential. To eliminate overlapping functions, the National 
Science and Technology Council's Joint Subcommittee on Oceans, should 
be subsumed into COSETO.

Committee on Ocean Resource Management
    The National Ocean Council will need a second committee, to 
coordinate Federal resource management policy, including the many 
existing, single-issue coordination efforts such as the Coral Reef Task 
Force, the Interagency Committee on the Marine Transportation System, 
the National Dredging Team, Coastal America, and many others. The NOC 
Committee on Ocean Resource Management (CORM) would perform high-level, 
cross-cutting oversight of these issue-specific efforts to ensure 
consideration of cumulative impacts, minimize conflicting mandates, and 
implement an ecosystem-based management approach. Because of the 
Council on Environmental Quality's role in environmental issues, this 
office should also maintain strong connections with the National Ocean 
Council and its CORM.

A Regional Approach
    In addition to improved coordination at the national level, an 
important component of the new National Ocean Policy Framework is the 
promotion of regional approaches that allow decisionmakers to address 
issues across jurisdictional lines. The nation's ocean and coastal 
resources are affected by human activities that span cities, counties, 
States, and sometimes nations. Federal, State, territorial, tribal, and 
local governments need the ability to respond to ocean and coastal 
issues in a coordinated fashion within regions defined by the 
boundaries of ecosystems rather than somewhat arbitrary government 
jurisdictions. The voluntary establishment of regional ocean councils, 
improved coordination of Federal agency efforts at the regional level, 
and dissemination of regionally significant research and information 
would enhance regional coordination and improve responses to regional 
issues.

Creating Regional Ocean Councils
    There are many examples where concern for the health of a 
particular ecosystem (such as the Chesapeake Bay, Pacific Northwest, 
Gulf of Mexico, or Mississippi River Basin) has motivated a wide range 
of participants to create new structures for addressing regional 
concerns. There is a growing awareness that existing regional 
approaches can be strengthened and similar approaches can benefit the 
health and productivity of all the Nation's ocean and coastal regions.
    Regional ocean councils can serve as mechanisms for a wide range of 
participants to join forces to address issues of regional concern, 
realize regional opportunities, identify regional goals, and promote a 
sense of stewardship for a specific area among all levels of 
government, private interests, and the public. It will be up to the 
participants--including representatives from all levels of government, 
the private sector, nongovernmental organizations, and academia--to 
determine how the council will operate in each region. Possible council 
functions might include:

  <bullet> designating ad hoc subcommittees to examine specific issues 
        of regional concern;

  <bullet> mediating and resolving disputes among different interests 
        in the region;

  <bullet> monitoring and evaluating the state of the region and the 
        effectiveness of management efforts;

  <bullet> building public awareness about regional ocean and coastal 
        issues;

  <bullet> facilitating government approvals or permitting processes 
        that involve several Federal, State, and local government 
        agencies within the region; and

  <bullet> helping to link activities located in upstream, coastal, and 
        offshore areas within an ecosystem-based management context.

    Regional ocean councils should be created by interested parties at 
the State and local level, rather than mandated by the Federal 
Government. However, to stimulate the process, the National Ocean 
Council should develop flexible guidelines for the voluntary creation 
of regional ocean councils. Initial efforts should be encouraged in 
regions where readiness and support for a regional approach is already 
strong. The first councils can then serve as pilot projects, allowing 
those involved to learn what works in the region, building support to 
implement a regional ocean council, and paving the way for councils in 
other regions. Once established, regional ocean councils will most 
likely evolve, as participants identify the structure and functions 
that best suit their needs. Whether a council has decisionmaking 
authority will be up to the regional participants. National involvement 
may be necessary to implement more formal decisionmaking mechanisms 
such as legislation, interagency agreements, and interstate compacts.
    Regional ocean councils should encompass an area from the inland 
extent of coastal watersheds to the offshore boundary of the Nation's 
EEZ. The boundaries of the Regional Fishery Management Councils (RFMCs) 
may be considered as a starting point, although these regions may not 
always be suitable. For example, more than one regional ocean council 
will probably be necessary within California where there is only one 
RFMC. A regional ocean council for the Great Lakes region is also 
desirable.

Improving Regional Coordination of Federal Agencies
    While the process of planning, establishing, and testing regional 
ocean councils is underway, Federal agencies should be directed to 
immediately improve their own regional coordination and provide 
stronger institutional, technical, and financial support for regional 
issues. Currently, the actions of Federal agencies often overlap, 
conflict, or are inconsistent with one another at the regional and 
State levels. Although several Federal agencies already divide their 
operations into regions, the boundaries of these regions differ from 
one agency to the next, the functions of regional offices vary widely, 
and it is common for the regional office of one agency to operate in 
isolation from the regional offices of other agencies. Improved 
regional coordination should be a first step, followed in time by 
Federal reorganization around common regional boundaries.

Enhancing Regional Research and Information
    Decisionmakers at all levels need the best available science, 
information, tools, and technology on which to base ocean and coastal 
management decisions. However, research and data collection targeted at 
regional concerns is severely limited. Furthermore, the data that do 
exist are rarely translated into products that are useful to managers. 
Regional ocean information programs should be established to set 
priorities for research, data collection, information products, and 
outreach activities in support of improved regional management. Where 
and when they are established, regional ocean councils will be the 
logical bodies to administer these programs.

Improved Governance of Offshore Waters
    Converging economic, technological, legal, and demographic factors 
make Federal waters an increasingly attractive place for enterprises 
seeking to tap the ocean's resources. The challenge for policymakers 
will be to realize the ocean's potential while minimizing conflicts 
among users, safeguarding human and marine health, and fulfilling the 
Federal Government's obligation to manage public resources for the 
maximum long-term benefit of the entire nation. While institutional 
frameworks exist for managing some ocean uses, increasingly 
unacceptable gaps remain.
    The array of agencies involved, and their frequent lack of 
coordination, can create roadblocks to public participation, discourage 
private investment, cause harmful delays, and generate unnecessary 
costs. This is particularly true for new ocean uses that are subject to 
scattered or ill defined Federal agency authorities and an uncertain 
decisionmaking process. Without an understandable, streamlined, and 
broadly accepted method for reviewing proposed activities, ad hoc 
management approaches will continue, perpetuating uncertainty and 
raising questions about the comprehensiveness and legitimacy of 
decisions.
    To start, each existing or foreseeable activity in Federal waters 
should be overseen by one lead Federal agency, designated by Congress 
to coordinate among all the agencies with applicable authorities while 
ensuring full consideration of the public interest. Pending such 
designations, the NOC should assign agencies to coordinate research, 
assessment, and monitoring of new offshore activities.
    But better management of individual activities is only a first 
step. To move toward an ecosystem-based management approach, the 
Federal Government should develop a broad understanding of offshore 
areas and their resources, prioritize all potential uses, and ensure 
that activities within a given area are compatible. As the pressure for 
offshore uses grows, and before serious conflicts arise, coordination 
should be improved among the management programs for different offshore 
activities. The National Ocean Council should review each single-
purpose program that regulates some offshore activity with the goal of 
determining how all such programs may be better coordinated.
    Ultimately, the Nation needs a coordinated offshore management 
regime that encompasses traditional and emerging uses, and is flexible 
enough to incorporate uses not yet foreseen. The new regime will need 
to make decisions and resolve disputes through an open process accepted 
by all parties. Congress, working with the NOC and regional ocean 
councils, should establish such an offshore management regime and 
establish principles for offshore use, including the need to:

  <bullet> integrate single-purpose programs within the broader 
        offshore regime;

  <bullet> create a planning process for new and emerging activities; 
        and

  <bullet> ensure a reasonable return to the public in exchange for 
        allowing private interests to profit from public resources.

    Establishing a coordinated offshore management regime will take 
time, and it will not be easy. No regime for governing ocean activities 
will eliminate all conflicts, given the complexity of the problems and 
the diverse perspectives of competing interests. However, the National 
Ocean Council, Presidential Council of Advisors on Ocean Policy, 
regional ocean councils, and other components of the National Ocean 
Policy Framework provide a promising basis for more coordinated, 
participatory management of ocean activities.

Marine Protected Areas
    In contemplating the coordinated, ecosystem-based management of 
both nearshore and offshore areas, marine protected areas can be a 
valuable tool. Marine protected areas can be created for many different 
reasons, including conserving living marine resources and habitat, 
protecting endangered or threatened species, maintaining biological 
diversity, and preserving historically or culturally important 
submerged archeological resources. These areas have also been 
recognized for their scientific, recreational, and educational values.
    The creation of new MPAs can be a controversial process: supported 
by those who see their benefits, while vigorously opposed by others who 
dislike the limitations MPAs impose on ocean uses. Thus, it is 
important to engage local and regional stakeholders in the design and 
implementation of marine protected areas to build support and ensure 
compliance with any restrictions. Because marine protected areas also 
have national implications, such as possible impacts on freedom of 
navigation, Federal involvement and oversight will still be needed.
    With its multiple use, ecosystem-based perspective, the National 
Ocean Council should oversee the development of a flexible process--
which is adaptive and based on best available science--to design and 
implement marine protected areas. Regional ocean councils, or other 
appropriate entities, can provide a forum for applying the process 
developed by the NOC, with broad stakeholder participation.
Strengthening and Streamlining the Federal Agency Structure
    Although improved coordination is a vital aspect of the new 
National Ocean Policy Framework, changes to the Federal agency 
structure itself will also be needed. The proliferation of Federal 
agencies with some element of responsibility for ocean and coastal 
activities immediately suggests that some consolidation is possible. 
Combining similar ocean and coastal functions and programs could 
improve government performance, reduce unnecessary overlaps, facilitate 
local, State, and regional interactions with the Federal Government, 
and begin to move the Nation toward a more ecosystem-based management 
approach.
    However, the complex Legislative and Executive Branch process for 
making such changes compels a cautious, methodical, multi-phased 
approach for improving the Federal structure.

Strengthening NOAA--Phase I
    NOAA's mission is to understand and predict changes in the Earth's 
environment and to conserve and manage ocean and coastal resources to 
meet the Nation's economic, social, and environmental needs. Since its 
creation, NOAA has made significant strides in many areas, despite 
programmatic and functional overlaps and frequent disagreements and 
disconnects among its five line offices. Although the organization has 
evolved over time, including the recent creation of a sixth line office 
to improve integration on specific issues, these changes take time and 
results can be hard to quantify.
    There is widespread agreement that NOAA needs to manage its current 
activities more effectively. Moreover, if the recommendations in the 
Commission's preliminary report are implemented, NOAA will be required 
to handle a number of new responsibilities. A stronger, more effective, 
science-based and service-oriented ocean agency--one that contributes 
to better management of oceans and coasts through an ecosystem-based 
approach--is needed.
    NOAA's three primary functions can be summarized as follows:

        (1) Assessment, prediction, and operations for ocean, coastal, 
        and atmospheric environments, including mapping and charting, 
        satellite-based and in situ data collection, implementation of 
        the Integrated Ocean Observing System, data information 
        systems, and weather services and products.

        (2) Marine resource and area management, including fisheries, 
        ocean and coastal areas, vulnerable species and habitats, and 
        protection from pollution and invasive species.

        (3) Scientific research and education, including a focus on 
        applied research, the availability of scientifically valid 
        data, and promotion of educational activities.

    One of the critical objectives for a strengthened NOAA is improved 
performance within these categories and smoother interactions among 
them. For example, resource management decisions should be based on the 
best available science, research itself should be planned to support 
the agency's management missions, and research in different areas--sea, 
land, and air--should be connected and coordinated. Changes of this 
nature will likely require adjustments to the internal operation of the 
agency, including possible additional changes to the current line 
office structure.
    These changes can be promoted by codifying the establishment and 
functions of the National Oceanic and Atmospheric Administration 
through passage of an organic act for the agency. The act should ensure 
that NOAA's structure is consistent with the principles of ecosystem-
based management and with its primary functions: assessment, 
prediction, and operations; management; and research and education. 
NOAA will require budget support commensurate with its important, 
varied, and growing responsibilities.

Reviewing NOAA's Budget
    NOAA's placement within the Department of Commerce has an unusual 
history and continues to be questioned by many observers. If nothing 
else, this affiliation has distinct budgetary implications. As part of 
DOC, NOAA's budget is reviewed within the Office of Management and 
Budget's General Government Programs, along with other DOC programs 
with fundamentally different characteristics and missions. NOAA's OMB 
review also fails to consider its ocean and atmospheric programs in 
context with other Federal resource management and science programs. To 
support the move toward a more ecosystem-based management approach, 
NOAA's budget should be reviewed within OMB's Natural Resources 
Programs, along with the budgets of more similar departments and 
agencies.

Consolidating Ocean and Coastal Programs--Phase II
    As I have said, many agencies across the Federal Government--in 
addition to NOAA--administer ocean- and coastal-related programs. 
Although I have focused on NOAA as the primary ocean agency, the other 
agencies should also be strengthened in similar ways.
    However, even solid performance within each agency will not 
eliminate the many similar or overlapping activities. In some cases, 
programmatic overlap can provide useful checks and balances as agencies 
bring different perspectives and experiences to the table. In other 
cases, the number of separate agencies addressing a similar issue is 
not helpful. Such fragmentation diffuses responsibility, introduces 
unnecessary overlap, raises administrative costs, inhibits 
communication, and interferes with the development of a comprehensive 
management regime that addresses issues within an ecosystem-based 
context.
    The Commission's preliminary report presents specific 
recommendations on program consolidation in areas such as nonpoint 
source pollution, area-based ocean and coastal resource management, 
vessel pollution, invasive species, marine mammals, aquaculture, and 
satellite-based Earth observing. Using these recommendations as a 
starting point, the Assistant to the President, with advice from the 
National Ocean Council and the Presidential Council of Advisors on 
Ocean Policy, should review Federal ocean, coastal and atmospheric 
programs, and recommend further opportunities for consolidation.
    Programs not suitable for consolidation--such as security-related 
programs that cannot be transferred without harm to the overall 
enterprise--should continue to be coordinated through the National 
Ocean Council and the regional ocean councils. However, in most cases, 
judicious consolidation of ocean- and coastal-related functions will 
improve policy integration and program effectiveness.

Presidential Reorganization Authority
    The recommended program consolidation will not be easy within the 
current legislative process. The creation and reorganization of 
agencies is often contentious, lengthy, and uncertain, involving 
multiple committees in both houses of Congress. Recognizing this 
shortcoming, Congress has several times in the past chosen to give the 
President limited reorganization authority. Renewing this authority by 
allowing the President to propose agency reorganization, with an 
expedited and limited congressional review and approval process, would 
provide an excellent mechanism to achieve reorganization of Federal 
ocean- and coastal-related agencies in a timely fashion.

Managing all Natural Resources in an Ecosystem-based Management 
        Context--Phase III
    Strengthening the performance of ocean, coastal, and atmospheric 
programs through coordination and consolidation are important steps in 
moving toward an ecosystem-based management approach. By immediately 
establishing the National Ocean Council and strengthening NOAA, 
followed by the consolidation of suitable ocean and coastal programs 
and functions, the Nation will be poised to take a further step in 
strengthening the Federal Government structure.
    Based on a growing understanding of ecosystems, including 
recognition of the inextricable links among the sea, land, air, and all 
living things, a more fundamental reorganization of Federal resource 
agencies will eventually be needed. Consolidation of all natural 
resource functions, including those involving oceans and coasts, would 
enable the Federal Government to move toward true ecosystem-based 
management. This could be implemented through the establishment of a 
Department of Natural Resources or some other structural unification 
that brings together all of the Nation's natural resource programs.
Science-Based Decision: Advancing Our Understanding of the Oceans
    Ecosystem-based management provides many potential benefits, but 
also imposes new responsibilities on managers. The need to collect good 
information and to improve understanding is perhaps foremost among 
these new responsibilities. Despite considerable progress over the last 
century, the oceans remain one of the least explored and most poorly 
understood environments on the planet.
    Greater knowledge can enable policymakers and managers to make 
wise, science-based decisions at the national, regional, State, and 
local levels. However, existing research and monitoring programs, which 
tend to be agency-specific and single issue oriented, will need to be 
reorganized to support ecosystem-based management. The current mismatch 
between the size and complexity of marine ecosystems and the fragmented 
research and monitoring programs for coastal and ocean ecosystems must 
be resolved.
    The nation also lacks effective mechanisms for incorporating 
scientific information into decisionmaking in a timely manner. As 
knowledge improves, it must be translated into useful terms and 
actively incorporated into policy through an adaptive process. To make 
the translation effective, local, State, regional, and national 
managers need avenues to communicate their information needs and 
priorities to the research community.
    In addition to these practical needs, ocean science and technology 
will continue to be an integral part of the overall U.S. basic research 
enterprise and future discoveries will undoubtedly contribute greatly 
to society. Fundamental knowledge about the oceans is essential to 
understanding the Earth's environment and how it changes over time, 
assessing and predicting the status of marine resources, finding 
beneficial new uses of ocean resources, and protecting national 
security.

Federal Leadership in Ocean Science and Technology
    Our Commission defines ocean science and technology broadly to 
include: exploration of new ocean environments; basic and applied 
research to increase understanding of the biology, chemistry, physics, 
and geology of the oceans and coasts, their interactions with 
terrestrial, hydrologic, and atmospheric systems, and the interactions 
between ocean and coastal regions and humans; and the development of 
new methodologies and instruments.
    Today, 15 Federal agencies support or conduct diverse activities in 
ocean science, technology, assessment, and management. The heads of 
these agencies direct the National Oceanographic Partnership Program 
(NOPP), which coordinates national oceanographic research and 
education. NOPP has provided a useful venue for agencies to support a 
small number of ocean science and technology projects, but it has not 
realized its full potential as an overarching mechanism for 
coordination among Federal agencies and State, local, academic, and 
private entities.
    Under the proposed National Ocean Policy Framework, the National 
Ocean Council's Committee on Ocean Science, Education, Technology, and 
Operations (COSETO) will assume leadership of NOPP to implement a broad 
national strategy for ocean research, education, observation, 
exploration, and marine operations. NOPP's existing offices and 
committees will be incorporated within this structure. Ocean.US, the 
lead office for planning the Integrated Ocean Observing System (IOOS), 
and the Federal Oceanographic Facilities Committee which provides 
advice on oceanographic facilities, will both report to COSETO.

Creating a National Strategy for Ocean Science and Technology
    The United States needs a national strategy for ocean and coastal 
research, exploration, and marine operations that can help meet the 
ocean resource management challenges of the 21st century and ensure 
that useful products result from Federal investments in ocean research. 
Much more needs to be known about how marine ecosystems function on 
varying spatial scales, how human activities affect marine ecosystems 
and how, in turn, these changes affect human health. Coordinated and 
enhanced research activities and marine operations are needed to:

  <bullet> understand biological, physical, and chemical processes and 
        interactions

  <bullet> maintain overall ecosystem health and biological diversity

  <bullet> observe, monitor, assess, and predict environmental events 
        and long-term trends

  <bullet> explore the ocean depths for new resources

  <bullet> map ocean and coastal areas for safe navigation and resource 
        management

    Furthermore, the ocean and coastal environment is rife with 
conflicts among competing users and between groups of people applying 
different sets of values to the same issues. To resolve these 
conflicts, information is needed not only about the natural environment 
but also about relevant social, cultural, and economic factors.
    Better coordination and increased support of ocean science and 
technology activities nationwide will help the United States to address 
numerous management challenges, and will position the Nation to quickly 
tackle new issues as they emerge.

Advancing Ocean and Coastal Research
    The United States has a wealth of ocean research expertise spread 
across a network of government and industry laboratories and world-
class universities, colleges, and marine centers. With strong Federal 
support, these institutions made the United States the world leader in 
oceanography during the 20th century. However, a leader cannot stand 
still. Ocean and coastal management issues continue to grow in number 
and complexity, new fields of study have emerged, new interdisciplinary 
approaches are being tried, and there is a growing need to understand 
the ocean on a global and regional scale. All this has created a 
corresponding demand for high-quality scientific information. And while 
the need for increased information continues to grow, the Federal 
investment in ocean research has stagnated in recent decades.
    The current annual Federal investment in marine science is well 
below the level necessary to address adequately the Nation's needs for 
coastal and ocean information. Unless funding increases sharply, the 
gap between requirements and resources will continue to grow and the 
United States will lose its position as the world's leader in ocean 
research.
    Congress should double the Federal ocean and coastal research 
budget over the next five years, from the 2004 level of approximately 
$650 million to $1.3 billion per year. As part of this increase, the 
National Ocean Council or Congress should:

  <bullet> fund the research component of the regional ocean 
        information programs to provide practical, management-oriented 
        information at regional, State, and local levels;

  <bullet> create a national program for social science and economic 
        research to examine the human dimensions and economic value of 
        the Nation's oceans and coasts, with funding of at least $8-10 
        million a year;

  <bullet> establish a joint Oceans and Human Health Initiative funded 
        at $28 million a year;

  <bullet> significantly increase the budget of the National Sea Grant 
        College Program.

    To ensure that increased investments are used wisely and that 
important research activities continue, Federal agencies will need to 
create long-term strategic plans. A mechanism is required to coordinate 
federally-funded ocean research, support long-term projects, and create 
partnerships throughout all agencies and sectors. Transparent and 
comprehensive research plans would achieve these goals and ensure that 
research results can be translated into operational products in a 
timely manner. The National Ocean Council should develop a national 
ocean research strategy that reflects a long-term vision, promotes 
advances in basic and applied ocean science and technology, and guides 
relevant agencies in developing ten-year science plans and budgets.

Ocean Exploration
    About 95 percent of the ocean floor remains unexplored, much of it 
located in harsh environments such as the polar latitudes and the 
Southern Ocean. Experience teaches us, however, that these vast and 
remote regions teem with undiscovered species and resources. On 
virtually every expedition, oceanographers discover fascinating new 
creatures. Advances in deep-sea technologies have also made it easier 
to locate shipwrecks and historical artifacts lost in the ocean depths, 
such as the stunning discovery of the RMS Titanic in 1985. The 
continued exploration of marine archaeological sites will help us to 
better understand human history and our global cultural heritage.
    Very little is known about the ocean depths due primarily to the 
lack of a long-term, large-scale national commitment to ocean 
exploration. In 2000, recommendations from the President's Panel on 
Ocean Exploration led to the establishment of the Office of Exploration 
within NOAA, at a modest funding level of $4 million in Fiscal Year 
2001, and $14 million in each of Fiscal Years 2002 and 2003. This 
program is helping NOAA to fulfill its applied science, environmental 
assessment, and technology development responsibilities; although the 
program's small budget and agency-specific focus limit its 
effectiveness.
    NOAA and NSF, by virtue of their missions and mandates, are well 
positioned to lead a global U.S. ocean exploration effort. NOAA 
currently runs the Office of Ocean Exploration, but NSF's focus on 
basic research provides an excellent complement to NOAA's more applied 
mission. Working together, the two agencies have the capacity to 
systematically explore and conduct research in previously unexamined 
ocean environments. To succeed, coordination, joint funding, and 
interactions with academia and industry will be essential. Congress 
should appropriate significant funding for an expanded national ocean 
exploration program and the National Oceanic and Atmospheric 
Administration and the National Science Foundation should be designated 
as the lead agencies. An expanded national ocean exploration program 
will require a budget of approximately $110 million annually, plus 
additional funds for required infrastructure.

Mapping, Charting, and Assessments
    The need for routine mapping, monitoring, and assessment of U.S. 
waters has grown significantly in the past two decades. Accurate, up-
to-date maps and charts of harbors, coastlines, and the open ocean are 
necessary for many activities, including shipping, military operations, 
and scientific research. In addition, expanded regulatory regimes rely 
heavily on routine assessments of living and nonliving marine resources 
and water quality. Modern sensor technologies, which can detect new 
variables in greater detail in the water column and seafloor, have 
improved our ability to follow changing ocean and terrestrial dynamics. 
But as these new technologies are implemented, they need to be 
calibrated against previous methods, as well as with each other, to 
provide useful environmental characterizations and ensure the 
consistency of long-term statistical data sets.
    At least ten Federal agencies, almost all coastal states, and many 
local agencies, academic institutions, and private companies are 
involved in mapping, charting, and assessing living and nonliving 
resources in U.S. waters. However, different organizations use varying 
methods for collecting and presenting these data, leading to disparate 
products that contain gaps in the information they present. Ideally, a 
variety of information (e.g., bathymetry, topography, bottom type, 
habitat, salinity, vulnerability) should be integrated into maps using 
Global Positioning System coordinates and a common geodetic reference 
frame. In addition, these maps should include living marine resources, 
energy resources, and environmental data when available, to create 
complete environmental characterizations necessary for developing and 
implementing science-based ecosystem-based management approaches.
    Coordination of the many existing Federal mapping activities will 
increase efficiency and help ensure that all necessary surveys are 
conducted. Drawing upon the mapping and charting abilities found in the 
private sector and academia will also be necessary to achieve the best 
results at the lowest cost.
    The National Ocean Council should coordinate Federal ocean and 
coastal resource assessment, mapping, and charting activities with the 
goal of creating standardized, easily accessible national maps that 
incorporate living and nonliving marine resource data along with 
bathymetry, topography, and other natural features.

Achieving a Sustained, Integrated Ocean Observing System
    About 150 years ago, this Nation set out to create a comprehensive 
weather forecasting and warning network and today most people cannot 
imagine living without constantly updated weather reports. Recognizing 
the enormous national benefits that have accrued from the weather 
observing network, it is time to invest in a similar observational and 
forecasting capability for the oceans. This system would gather 
information on physical, geological, chemical, and biological 
parameters for the oceans and coasts, conditions that affect--and are 
affected by--humans and their activities. The United States currently 
has the scientific and technological capacity to develop a sustained, 
national Integrated Ocean Observing System (IOOS) that will support and 
enhance the Nation's efforts for:

  <bullet> improving the health of our coasts and oceans;

  <bullet> protecting human lives and livelihoods from marine hazards;

  <bullet> supporting national defense and homeland security efforts;

  <bullet> measuring, explaining, and predicting environmental changes;

  <bullet> providing for the sustainable use, protection, and enjoyment 
        of ocean resources;

    The National Ocean Council should make the development and 
implementation of a sustained, national Integrated Ocean Observing 
System a central focus of its leadership and coordination role. The 
United States simply cannot provide the economic, environmental, and 
security benefits listed above, achieve new levels of understanding and 
predictive capability, or generate the information needed by a wide 
range of users, without implementing the IOOS.
    The IOOS is based on two components: (1) open ocean observations 
conducted in cooperation with the international Global Ocean Observing 
System (GOOS) and (2) a national network of coastal observations 
conducted at the regional level. The coastal component will include the 
U.S. exclusive economic zone, the Great Lakes, and coastal and 
estuarine areas.
    A strong national governance structure is required to establish 
policy and provide oversight for all components of the IOOS and to 
ensure strong integration among the regional, national, and global 
levels. Interagency coordination and consensus through the National 
Ocean Council and Ocean.US will be essential. While regional systems 
will retain a level of autonomy, achievement of the IOOS with 
nationwide benefits will require the regional systems to follow some 
national guidelines and standards. In addition, developers of the IOOS 
must ensure that the global component is not minimized and that the 
connectivity with the GOOS, including U.S. funding and leadership, 
remains strong and viable.

Formalizing Ocean.US
    Ocean.US has made significant progress as the lead organization for 
the design and implementation of the national IOOS. However, a 
fundamental problem current exists in that Ocean.US has a number of 
responsibilities without any real authority or control over budgets. 
Its ephemeral existence under the Memorandum of Agreement which created 
it, its dependence on personnel detailed from the member agencies, and 
its lack of a dedicated budget severely detract from its stature within 
the ocean community and its ability to carry out its responsibilities. 
Congress should formally establish Ocean.US under the National Ocean 
Council structure so that it may effectively advise the NOC and achieve 
its coordination and planning mandates. The office requires consistent 
funding and dedicated full-time staff with the expertise and skills 
needed to ensure professional credibility. In addition, outside experts 
on rotational appointments could help Ocean.US better meet its 
responsibilities.

Coordinating Regional Observing Systems
    Ocean.US envisions the creation of a nationwide network of regional 
ocean observing systems that will form the backbone of coastal 
observations for the IOOS. Although Ocean.US has proposed the creation 
of Regional Associations, coordinated through a national federation, as 
the governing bodies of the regional systems, this concept is 
unnecessarily narrow. To fully address the needs of coastal managers, 
ocean observations need to be integrated into other information 
gathering activities such as regionally-focused research, outreach and 
education, and regional ecosystem assessments. Thus, the proposed 
regional ocean information programs provide a more comprehensive 
mechanism for developing and implementing regional ocean observing 
systems, in coordination with their broader responsibilities. Regular 
meetings among all the regional ocean information programs and Ocean.US 
will be important for providing regional and local input into 
developing requirements of the national IOOS.

Reaching Out to the User Community
    The IOOS must meet the needs of a broad suite of users, including 
the general public. To get the most out of the IOOS, resource managers 
at Federal, State, regional, territorial, tribal, and local levels will 
need to supply input about their information needs and operational 
requirements and provide guidance on what output would be most useful. 
Other users, including educators, ocean and coastal industries, 
fishermen, and coastal citizens, must also have a visible avenue for 
providing input. Ocean.US and the regional ocean information programs 
will need to devote significant time and thought to proactively 
approaching users and promoting public awareness of the enormous 
potential of the IOOS.

Planning Space-based Observations
    An integral part of the national IOOS are the space-borne sensors 
that provide comprehensive, real-time, widespread coverage of ocean 
conditions and features. However, implementing sustained observations 
from space requires intense planning with long lead times. Given the 
cost, the time frame for constructing and launching satellites, and the 
inability to modify satellites once in orbit, five- to ten-year plans 
are required to ensure that satellite observations will be available on 
a continuous basis and employ the most useful and modern sensors. 
Ocean.US and NOAA must work with NASA to ensure that ongoing satellite 
operations are fully integrated into the national IOOS.
    Both NOAA and NASA currently operate civilian, space-based, Earth 
observing programs that measure terrestrial, atmospheric, and oceanic 
variables. NOAA's primary mission in this area is to provide sustained, 
operational observations for monitoring and predicting environmental 
conditions and long-term changes, with a focus on weather and climate. 
In contrast, NASA's mission is to advance research efforts and sensor 
development. A NASA project can last from a few days to a few years, 
and NASA has repeatedly asserted that it is not in the business of 
providing data continuity. In many instances, the lifetime of a NASA 
satellite, and its continued ability to collect and transmit data, 
outlasts its funding, resulting in premature termination at odds with 
the pressing demands for data in the operational context. Thus NASA's 
efforts have not, and will not, result in the sustained capabilities 
needed for the national IOOS.
    Congress should transfer the operation of NASA's Earth 
environmental observing satellites, along with associated resources, to 
NOAA to achieve continuous data collection. NOAA and NASA should work 
together to plan future missions and then ensure the smooth transition 
of each Earth environmental observing satellite after its launch. By 
consolidating Earth, and particularly ocean, observing satellite 
missions in NOAA, more seamless, long-term planning will be possible, 
resulting in a smooth concept-to-operations data collection process.

Information Product Development
    To justify large Federal investments in the IOOS, the system must 
result in tangible benefits for a broad and diverse user community, 
including the general public, scientists, resource managers, emergency 
responders, policymakers, private industry, educators, and officials 
responsible for homeland security. National Weather Service and 
commercial meteorological products have applications ranging from 
scientific research to human safety, transportation, agriculture, and 
simple daily forecasts. Similarly, IOOS products should be wide-ranging 
and based on the needs of regional and local organizations and 
communities, as well as national needs. The regional ocean information 
programs should help produce information products of benefit to 
regional, State, and local managers and organizations. These regional 
programs will also provide important feedback to national forecasters 
and modelers about ways to make national IOOS products more useful.

Funding the IOOS
    To fulfill its potential, the IOOS will require stable funding over 
the long haul. The lack of long-term funding for existing regional 
ocean observing systems has contributed to their isolation and 
piecemeal implementation. But consistent funding will help ensure that 
the American public receives the greatest return for its investment in 
the form of useful information, reliable forecasts, and timely 
warnings. The estimated start-up costs for the implementation of the 
national IOOS over the first five years is close to $2 billion.
    Continuous improvements to IOOS observation and prediction 
capabilities will also require sustained investments in technology 
development. Considering the costs of sensor development, 
telecommunications, computer systems, and improvements in modeling and 
prediction capabilities, annual costs for operating, maintaining, and 
upgrading the national IOOS are estimated to be $650-$750 million a 
year.

Whole Earth Observations
    The IOOS cannot exist as a stand-alone system, developed without 
considering associated observations. Rather, it should be integrated 
with other environmental observing systems to link weather, climate, 
terrestrial, biological, watershed, and ocean observations into a 
unified Earth Observing System. The National Ocean Council should 
oversee coordination of the IOOS with other existing and planned 
terrestrial, watershed, atmospheric, and biological observation and 
information collection systems, with the ultimate goal of developing a 
national Earth Observing System. Such a system would improve 
understanding of environmental changes, processes, and interactions, 
making ecosystem-based management possible.

Enhancing Ocean Infrastructure and Technology Development
    A robust infrastructure with cutting-edge technology forms the 
backbone of modern ocean science. It supports scientific discovery and 
facilitates application of those discoveries to the management of ocean 
resources. The nation has long relied on technological innovation, 
including satellites, early-warning systems, broadband 
telecommunications, and pollution control devices to advance economic 
prosperity, protect life and property, and conserve natural resources. 
Ocean research, exploration, mapping, and assessment activities will 
continue to rely on modern facilities and new technologies to acquire 
data in the open ocean, along the coasts, in polar regions, on the 
seafloor, and even from space.
    The three major components of the Nation's scientific 
infrastructure for oceans and coasts are:

  <bullet> Facilities--land-based laboratories and ocean platforms, 
        including ships, airplanes, satellites, and submersibles, where 
        research and observations are conducted;

  <bullet> Hardware--research equipment, instrumentation, sensors, and 
        information technology systems used in the facilities; and

  <bullet> Technical Support--the expert human resources needed to 
        operate and maintain the facilities and hardware as well as 
        participating in data collection, assimilation, analysis, 
        modeling, and dissemination.

    The number and types of assets included in the national ocean 
science infrastructure are extensive and cover a wide range of Federal, 
State, academic, institutional, and private-sector entities.
    Together, they represent a substantial public and private 
investment that has made possible great strides in modern oceanography 
over the last 50 years. But a recent assessment of these assets 
revealed that significant components of the U.S. ocean infrastructure 
are aged or obsolete and that, in some cases, current capacity is 
insufficient to meet the needs of the ocean science and operational 
community. The National Ocean Council's Committee on Ocean Science, 
Education, Technology, and Operations should develop a national ocean 
and coastal infrastructure and technology strategy to achieve and 
maintain an appropriate mix of federally-supported, modern ocean 
facilities that meet the Nation's needs for quality resource 
management, science, and assessment.

Funding Needed Assets
    There are currently several critically needed components of the 
ocean science and technology infrastructure, including:

  <bullet> Surface vessels, such as new University National 
        Oceanographic Laboratory System vessels and fishery research 
        ships

  <bullet> Undersea vehicles, including an array of manned, remotely 
        operated, and autonomous submersibles

  <bullet> Aircraft, both manned and unmanned

  <bullet> Modern laboratories and instrumentation

  <bullet> Dedicated ocean exploration platforms

  <bullet> Telecommunications technology

  <bullet> Environmental and biological sensors

    Congress should establish a modernization fund to support these 
critical ocean infrastructure and technology needs. Such a fund would 
be used to build or upgrade facilities and acquire related 
instrumentation and equipment. It would also provide a mechanism to 
coordinate similar equipment purchases across agencies, where feasible, 
creating significant economies of scale. Current and future spending 
priorities for the fund should be based on the National Ocean Council's 
ocean and coastal infrastructure and technology strategy.
Transferring Technology
    The development of needed ocean technologies--whether identified by 
the national strategy or through interagency communication--requires 
directed funding and coordination. Federal agency programs will benefit 
by having a centralized office responsible for accelerating the 
transition of technological advances made by Federal and academic 
laboratories into routine operations.
    NOAA should create, and Congress should fund, an Office of 
Technology to expedite the transition of experimental technologies into 
operational applications. This office should work closely with academic 
institutions, the regional ocean information programs, the National 
Science Foundation, the U.S. Navy, the National Aeronautics and Space 
Administration, and other relevant agencies to achieve this mission.

Modernizing Ocean Data and Information Products
    Ocean and coastal data are essential for understanding marine 
processes and resources. They are the foundation for the science-based 
information on which resource managers depend. But storing and 
processing large amounts of data, and converting them into information 
products useful to a broad community of end users, remains a huge 
challenge.
    There are two major challenges facing data managers today: the 
exponentially growing volume of data, which continually strains data 
ingestion, storage, and assimilation capabilities; and the need for 
timely access to these data by the user community in a variety of 
useful formats. Meeting these challenges will require a concerted 
effort to integrate and modernize the current data management system. 
The ultimate goal of improved ocean data management should be to 
effectively store, access, integrate, and utilize a wide and disparate 
range of data needed to better understand the environment and to 
translate and deliver scientific results and information products in a 
timely way.

Interagency Coordination
    An interagency group, dedicated to ocean data and information 
planning, is needed to enhance coordination, effectively use existing 
resources for joint projects, schedule future software and hardware 
acquisitions and upgrades, and oversee strategic funding.
    Congress should amend the National Oceanographic Partnership Act to 
create and fund Ocean.IT as the lead Federal interagency planning 
organization for ocean and coastal data and information management. 
Ocean.IT should consist of representatives from all Federal agencies 
involved in ocean data and information management, be supported by a 
small office, and report to the National Ocean Council's Committee on 
Ocean Science, Education, Technology, and Operations.
    Ocean.IT should coordinate the development of a viable, long-term 
data management strategy which includes:

  <bullet> The implementation of an interagency plan to improve access 
        to data at the national data centers, Distributed Active 
        Archive Centers, and other discipline-based centers. This plan 
        will need to be appropriately integrated with other national 
        and international data management plans, including those for 
        the Integrated Ocean Observing System and Global Ocean 
        Observing System.

  <bullet> Opportunities to partner with the private sector to enhance 
        environmental data and information management capabilities.

    This organization should not have an operational role, but instead 
should be responsible solely for interagency planning and coordination, 
similar to the role of Ocean.US for the IOOS.

Informational Product Development
    Compared to a few decades ago, an impressive array of data and 
information products for forecasting ocean and coastal conditions is 
now available from a wide range of sources. A mechanism is now needed 
to bring these data together, including the enormous amounts of 
information that will be generated by the national IOOS, and use these 
data to generate and disseminate products beneficial to large and 
diverse audiences.
    The National Oceanic and Atmospheric Administration and the U.S. 
Navy should establish a joint ocean and coastal information management 
and communications program to generate information products relevant to 
national, regional, State, and local needs on an operational basis. 
This program should build on the Navy's model for operational 
oceanography and take advantage of the strengths of both agencies to 
reduce duplication and more effectively meet the Nation's information 
needs. This partnership will also allow for the prompt incorporation of 
classified military data into informational products without publicly 
releasing the raw data. A NOAA-Navy joint program would rapidly advance 
U.S. coastal and ocean analyses and forecasting capabilities using all 
available physical, biological, chemical, and socioeconomic data.
    Interactions between private companies and the NOAA-Navy national 
ocean and coastal information management and communications program 
could lead to the production of a wide range of general and tailored 
forecast and warning products. An interface between national 
forecasters at the NOAA-Navy program and the regional ocean information 
programs would also help identify ocean and coastal informational 
products of particular value at the regional and local levels.

Promoting Lifelong Ocean Education
    Education has provided the skilled and knowledgeable workforce that 
made America a world leader in technology, productivity, prosperity, 
and security. However, the emergence of rampant illiteracy about 
science, mathematics, and the environment now threaten the future of 
America, its people, and the oceans on which we rely.
    Testing results suggest that, after getting off to a good start in 
elementary school, by the time U.S. students graduate from high school 
their achievement in math and science falls well below the 
international average. Ocean-related topics offer an effective tool to 
keep students interested in science, increase their awareness of the 
natural world, and boost their academic achievement in many areas. In 
addition, the links between the marine environment and human experience 
make the oceans a powerful vehicle for teaching history, culture, 
economics, and other social sciences. Yet teachers receive little 
guidance on how they might use exciting ocean subjects to engage 
students, while adhering to the national and State science and other 
education standards that prescribe their curricula.
    In addition, a 1999 study indicated that just 32 percent of the 
Nation's adults grasp simple environmental concepts, and even fewer 
understand more complex issues, such as ecosystem decline, loss of 
biodiversity, or watershed degradation. It is not generally understood 
that nonpoint source pollution threatens the health of our coastal 
waters, or that mercury in fish comes from human activities via the 
atmosphere. Few people understand the tangible value of the ocean to 
the Nation or that their own actions can have an impact on that 
resource. From excess applications of fertilizers, pesticides, and 
herbicides on lawns, to the trash washed off city streets into rivers 
and coastal waters, ordinary activities contribute significantly to the 
degradation of the marine environment. Without an acknowledgement of 
the impacts associated with ordinary behavior and a willingness to take 
the necessary action--which may incur additional costs--achieving a 
collective commitment to more responsible lifestyles and new policies 
will be difficult.
    Excellent lifelong education in marine affairs and sciences is 
essential to raising public awareness of the close connection between 
the oceans and humans, including our history and culture. This 
awareness will result in better public understanding of the connections 
among the ocean, land, and atmosphere, the potential benefits and costs 
inherent in resource use, and the roles of government and citizens as 
ocean stewards.

Ocean Stewardship
    To successfully address complex ocean- and coastal-related issues, 
balance the use and conservation of marine resources, and realize 
future benefits from the ocean, an interested, engaged public will be 
needed. The public should be armed not only with the knowledge and 
skills needed to make informed choices, but also with a sense of 
excitement about the marine environment. Individuals should understand 
the importance of the ocean to their lives and should realize how 
individual actions affect the marine environment. Public understanding 
of human impacts on the marine environment should be balanced with 
recognition of the benefits to be derived from well-managed ocean 
resources. Because of the connection among the ocean, the atmosphere, 
and the land, inland communities need to be just as informed as seaside 
communities.

Science Literacy
    Ocean-related education has the potential to stem the tide of 
science illiteracy threatening to undermine the Nation's health, 
safety, and security. Children have a natural curiosity about the world 
around them and this allure could be parlayed into higher achievement 
in other subjects as well. The influence of the ocean on nearly every 
aspect of daily life, and the central role it plays in the development 
of the nation, make ocean-based studies ideal for enhancing student 
performance in areas such as geography, history, economics, policy, and 
law. Strengthening science literacy, therefore, encompasses not only 
natural sciences, but a full suite of social sciences.

Future Ocean Leaders
    The nation needs a diverse, knowledgeable, and adequately prepared 
workforce to enhance understanding of the marine environment and make 
decisions regarding complex ocean- and coastal-related issues. The 
education of the 21st century ocean-related workforce will require not 
only a strong understanding of oceanography and other disciplines, but 
an ability to integrate science concepts, engineering methods, and 
sociopolitical considerations. Resolving complex ocean issues related 
to economic stability, environmental health, and national security will 
require a workforce with diverse skills and backgrounds. Developing and 
maintaining such a workforce will rely, in turn, on programs of higher 
education that prepare future ocean professionals at a variety of 
levels and in a variety of marine-related fields.

Coordinating Ocean Education
    Although not all ocean-related Federal agencies have a specific 
education mission, most have made efforts to reach out to students, 
teachers, and the public to inform them about ocean issues, sometimes 
by adding ocean-related components to larger science and environmental 
education efforts. And while it is valuable for ocean-related 
information to be included as part of broader environmental and science 
education efforts, it is also important to support educational efforts 
that focus specifically on oceans, coasts, and the human relationship 
with them.
    Federal programs can provide many opportunities for ocean-related 
education, but ultimately education is a State responsibility, and 
control is exerted primarily at the local level. Therefore, the 
interaction between education administrators at the State, district, 
and individual school levels and Federal agencies will be fundamental 
to the success of any effort to use ocean-based examples to enhance 
student achievement. Aquariums, zoos, and other informal education 
centers also provide the public with opportunities to learn about the 
marine environment and should be integral components of a national 
effort to increase ocean-related education.
    Despite the existence of many positive efforts, ocean education 
remains a patchwork of independently conceived and implemented programs 
and activities. These efforts cannot provide the nationwide momentum 
and visibility needed to promote sustained ocean education for 
students, teachers, and the general public. Within the Federal 
Government, there is little discussion of ocean education, even among 
those agencies with the greatest responsibility for ocean issues. 
Different programs and funding mechanisms are not coordinated and 
resources are seldom leveraged. Even within individual agencies, 
offices that have education components often do not collaborate or 
communicate.
    To strengthen ocean education and coordinate Federal education 
efforts, the National Ocean Council should establish a national ocean 
education office (Ocean.ED) under its Committee on Ocean Science, 
Education, Technology, and Operations. This office should coordinate 
and integrate Federal agency programs and leverage resources; serve as 
a central, visible point of contact for K-12, university-level, and 
informal education partners; and work with all parties to develop 
coherent, comprehensive planning for ocean education efforts.
    To fulfill its coordination activities, Congress should provide 
dedicated funding for Ocean.ED operations and program implementation. 
However, this national effort is not meant to replace other successful 
programs and activities, but rather provide a mechanism for 
communication, coordination, and joining of forces.

Developing Ocean Curricula
    The value of ocean-based learning must be recognized within local 
school districts to create a demand for ocean-related education 
products. Federal, regional, State, and local education professionals 
need to advocate for the inclusion of ocean-based examples in State and 
local education requirements and testing. Collaborative efforts will be 
needed to develop research-based, ocean-related curricular materials 
that are aligned with State and national educational standards and meet 
the needs of teachers. Ocean.ED, working with State and local education 
authorities and the research community, should coordinate the 
development and adoption of ocean-related materials and examples that 
meet existing education standards.

Teaching the Teachers
    Higher expectations for our youth mean higher expectations for 
teachers as well. Students cannot achieve without instruction by 
capable teachers who are knowledgeable in the topics being presented. 
Thus, improving the quality of science and math education must begin 
with improving preparation of undergraduates studying to be teachers 
(referred to as pre-service teachers) and professional development for 
certified teachers in the classroom (referred to as in-service 
teachers).
    The ocean research community is brimming with potential for 
engaging K-12 educators in the excitement and satisfaction of the 
scientific enterprise, and the Nation's research infrastructure 
provides significant opportunities for formal preparation, hands-on 
involvement, and teacher certification. Although several public and 
private sector programs can provide teachers with research experience 
in ocean-related topics, access to these programs is quite limited, 
very few have long-term, stable funding, and the different efforts are 
poorly coordinated. Ocean.ED, working with academic institutions and 
local school districts, should help establish stronger and more 
effective relationships between the research and education communities 
to expand professional development opportunities for teachers and 
teacher educators.

Bringing Oceans Education to All Students
    Through field and laboratory experiments, oceans offer a natural 
avenue for students to gain first-hand exposure to science while 
developing an awareness of the importance of the ocean. Not all 
students are near, or able to travel to, the shore, but new ocean 
research technologies represent a tremendous and virtually untapped 
avenue to overcome this limitation, allowing students anywhere to be 
involved in real oceanographic investigations. The same remote-access 
technologies that make advanced ocean research possible can also help 
students and teachers participate in collecting, analyzing, and 
distributing ocean data. Enabling students to interact with practicing 
scientists, even if they are thousands of miles away, can help create a 
lifelong affinity for learning.
    Social, economic, and cultural factors can also play an influential 
role in inhibiting a student's access to education opportunities, 
especially science-based opportunities. These factors are unusually 
strong among minority students and other groups that have been 
traditionally underrepresented and underserved in scientific fields, 
including marine sciences. Repairing this broken link will depend on 
exposing minority students to ocean-related studies early in their 
education, continuing that exposure throughout their school years, and 
demonstrating the possibilities and rewards of a career in ocean-
related fields.
    Federal agencies and academic institutions should find ways to 
provide all students with opportunities to participate in ocean 
research and exploration, virtually or in person, including summer 
programs, field trips, remote participation in ocean expeditions, and, 
most important, after-school activities. Mentoring, especially near-
peer guidance, is critical and should be a component of any student-
oriented program. Ocean.ED should promote partnerships among school 
districts, institutions of higher learning, aquariums, science centers, 
museums, and private laboratories to develop more opportunities for 
students to explore the marine environment, both through virtual means 
and hands-on field, laboratory, and at-sea experiences. Ocean.ED should 
also ensure that ocean-based educational programs and materials 
acknowledge cultural differences and other aspects of human diversity, 
resulting in programs that expose students and teachers from all 
cultures and backgrounds to ocean issues.

Drawing Students into the Field of Ocean Science and Management
    The ocean community must compete with countless other professions 
in attracting the talent it needs. Success lies, in part, in promoting 
marine-related career opportunities among undergraduate students from a 
broad range of disciplines. First-hand experiences in marine fields can 
be influential in demonstrating the possibilities and rewards of an 
ocean-related career.
    Intellectually stimulating and financially attractive options for 
pursuing graduate studies in an ocean-related field must follow, so a 
student's developing interest in ocean studies is not overshadowed by 
other professions that actively pursue, encourage, and support their 
future leaders. Ocean sciences have another potentially important role 
to play at the undergraduate level. Marine science courses can be 
attractive options for non-science majors who need to fulfill science 
requirements for graduation, presenting an excellent opportunity to 
raise general ocean awareness.
    The National Oceanic and Atmospheric Administration, National 
Science Foundation, and Office of Naval Research should support 
colleges and universities in promoting introductory marine science 
courses to expose students, including non-science majors, to these 
subjects.

Training Ocean Professionals
    Because ocean science is fundamentally interdisciplinary, well-
trained ocean professionals can find excellent careers in many areas 
including engineering, economics, education, law, management, policy, 
science, and technology. Individuals considering or pursuing graduate 
studies in a marine field should be aware of these options, and 
exploration of nontraditional marine areas should be encouraged. 
Equally important, professionals educated and trained in other fields 
should be made aware of the exciting opportunities available to them in 
marine-related fields.
    Ocean.ED should guide and promote the development of the Nation's 
ocean-related workforce by:

  <bullet> promoting student support, diversified educational 
        opportunities, and investment in innovative approaches to 
        graduate education that prepare students for a broad range of 
        careers in academia, government, and industry;

  <bullet> encouraging graduate departments of ocean sciences and 
        engineering to experiment with new or redesigned programs that 
        emphasize cross-disciplinary courses of study.

    Complementing the need to create an adequate workforce is the need 
to sustain and enhance that workforce through professional development 
and continuing education opportunities. Learning does not stop once the 
formal education process is complete; ocean professionals in all fields 
must be provided the means and liberty to continually build upon their 
knowledge and skills throughout their careers.

Informing the Public
    Public information needs are as varied as our population is 
diverse. Some individuals will benefit from detailed information on how 
specific issues directly affect their jobs or business. Others may need 
information presented in a language and media tailored to their culture 
and community. Still others seek advice on how to alter their own 
activities to support responsible ocean stewardship. This information 
is as critical for those who live in the heartland as for those who 
live near the shore.
    Informal education requires outreach programs, in partnership with 
local communities, to make contact with individuals where they live and 
work, regarding issues that affect how they live and work, in a style 
that speaks to them. Information supplied to the public should be 
timely and accurate. It should also be supported by a system that 
allows for follow-up and the acquisition of additional information or 
guidance. Ocean.ED, working with other appropriate entities, should 
enhance existing and establish new mechanisms for developing and 
delivering relevant, accessible information and outreach programs to 
enhance community education.

Regional Outreach--Connecting the Research and Education Communities
    Collaboration between the research and education communities must 
be improved if ocean-based information, including ocean data and new 
discoveries, is to be transformed into exciting and accessible 
materials to stimulate student achievement and enhance public 
awareness. Some efforts do exist to make these connections, most 
notably through the Centers for Ocean Sciences Education Excellence 
(COSEE) and National Sea Grant College Program.
COSEE
    The COSEE network, supported primarily through NSF, includes 
regional centers and a central coordinating office that work to 
integrate oceanographic data and information into high-quality 
curricular materials, to provide ocean scientists with opportunities to 
learn more about educational needs and requirements, to provide K-12 
teachers with the knowledge and skills they need to effectively 
incorporate ocean-related information into their lessons, and to 
deliver ocean-related information to the public. Though recognized as a 
model for enhancing education and bringing accessible ocean-related 
information to the public, COSEE currently has only seven regional 
centers, each serving a limited number of schools in its area. The 
program does not have the level of committed, long-term support 
required to fully realize its potential.
    While COSEE is currently a National Science Foundation program, 
placing it within the National Ocean Council (NOC) structure would 
capitalize on the tremendous potential to enhance and expand the 
program. The NOC and the NSF should relocate COSEE within the larger 
NOC structure as a program to be organized, overseen, and funded 
through Ocean.ED. In addition, the number of COSEE regional offices 
should be tripled to 21 with each center receiving at least $1.5 
million a year for an initial five-year period.

National Sea Grant College Program
    The National Sea Grant College Program was created by Congress in 
1966 as a partnership between the Nation's universities and NOAA. Sea 
Grant programs sponsor research, education, outreach, and technology 
transfer through a network of Sea Grant Colleges and research 
institutions.
    Sea Grant has forged connections between the research and education 
communities since its inception. Its programs provide K-12 teacher 
preparation and professional development programs consistent with State 
education standards, offer hands-on educational experiences for 
students, and develop research-based curricular and communications 
materials for students and the public. The Sea Grant network relies on 
longstanding local partnerships, with many connections to populations 
that have been traditionally underrepresented and underserved by the 
ocean community.
    Despite its successes, however, Sea Grant is currently an 
underutilized resource. The existing Sea Grant network requires 
increased funding to expand its roles and responsibilities, 
particularly in education and outreach. In particular, Sea Grant 
extension and communications programs, familiar to many resource 
managers and others in coastal communities, should become the primary 
mechanisms for delivering and interpreting information products 
developed through the regional ocean information programs

Specific Federal Responsibilities
    Each Federal agency with ocean-related responsibilities--most 
notably NOAA, NSF, and Office of Naval Research--has a responsibility 
to help ensure a vibrant ocean-related workforce. These agencies need 
to develop interrelated and crosscutting educational opportunities at 
the undergraduate, graduate, and postdoctoral levels.

National Oceanic and Atmospheric Administration
    NOAA should be particularly concerned with creating a pipeline of 
students in areas it identifies to be of critical importance to the 
agency. Opportunities should include both research experiences, 
especially exposure to mission-oriented research, and experiences 
beyond the research arena. Student exposure can begin as early as the 
junior or senior level in high school, continuing through postdoctoral 
education. A range of programs will help identify and recruit the best 
and brightest to careers in marine-related fields and ensure a 
continuing source of essential human capital. At the graduate and 
postdoctoral levels, NOAA should support fellowships and traineeships 
that emphasize interdisciplinary approaches and real-world experiences 
beyond the university setting.
    NOAA should establish a national ocean education and training 
program, patterned after the National Institutes of Health model, 
within its Office of Education and Sustainable Development to provide 
diverse, innovative ocean-related education opportunities at the 
undergraduate, graduate, and postdoctoral levels.
    In addition, NOAA should establish competitive ``Distinguished 
Professorships in Marine Studies'' within Sea Grant Colleges or other 
leading institutions of higher education with a demonstrated commitment 
to marine programs. Disciplines of interest to NOAA for such 
professorships could include fisheries science, climate research, 
atmospheric studies, and marine resource economics, policy, 
aquaculture, genomics, education, and ecosystem studies. The intent 
would be to create a cadre of distinguished NOAA endowed chairs at 
universities around the Nation.

National Science Foundation
    At the undergraduate level, NSF's Research Experience for 
Undergraduates program could be expanded to include more marine-related 
experiences. At the graduate and postdoctoral levels, opportunities 
could include fellowships that encourage cross-disciplinary research, 
interdisciplinary traineeships, and master's degree fellowships. 
Programs such as NSF's Integrative Graduate Education and Research 
Training program, Centers for Learning and Teaching, and Graduate 
Teaching Fellows in K-12 Education should be supported and enhanced 
both within NSF and adopted by other Federal ocean agencies. The 
National Science Foundation's Directorates of Geosciences, Biological 
Sciences, and Education and Human Resources should develop cooperative 
programs to provide diverse educational opportunities at the 
undergraduate, graduate, and postdoctoral levels in a range of ocean-
related fields.

Office of Naval Research
    The success of the Navy depends on a well-developed understanding 
of the environment in which it operates. Understanding the ocean 
environment--including the atmosphere above it, the seafloor beneath 
it, and the coastlines that encircle it--will always be a core naval 
requirement. Thus the Navy should play a central role in ensuring 
support for the education of future generations of ocean professionals. 
The Office of Naval Research should reinvigorate its support of 
graduate education in ocean sciences and engineering. This could be 
partly accomplished by increasing the number of ocean-related awards 
made under ONR's National Defense Science and Engineering Graduate 
Fellowship Program.

Specific Management Challenges
    Although the areas I discussed--improved governance through a new 
National Ocean Policy Framework, the incorporation of scientific 
information in decisionmaking, and broad public education--represent 
the overarching areas that this Nation must address using the guiding 
principles I mentioned earlier, the U.S. Commission on Ocean Policy did 
not stop there in its deliberations and recommendations. The Commission 
also addressed a wide range of specific ocean management challenges--
challenges that will continue to be addressed individually, but which 
now must also become part of more ecosystem based management approach, 
applying the guiding principles throughout the management process. 
These individual ocean and coastal management challenges include: 
Linking the management of coasts and watersheds; Protecting life and 
property from natural hazards; Restoring and conserving habitat; Better 
managing sediments and shorelines; Supporting marine commerce and 
transportation; Reducing water pollution from all sources, including 
from vessels and through the introduction of marine debris; Preventing 
the introduction of invasive species; Sustainably managing our 
fisheries; Protecting marine mammals and other marine species; 
Conserving corals and corals reefs; Enabling the environmentally-sound 
development of marine aquaculture; Understanding and safeguarding 
Oceans and Human Health; and, developing offshore energy resources and 
marine minerals.

Improving Management of Coasts and Watersheds
    Let me begin by addressing some of the issues in our coastal areas. 
While coastal counties (located entirely or partially within coastal 
watersheds) comprise only 17 percent of the land area in the contiguous 
United States, they are home to more than 53 percent of the total U.S. 
population. Coastal population trends indicate average increases of 
3,600 people a day moving to coastal counties, reaching a total 
population of 165 million by 2015. These figures do not include the 180 
million people who visit the coast every year.
    Population growth and tourism bring many benefits to coastal 
communities, including new jobs and businesses and enhanced educational 
opportunities. The popularity of ocean and coastal areas increases 
pressures on these environments, creating a number of challenges for 
managers and decisionmakers. Increased development puts more people and 
property at risk from coastal hazards, reduces and fragments fish and 
wildlife habitat, alters sedimentation rates and flows, and contributes 
to coastal water pollution.
    The pattern of coastal growth--often in scattered and unplanned 
clusters of homes and businesses--is also significant. Urban sprawl 
increases the need for infrastructure such as roads, bridges, and 
sewers, degrading the coastal environment while making fragile or 
hazard-prone areas ever more accessible to development. Because of the 
connections between coastal and upland areas, development and sprawl 
that occur deep within the Nation's watersheds also affect coastal 
resources.
    To reap economic benefits and mitigate pressures associated with 
growing coastal development, State and local governments needs more 
Federal support to enhance their capacity to plan for and guide growth, 
and to employ watershed management approaches.
    A complex combination of individuals and institutions at all levels 
of government make decisions that cumulatively affect the Nation's 
ocean and coastal areas. These institutional processes determine where 
to build infrastructure, encourage commerce, extract natural resources, 
dispose of wastes, and protect or restore environmental attributes.
    Although most coastal management activities take place at State and 
local levels, coastal decisionmaking is also influenced by Federal 
actions, including funding decisions and standard setting. Of the many 
Federal programs that provide guidance and support for State and local 
decisionmaking, some address the management of activities and resources 
within designated geographic areas, while others address the management 
of specific resources, such as fisheries or marine mammals.
    The Coastal Zone Management Act (CZMA) is the Federal Government's 
principal tool for fostering comprehensive coastal management. The CZMA 
created the Coastal Zone Management Program (CZM Program), a unique 
partnership between the Federal and coastal state governments, whose 
goal is to balance the conservation of the coastal environment with the 
responsible development of economic and cultural interests. The tools, 
assistance, and resources provided by the CZMA have enabled States and 
territories to increase their management capacity and improve 
decisionmaking to enhance the condition of their coastal areas.
    However, the CZM Program can be strengthened in a number of ways, 
including by developing strong, specific, measurable goals and 
performance standards that reflect a growing understanding of the ocean 
and coastal environments and the need to manage growth in regions under 
pressure from coastal development. A large portion of Federal funding 
should be linked to program performance with additional incentives 
offered to States that perform exceptionally well. In addition, a 
fallback mechanism is needed to ensure that national goals are realized 
when a State does not adequately participate or perform. Finally, the 
landside boundaries of State coastal management programs should also be 
reconsidered. At a minimum, each State should set the inland extent of 
its coastal zone based on the boundaries of coastal watersheds.
    In addition to the CZM Program, other Federal area-based coastal 
programs include NOAA's National Estuarine Research Reserve System and 
National Marine Sanctuaries Program; EPA's National Estuary Program; 
and Fish and Wildlife Service's Coastal Program and Coastal Barrier 
Resources System. These programs have made significant progress in 
managing coastal resources in particular locations, working with 
communities and decisionmakers in those areas, and fostering improved 
coordination between different levels of government. However, because 
these programs generally operate in isolation from one another, they 
cannot ensure effective management of all ocean and coastal resources 
or achievement of broad national goals. As NOAA is strengthened through 
the multi-phased approach described earlier, consolidation of area-
based coastal resource management programs will result in more 
effective, unified strategies for managing these areas, an improved 
understanding of the ocean and coastal environment, and a basis for 
moving toward an ecosystem-based management approach.
    Federal programs related to transportation, flood insurance, 
disaster relief, wetlands permitting, dredging, beach nourishment, 
shoreline protection, and taxation also exert a profound influence on 
the coast. While these laws and policies address specific issues, and 
have each provided societal benefits, in many cases Federal activities 
under their purview have inadvertently led to degradation of coastal 
environments. For this reason, policies should be re-evaluated to 
ensure consistency with national, regional, and State goals aimed at 
achieving economically and environmentally sustainable development.

Linking Coastal and Watershed Management
    For well over a decade there has been a growing interest in 
watershed management. This approach addresses water quality and 
quantity issues by acknowledging the hydrologic connections between 
upstream and downstream areas and considering the cumulative impacts of 
all activities that take place throughout a watershed. Watersheds are 
optimal organizing units for dealing with the management of water and 
closely related resources. The benefits of a watershed focus have also 
been recognized at the state, regional, national, and international 
levels through successful efforts such as the Chesapeake Bay Program, 
the Delaware River Basin Commission, and the bi-national Great Lakes 
Commission. At the Federal level, EPA has supported efforts to address 
a variety of problems at the watershed level.
    Many watershed groups are formed at the local level by community 
members concerned about water quality or the health of fish and 
wildlife populations. Often, these groups work to improve watershed 
health through partnerships among citizens, industry, interest groups, 
and government. However, the environmental and political 
characteristics of the Nation's watersheds vary tremendously, and 
watershed management initiatives can differ widely in size and scope. 
As interest in watershed management continues to grow, so does the need 
for a framework to guide such initiatives and evaluate their 
effectiveness.
    The Federal Government can play an important role by helping to 
develop this framework and by providing assistance to States and 
communities for watershed initiatives. Congress should amend the 
Coastal Zone Management Act, the Clean Water Act, and other Federal 
laws where appropriate, to provide better financial, technical, and 
institutional support for watershed initiatives and better integration 
of these initiatives into coastal management.

Assessing the Growing Cost of Natural Hazards
    The nation has experienced enormous and growing losses from natural 
hazards. Conservative estimates, including only direct costs such as 
those for structural replacement and repair, put the nationwide losses 
from all natural hazards at more than $50 billion a year, though some 
experts believe this figure represents only half or less of the true 
costs. More accurate figures for national losses due to natural hazards 
are unavailable because the United States does not consistently collect 
and compile such data, let alone focus on specific losses in coastal 
areas. Additionally, there are no estimates of the costs associated 
with destruction of natural environments.
    Many Federal agencies have explicit operational responsibilities 
related to hazards management, while numerous others provide technical 
information or deliver disaster assistance. The nation's lead agencies 
for disaster response, recovery, mitigation, and planning are the 
Federal Emergency Management Agency (FEMA) and the U.S. Army Corps of 
Engineers (USACE). These agencies implement programs that specifically 
target the reduction of risks from natural hazards. NOAA and USFWS also 
have a significant influence on natural hazards management.
    Opportunities for improving Federal natural hazards management, 
include: Amending Federal infrastructure policies that encourage 
inappropriate development; Augmenting hazards information collection 
and dissemination; Improving the National Flood Insurance Program 
(NFIP); and Undertaking effective and universal hazards mitigation 
planning.

Conserving and Restoring Coastal Habitat
    The diverse habitats that comprise the ocean and coastal 
environment provide tangible benefits such as buffering coastal 
communities against the effects of storms, filtering pollutants from 
runoff, and providing a basis for booming recreation and tourism 
industries. These habitats also provide spawning grounds, nurseries, 
shelter, and food for marine life, including a disproportionate number 
of rare and endangered species.
    As more people come to the coast to live, work, and visit, coastal 
habitats face increasing pressures. Most human activities in coastal 
areas provide distinct societal benefits, such as dredging rivers and 
harbors to facilitate navigation, converting forests and wetlands for 
agriculture and development, and building dams for flood control and 
hydropower. But these activities can also degrade coastal habitats and 
compromise their ability to adapt to environmental changes.
    Conserving valuable ocean and coastal areas protects significant 
habitat and other natural resources. Millions of coastal acres have 
been designated for conservation by various levels of government, and 
the tools for implementing conservation programs are found in a 
multitude of statutes. A number of Federal programs aim to preserve the 
natural attributes of specific areas while providing varying levels of 
access to the public for educational, recreational, and commercial 
purposes. In addition, nonregulatory conservation techniques--including 
fee simple land acquisition, the purchase or donation of easements, tax 
incentives and disincentives, and tradable development rights--play a 
special role in enabling willing landowners to limit future development 
on their land for conservation purposes. Land acquisition and easements 
are often implemented through partnerships among governments, 
nongovernmental organizations such as land trusts, and the private 
sector. Funding and support for continued conservation of coastal and 
estuarine lands is important to ensure the ability to maintain critical 
habitats and the benefits they provide.
    Conservation is cost-effective, avoiding the much larger expense 
and scientific uncertainties associated with attempting to restore 
habitats that have been degraded or lost. Even so, once critical 
habitat has been lost, or the functioning of those areas diminished, 
restoration is often needed. Habitat restoration efforts are 
proliferating in response to heightened public awareness of and concern 
for the health of the Nation's oceans and coasts.
    Restoration efforts, particularly large-scale projects, are 
challenging in a number of ways. First, the success of these efforts 
requires an understanding about how to recreate natural systems and 
restore historical ecosystem functions, a field still in its infancy. 
Second, these efforts cross political boundaries and affect a broad 
range of human activities, requiring support and intense coordination 
among a wide range of governmental and nongovernmental stakeholders. 
While some restoration projects have been successful, continued 
progress will depend on sustained funding, government leadership and 
coordination, scientific research, and stakeholder support.
    In addition to the large-scale, regional restoration efforts, there 
are numerous small-scale efforts that collectively make significant 
contributions. These activities often demonstrate the power of public-
private partnerships, bringing together community members, government 
agencies, and businesses to solve common problems. However, as long as 
each project continues to be planned and implemented in isolation, its 
overall impact will be constrained.
    Currently the many entities that administer conservation and 
restoration activities operate largely independently of one another, 
with no framework for assessing overall benefits in an ecosystem-based 
context. The multitude of disjointed programs prohibits a comprehensive 
assessment of the progress of conservation and restoration efforts and 
makes it difficult to ensure the most effective use of limited 
resources. An overarching national strategy that sets goals and 
priorities can also enhance the effectiveness of individual efforts and 
provide a basis for coordinating measures and evaluating progress of 
both habitat conservation and restoration activities.

Managing Sediment and Shorelines
    Sediment in Great Lakes, coastal, and ocean waters is composed of 
inorganic and organic particles created through erosion, decomposition 
of plants and animals, and human activities. Sediment may be carried by 
wind or water from upland areas down to coastal areas, or may originate 
in the marine environment. Once sediment arrives at the ocean, it is 
transported by wind, waves, and currents in dynamic processes that 
constantly build up and wear away cliffs, beaches, sandbars, inlets, 
and other natural features.
    From a human perspective, sediment has a dual nature--desirable in 
some locations and unwanted in others. Sediment can be used to create 
or restore beaches and to renew wetlands and other coastal habitats. 
Such activities are referred to as beneficial uses. Undesirable 
sediment can cloud water and degrade wildlife habitat, form barriers to 
navigation, and contaminate the food chain for marine plants, animals 
and humans.
    The dual nature of sediment as both a threat and a resource to 
humans and the environment makes its management particularly 
challenging. To complicate matters further, the natural processes that 
create, move, and deposit sediment operate on regional scales, while 
management tends to focus on discrete locations--a single beach, 
wetland, or port. In addition, the policies that affect sediment 
location, transport, and quality fall under the jurisdiction of diverse 
programs within multiple agencies at all levels of government. This 
complex governance approach makes it difficult to manage sediment at 
the appropriate scale and in consonance, rather than in conflict, with 
natural processes.
    Coastal stakeholders have increasingly recognized the need to 
develop more proactive and preventive strategies. However, their 
absence from broad watershed planning efforts--where decisions about 
land use and water management could reduce excess and contaminated 
sediments at their source--makes such change difficult to realize. The 
nation needs both a better understanding of the interactions between 
human activities and sediment flows, and a better mechanism for 
involving all potentially affected parties.
    Moving toward an ecosystem-based management approach is a critical 
step. Participation by Federal, State, and local entities in watershed 
management efforts, along with key stakeholders such as coastal 
planners and port managers, is one way to diminish upland sources of 
excess and contaminated sediment that harm the marine environment. 
Ecosystem considerations should be included in the process for 
permitting any activity that alters sediment flows.
    Dredged materials have long been used to create new land for 
commercial, residential, and infrastructure developments, as well as to 
bolster beaches and barrier islands to protect against storm and 
erosion hazards and enhance tourism and recreation. Since the 1970s, 
these beneficial uses of dredged materials have also included 
environmental enhancement, such as restoration of wetlands, creation of 
wildlife habitat, and improvement of fish habitat. Surprisingly, 
navigation-related dredged materials do not find their way into 
beneficial use projects as often as perhaps they should. This is due in 
part to sediment contamination, but also to USACE policies that favor 
disposal in open waters or in upland dump sites. These policies may be 
unnecessarily foregoing opportunities to support economic growth or 
environmental protection and may have serious unintentional 
consequences for aquatic ecosystems. A more accurate system for 
selecting and ranking projects would be based on a comparative net 
economic and environmental return for the United States rather than a 
narrow cost-benefit analysis for a specific project.
    Finally, the characterization, containment, removal, and treatment 
of contaminated sediment continue to be technically difficult and 
prohibitively expensive, and point to the importance of adopting an 
adaptive management approach to the problem. Scientifically sound 
methods for identifying contaminated sediment and developing innovative 
technologies to improve dredging and treatment of this material are 
critical steps toward improving the economic and ecological health of 
coastal areas. To be successful, these efforts will require new 
resources and effective regional planning.

Supporting Marine Commerce and Transportation
    As the world's largest trading nation, the United States imports 
and exports more merchandise than any other country and has one of the 
most extensive marine transportation systems in the world. U.S. marine 
import-export trade is an essential and growing component of the 
national economy, accounting for nearly seven percent of the Nation's 
gross domestic product. Domestically, coastal and inland marine trade 
amounts to roughly one billion tons of cargo, worth more than $220 
billion a year. The marine transportation system itself is a highly 
complex public-private sector partnership consisting of an 
interconnected mix of waterways, ports and terminals, water-based and 
land-based intermodal connections, vessels, vehicles, equipment, 
personnel, support service industries, and users.
    For the Nation's marine transportation system to meet current and 
future demands, ongoing maintenance, improvement, and expansion will be 
required. A key prerequisite for a robust system is better 
coordination, planning, decisionmaking and allocation of resources at 
the Federal level. In particular it will be essential to enhance the 
connections between this system and other modes of transportation, such 
as highways, railways, and airports. At the same time, in moving toward 
an ecosystem-based management approach, planning for the movement of 
cargo and passengers should be coordinated with the management of many 
other ocean and coastal uses and activities, and with efforts to 
protect the marine environment.
    Within the Federal Government, responsibilities for marine commerce 
and transportation are spread among numerous agencies, primarily the 
U.S. Department of Transportation (DOT), U.S. Coast Guard, USACE, NOAA, 
U.S. Customs Service, and EPA. These agencies have many roles, 
including vessel traffic management, national security, marine safety, 
waterway maintenance, environmental protection, and customs. These 
responsibilities are poorly coordinated and do not mesh well with the 
structure and function of such system. Statutory, regulatory, and 
policy differences among Federal agencies with roles in marine 
transportation lead to fragmentation, competition, and in some cases, 
an inability to work collaboratively due to conflicting mandates. 
National leadership and support will be needed to achieve better 
integration within the Federal Government, better links with the rest 
of the Nation's transportation infrastructure, and coordination between 
marine transportation and other important ocean and coastal uses and 
activities. The logical agency to assume this responsibility, as it 
does for the highway, aviation, and railway systems, is DOT.
    Even with one clearly mandated lead Federal agency, coordination 
will be needed among the Federal and non-Federal participants in the 
marine transportation system. Given the significance of domestic and 
international trade to the Nation and the complexity of the components 
that make up the system the Interagency Committee for the Marine 
Transportation System (ICMTS) should be strengthened, codified and 
placed under the oversight of the National Ocean Council. And because 
marine transportation involves many actors outside the Federal 
Government, the Marine Transportation System National Advisory Council 
should be maintained to coordinate among non-Federal participants in 
the marine transportation system and a venue for providing input to the 
Federal Government on important national issues.
    An important step in allowing the U.S. marine transportation system 
to grow, while minimizing increased congestion, delays, and costs to 
U.S. businesses and consumers, is to improve the movement of cargo into 
and out of ports. Existing intermodal connections are inadequate to 
meet the expected increase in foreign and domestic trade. The nation's 
transportation infrastructure is largely an agglomeration of competing 
transportation modes, each focusing on its own priorities. While this 
approach has produced an extensive infrastructure, a national strategy 
is needed to enhance the connections among these modes, including the 
Nation's ports, and ensure greater overall effectiveness.
    DOT, working with the ICMTS, should draft a new national freight 
transportation strategy to support continued growth of the Nation's 
economy and international and domestic trade. Based on the new 
strategy, investments should be directed toward planning and 
implementation of intermodal projects of national significance. In 
developing the national freight transportation strategy, DOT should 
emphasize strategic planning with States, regions, and the public 
sector as is already being carried out for the U.S. highway system.
    Planning for the future of the U.S. marine transportation system 
requires accurate and timely information, including estimates of the 
volume of current and future cargo transportation, their origins and 
destinations, and the capacity of the various transportation modes. 
Such information is essential to understand the strengths and 
weaknesses of the current system and the challenges and opportunities 
for improving its effectiveness. DOT, working with other appropriate 
entities, should establish a national data collection, research, and 
analysis program to provide a comprehensive picture of freight flows in 
the United States and to enhance the performance of the Nation's 
intermodal transportation system. DOT should periodically assess and 
prioritize the Nation's future needs for ports and intermodal 
transportation capacity to meet expected growth in marine commerce.
    Finally, natural disasters, labor disputes, terrorist attacks, ship 
collisions, spills of hazardous materials, and many other human and 
naturally caused events can disrupt the flow of marine cargo and 
passenger services, causing severe economic and social ramifications 
nationally and internationally. Diminished port capacity could also 
affect vital military operations. In developing a national freight 
transportation strategy, DOT should work closely with the U.S. 
Department of Homeland Security and the FEMA to incorporate port 
security and other emergency preparedness requirements. The strategy 
should focus on preventing threats to national security and port 
operations and on response and recovery practices that limit the 
impacts of such events, including an assessment of the availability of 
alternative port capacity.

Coastal and Ocean Water Quality
    Coastal and ocean water quality is threatened by multiple sources 
of pollution, including point and nonpoint source pollution, 
atmospheric deposition of pollutants, vessel pollution, invasive 
species, and trash being washed into the ocean and onto beaches. 
Addressing these multiple pollutants will require development of an 
ecosystem-based and watershed management approach that includes a 
variety of management tools, coordination, and ongoing monitoring.

Addressing Coastal Water Pollution
    Coastal waters are one of the Nation's greatest assets, yet they 
are being bombarded with pollution from all directions. The heavy 
concentration of activity in coastal areas, combined with pollutants 
flowing from streams far inland and others carried through the air 
great distances from their source, are the primary causes of nutrient 
enrichment, hypoxia, toxic contamination, sedimentation, and other 
problems that plague coastal waters.
    Any solution must be founded on an ecosystem-based and watershed 
management approach involving a broad range of agencies, programs, and 
individuals. The complex array of laws, agencies, and programs that 
address water pollution, and the number of parties involved, will 
require greatly enhanced coordination among Federal agencies, primarily 
EPA, NOAA, USDA, and USACE. Greater coordination is also needed between 
the Federal Government and managers at the State, territorial, tribal, 
and local levels, watershed groups, nongovernmental organizations, 
private stakeholders, and the academic and research communities. 
Solutions will also require a substantial financial investment and will 
take time.

Reducing Point Sources of Pollution
    Over the last few decades, great strides have been made in 
controlling water pollution from point sources, although further 
improvements could be realized through increased funding, strengthened 
enforcement, and promotion of innovative approaches such as market-
based incentives. The Commission also addresses several specific point 
sources of pollution, including wastewater treatment plants, sewer 
system overflows, septic systems, industrial facilities, and animal 
feeding operations.

Increasing the Focus on Nonpoint Sources of Pollution
    While considerable progress has been made in reducing point sources 
of pollution, further progress toward improving coastal water quality 
will require significant reductions in nonpoint sources as well. This 
pollution occurs when rainfall and snowmelt carry pollutants over land, 
into streams and groundwater, and down to coastal waters. Ninety 
percent of impaired water bodies do not meet water quality standards at 
least in part because of nonpoint source pollution. The majority of the 
nonpoint source pollution entering rivers, estuaries, coastal waters, 
and ultimately the oceans is from agricultural and stormwater runoff.
    To address nonpoint source pollution, the NOC should establish 
significant reduction of nonpoint source pollution in all impaired 
coastal watersheds as a national goal, and set measurable objectives to 
meet water quality standards. The nation has a number of opportunities 
to reduce the impacts of nonpoint sources of pollution on coastal 
waters. Because agricultural runoff contributes substantially to 
nonpoint source pollution, USDA should align its conservation programs 
and funding with other programs aimed at reducing nonpoint source 
pollution, such as those of EPA and NOAA. Other opportunities for the 
Nation to reduce nonpoint source pollution include coordination of 
Federal nonpoint programs so they are mutually supportive, more 
targeted and aggressive use of state revolving loan funds, broader 
implementation of incentives and disincentives, and improved monitoring 
to assess compliance and overall progress. State and local governments 
also have important roles to play in land use planning and stormwater 
management decisions.
    Watersheds are often the appropriate geographic unit for addressing 
water-related problems and collaborative watershed groups have had 
significant successes in addressing nonpoint source pollution. 
Therefore, the NOC and regional ocean councils should strengthen the 
ability of collaborative watershed groups to address problems 
associated with nonpoint source pollution by developing and 
implementing strategies to provide them with adequate technical, 
institutional, and financial support.

Addressing Atmospheric Sources of Pollution
    Atmospheric deposition of pollutants can also harm water quality, 
aquatic resources, and human health. To address atmospheric deposition, 
EPA, States, and watershed groups should explore regional approaches 
for managing atmospheric deposition, particularly when it affects water 
bodies in states far from the source.

Creating a National Water Quality Monitoring Network
    Pollution of the Nation's coastal waters has led to beach closures, 
oxygen depletion, health impacts from toxic contamination, and many 
other problems. Despite these threats to coastal waters, there is no 
national network in place to monitor water quality changes and their 
causes, facilitate estimates of their economic impact, and measure the 
success of management efforts. Increased monitoring is needed not only 
along the Nation's coasts, but also inland where pollutants make their 
way downstream, ultimately impacting coastal waters. A national water 
quality monitoring network is essential to support the move toward an 
ecosystem-based management approach that considers human activities, 
their benefits, and their potential impacts within the context of the 
broader biological and physical environment. An essential step toward 
controlling pollution will be to strengthen and coordinate monitoring 
efforts to provide decisionmakers with necessary information.
    A number of monitoring efforts are currently conducted by Federal 
agencies, State governments, research institutions and academia, 
nongovernmental organizations, and individual volunteers. Existing 
monitoring programs vary in many respects, including sampling design 
and intensity, parameters tested, analytical methodology, data 
management protocols, and funding. Even when the same properties are 
measured, different data management protocols may make the integration 
of that information difficult. Consequently, while a number of 
monitoring programs exist, they are not designed to support a 
comprehensive and coordinated national monitoring network.

Ensuring Comprehensive, Coordinated Coverage
    The nation's coastal margin is the most densely populated and 
developed region of the nation, and its waters have been significantly 
degraded by pollution. Yet in recent years, due largely to lack of 
funding, monitoring has been extremely sparse along the coasts. Much 
remains unknown about the status of coastal waters, and increased 
monitoring will be required to make informed management decisions about 
this economically and ecologically valuable region. Yet the close 
connections between coastal and upstream waters dictate that any water 
quality monitoring network must be national in scope. NOAA, EPA, and 
USGS should lead the effort to develop a national water quality 
monitoring network that coordinates existing and planned monitoring 
efforts, including Federal, State, local, and private efforts. The 
network should include a federally-funded backbone of critical stations 
and measurements needed to assess long-term water quality trends and 
conditions.
    Because of the inherent overlap between inland, coastal, and open-
ocean monitoring and observing, the national water quality monitoring 
network should be closely linked with the Integrated Ocean Observing 
System (IOOS) and ultimately with a broad Earth observing system. NOAA 
should ensure that the water quality monitoring network includes 
adequate coverage in both coastal areas and the upland areas that 
affect them, and that the network is linked to the IOOS, to be 
incorporated eventually into a comprehensive Earth observing system.

Creating an Effective Monitoring Network and Making Data Accessible and 
        Useful
    In addition to coordinating existing monitoring efforts, an 
effective national water quality monitoring network should have 
specific goals and objectives, reflect user needs, and be helpful in 
assessing the effectiveness of management approaches. The overall 
system design should determine what and where to monitor, including 
definition of a set of core variables. Technical expertise will be 
needed to standardize procedures and establish quality control and data 
management protocols. The network should be periodically assessed and 
modified as necessary. Most important, the data collected through the 
national monitoring network should be useful to managers and 
stakeholders in evaluating management measures, determining best 
management practices, and making continual improvements in reaching 
ecosystem goals. This data should also be translated into timely and 
useful information products that are readily accessible to decision 
makers and the public. The design and implementation of the national 
monitoring network will require not only Federal coordination, but also 
significant input from the States.

Limiting Vessel Pollution and Improving Vessel Safety
    The benefits from vessel activities are significant--ships carry 
more than 95 percent of the Nation's overseas cargo--but these 
operations also present safety, security and environmental risks that 
must be effectively addressed.
    Success in addressing these concerns will depend on a broad 
domestic and international framework comprised of three key components. 
The first component is a strong voluntary commitment on the part of 
vessel owners and operators to build a workplace ethic that 
incorporates safety, security, and environmental protection as 
important and valued aspects of everyday vessel operations. Reliable 
means of measuring the success of these efforts, as reflected in crew 
and company performance, are essential and should include extensive use 
of third-party audits. The U.S. Coast Guard, through incentives and 
partnership programs, should encourage industry partners to develop 
stronger voluntary measures, particularly those that reward crew member 
contributions, as part of a continuing long-term effort that focuses on 
building a culture of safety, security, and environmental compliance.
    The second key component is effective oversight and control by the 
primary vessel regulator, the vessel's flag state. Foreign flag 
vessels, subject primarily to the jurisdiction and control of other 
governments, carry more than 90 percent of international commercial 
freight entering and departing the United States and account for 95 
percent of passenger ships and 75 percent of cargo ships operating in 
U.S. waters. Although many flag states take their responsibilities 
seriously, oversight and enforcement vary dramatically. Over the past 
decade, the International Maritime Organization has developed 
guidelines to improve flag state oversight and enforcement. However, 
implementation of these measures has met with mixed results. Mounting 
international security concerns have made effective flag state 
oversight and control more urgent today than ever before. The United 
States should work with other nations to accelerate efforts at the 
International Maritime Organization to enhance flag state oversight and 
enforcement. Initiatives should include expeditious promulgation of a 
code outlining flag state responsibilities, and development of a 
mandatory external audit regime to evaluate performance and identify 
areas where additional technical assistance can be used to best 
advantage.
    The third key framework component is effective control over vessels 
visiting U.S. ports. The Coast Guard currently carries out a port state 
control program that allocates limited inspection resources to the 
highest-risk vessels, based on an assessment of the vessel owner, flag 
state, classification society, performance history, and vessel type. 
Performance-based vessel inspections, while the most effective means of 
verifying compliance, are resource intensive. These inspections have 
played a critical role in identifying and correcting potential 
problems, and in assessing the effectiveness of overall efforts to 
improve safety and environmental compliance. Concerns have been 
expressed in Congress and elsewhere about the adequacy of Coast Guard 
resources to meet new security demands while fulfilling other important 
responsibilities. Congress should provide the U.S. Coast Guard with the 
resources necessary to sustain and strengthen the performance-based 
inspection program for marine safety and environmental protection while 
also meeting new vessel security inspection and other maritime security 
requirements. In addition, the Coast Guard should work at the regional 
and international levels to increase effective coordination and vessel 
information sharing among concerned port states.
    In addition to outlining a framework to address vessel safety, 
security and environmental concerns, our report also recommends more 
comprehensive approaches to address waste stream, oil and air pollution 
from commercial and recreational vessels. Recommendations include: 
establishing a uniform national regime to deal with cruise ship waste 
streams; ratifying and working to strengthen MARPOL Annex V1 air 
emission standards; developing comprehensive policy guidance and 
contingency plans for vessels seeking places of refuge in the United 
States; developing a long-term plan that identifies and addresses the 
greatest risks associated with marine oil transportation systems; and 
updating and accelerating efforts to reduce recreational vessel 
pollution. We also place particular emphasis on the use of market-based 
mechanisms and incentives to reduce pollution and encourage appropriate 
voluntary actions.

Preventing the Spread of Invasive Species
    The introduction of non-native marine organisms into ports, coastal 
areas, and watersheds has damaged marine ecosystems around the world, 
costing millions of dollars in remediation, monitoring, and ecosystem 
damage. Invasive species policies are not keeping pace with the problem 
primarily because of inadequate funding, a lack of coordination among 
Federal agencies, redundant programs, and outdated technologies.

Making Prevention the First Line of Defense
    The discharge of ballast water is considered a primary pathway for 
introduction of non-native aquatic species. Exchanging ballast water in 
the middle of the ocean to reduce the risk of transferring organisms 
from one ecosystem to another is the primary management tool currently 
available for ships to control the introduction of invasive species.
    To better control the introduction of invasive species, the U.S. 
Coast Guard's national ballast water management program should: apply 
uniform, mandatory national standards; incorporate sound science in the 
development of a biologically meaningful and enforceable ballast water 
treatment standard; include a process for revising the standard to 
incorporate new technologies; ensure full consultation with EPA; and 
include an interagency review, through the NOC, of the policy for ships 
that declare they have no ballast on board.
    While ballast water is considered a primary pathway, there are also 
other important ship-related sources of non-native aquatic species, 
including ships' hulls, anchors, navigational buoys, drilling 
platforms, and floating marine debris. Other pathways include 
intentional and unintentional human introductions of fish and 
shellfish, and illegally released organisms from the aquaculture, 
aquarium, horticulture, and pet industries. There is increasing concern 
that an expanding trade through the Internet and dealers of exotic pets 
is exacerbating the invasive species problem.
    To address these pathways of introduction, the NOC, working with 
the Aquatic Nuisance Species Task Force and the National Invasive 
Species Council, should coordinate public education and outreach 
efforts on aquatic invasive species, with the aim of increasing public 
awareness about the importance of prevention.

Accelerating Detection and Response
    Only the most draconian prevention strategy could hope to eliminate 
all introductions of non-native species and thus prevent the 
possibility of an invasion. Yet no effective mechanism is in place for 
rapidly responding to newly discovered aquatic invasions when they do 
occur. Therefore, the National Invasive Species Council and the Aquatic 
Nuisance Species Task Force, working with other appropriate entities, 
should establish a national plan for early detection of invasive 
species and a system for prompt notification and rapid response.

Improving the Control of Invasive Species
    As biological invasions continue, there is a pressing need to 
improve the control of invasive species by reducing the overlaps and 
redundancies caused by the involvement of so many agencies with 
insufficient interagency coordination. The NOC should review and 
streamline the current proliferation of Federal and regional programs 
for managing marine invasive species, and coordinate Federal, regional 
and State efforts.
    The study of marine biological invasions is a relatively new 
research area and little is understood about how or why certain species 
become invasive, what pathways of introduction are most important, and 
whether certain factors make an ecosystem more susceptible to 
invasions. To better understand marine biological invasions, the NOC 
should coordinate the development and implementation of an interagency 
plan for research and monitoring to understand and prevent aquatic 
species invasions.

Reducing Marine Debris
    The trash and other waste that drifts around the global ocean and 
washes up on the Nation's shores poses a serious threat to fishery 
resources, wildlife, and habitat, as well as human health and safety. 
Approximately 80 percent of debris is washed off the land, blown by 
winds, or intentionally dumped from shore, while 20 percent comes from 
vessels and offshore platforms.
    NOAA currently addresses marine debris as a part of several other 
efforts, but there is a need to coordinate, strengthen, and increase 
the visibility of the marine debris efforts within NOAA by creating a 
centralized marine debris program within the agency. This program 
should be coordinated with EPA's marine debris activities, as well as 
with the significant efforts conducted by private citizens, state, 
local, and nongovernmental organizations.

Interagency Coordination
    Although strengthening NOAA's work on marine debris through 
establishment of an office within the agency is an important step, an 
interagency committee under the NOC is needed to unite all appropriate 
Federal agencies around the issue. Such a committee could support 
existing marine debris efforts by agencies and nongovernmental 
organizations, and should expand and better coordinate national and 
international marine debris efforts, including: public outreach and 
education; partnerships with state and local governments, community 
groups, nongovernmental organizations, and industry; and monitoring, 
identification and research.

Eliminating Derelict Fishing Gear
    Whether intentionally discarded or unintentionally lost during 
storms or fishing operations, derelict fishing gear poses serious 
threats, entrapping marine life, destroying coral reefs and other 
habitat, and even posing danger to humans. Although derelict fishing 
gear is a worldwide problem, currently no international treaties or 
plans of action address it. A strong need exists for the U.S. 
Department of State and NOAA, working with the United Nations Food and 
Agriculture Organization, to develop a plan of action to address 
derelict fishing gear, to be implemented on a regional, multi-national 
basis. In addition, within the United States, a public-private 
partnership program is needed to prevent, remove, and dispose of 
derelict fishing gear.

Ensuring Appropriate Port Reception Facilities
    Under requirements for port reception facilities in Annex V of 
MARPOL, member nations must provide waste disposal facilities in their 
ports to receive waste from ships. Despite this requirement, many ports 
do not have adequate facilities. In addition, Annex V calls for the 
designation of Special Areas that receive a higher level of protection 
than is required in other ocean areas. Special Areas have been 
designated for many parts of the world, however, for a Special Area to 
receive extra protection, there must first be a demonstration of 
adequate port reception facilities. Some important Special Areas, such 
as the Wider Caribbean, are not yet eligible to receive extra 
protection because of inadequate port reception facilities. Therefore, 
the U.S. Department of State should increase efforts to ensure that all 
port reception facilities meet the criteria necessary to allow 
implementation of Special Areas protections.

Enhancing the Use and Protection of Ocean Resources
    The ocean's biological and mineral resources are of enormous value 
to the nation, not only for their direct economic output, but also for 
their incalculable aesthetic importance.
    The commercial fishing industry's total value exceeds $28 billion 
annually, with the recreational saltwater fishing industry valued at 
around $20 billion. NOAA estimates that U.S. coral reefs cover 
approximately 7,600 square miles. In 2001, coral reefs in the Florida 
Keys alone supported $105 million in income and more than 8,000 jobs. 
Further, approximately one-half of all federally-managed commercial 
fish species depend on coral reefs for at least part of their life 
cycle. Currently, energy development in Federal waters accounts for 
more than 30 percent of domestic oil production and 25 percent of 
natural gas, with a total annual value of between $25--$40 billion, and 
a contribution of about $5 billion in royalties to the U.S. Treasury.
    In order to provide for sustainable use, management needs to be 
strengthened in a broader context that looks at impacts of management 
decisions on the ecosystem as a whole.

Fisheries Management
    The last 30 years has seen the evolution of an industry from being 
largely unregulated but with seemingly boundless potential, to one that 
is highly regulated and struggling to regain its potential as we move 
toward a sustainable, ecosystem-based fisheries management regime.
    In 1976, based in part on the recommendations of the Stratton 
Commission, Congress approved the Magnuson-Stevens Fishery Conservation 
and Management Act to manage and assert U.S. control over fishery 
resources within 200 nautical miles of the coast. Eight Regional 
Fishery Management Councils (RFMCs) were created to develop management 
plans for fisheries in Federal waters. The Act required regional plans 
to be consistent with broad national guidelines, but otherwise granted 
considerable flexibility to the RFMCs. The regional flexibility that 
had been seen as a great strength of the new law now showed its 
downside as some RFMCs set unsustainable harvest levels, leading to the 
collapse or near-collapse of several important fisheries.
    In the over 30 years since the Stratton report, some fishery 
management bodies have revealed fundamental weaknesses in the system 
that led to overexploited stocks and ecosystem degradation in some 
regions. However, the management practices in some regions, 
particularly the North Pacific, protected fisheries from 
overexploitation and served as a model for many of the Commission's 
fisheries recommendations. The Commission fishery recommendations can 
be grouped into six areas: strengthening the link between science and 
management, clarifying jurisdiction representation, expanding the use 
of dedicated access privileges, improving enforcement, and 
strengthening international management.
    The link between fishery management decisions and peer-reviewed 
scientific info must be strengthened, including developing an expanded 
research program that is more responsive to managers' needs. To 
accomplish this, a number of management improvements are needed. RFMCs 
should be required to rely on the advice of their Scientific and 
Statistical Committees (SSCs), especially when setting harvest levels. 
RFMCs should not be allowed to approve measures less conservative than 
recommended by the SSC. SSC members should be nominated by the RFMCs 
and appointed by the NOAA Administrator. To ensure that SSC members are 
of the highest quality, their credentials and potential conflicts of 
interest should be reviewed by an external organization. To ensure 
sufficient external review of the scientific advice of the SSCs, NOAA 
should develop a standardized, independent peer-review process for 
implementation by all RFMCs. To ensure that needed conservation 
measures are implemented in a timely manner, default measures should be 
developed that would go into effect with a lack of action on the part 
of the RFMCs. Finally, to ensure that manager's have the information 
they require, NOAA's process for developing research plans should 
incorporate manager's priorities to the extent practicable. An expanded 
cooperative research program and increased emphasis on in-season 
recreational fishery data collection should be an important component 
of this effort.
    Responsibilities and jurisdiction of the various Federal and 
interstate fishery management entities need to be clarified, and the 
representation on the Federal regional fishery management councils need 
to be broadened. To ensure that jurisdictional confusion does not lead 
to delaying conservation measures, Congress should assign a lead 
management authority among the various Federal and interstate 
management authorities, based primarily on proportion of catch 
occurring within each entities jurisdiction. To ensure that the RFMCs 
have appropriate representation, particularly as we move toward 
ecosystem-based management, the governors should be required to submit 
a broader slate of candidates to be appointed by the NOAA 
Administrator. To ensure that RFMCs members have the necessary 
knowledge to properly manage fisheries, members should be required to 
take a training course. Finally, to ensure that all interstate fishery 
commissions have the necessary means to manage the fisheries under 
their jurisdiction, Congress should grant authority similar to the 
Atlantic Coastal Fisheries Cooperative Management Act to the Gulf and 
Pacific States Commissions.
    To reverse existing incentives that create an unsustainable ``race 
for the fish,'' fishery managers should explore widespread adoption of 
dedicated access privileges to promote conservation and help reduce 
overcapitalization. Congress should amend the Magnuson-Stevens Fishery 
Conservation and Management Act to affirm that fishery managers are 
authorized to institute dedicated access privileges, subject to meeting 
national guidelines; and every Federal, interstate, and State fishery 
management entity should consider the potential benefits of adopting 
dedicated access programs. In addition, Congress should directly 
address overcapitalization by revising Federal programs that subsidize 
overcapitalization, as well as work with NOAA to develop programs that 
permanently address overcapitalization in fisheries.
    Fishery enforcement must be improved through adoption of better 
technology, such as Vessel Monitoring Systems (VMS) and better 
cooperation among Federal agencies and States. Funding should be 
increased for Joint Enforcement Agreements between NOAA's National 
Marine Fisheries Service and coastal states as the best method of 
restoring the enforcement presence of the Coast Guard diminished 
because of the increased need for maritime security following the 9/11 
terrorist attacks. The expanded use of VMS is another cost effective 
way of increasing enforcement capabilities.
    Fishery management needs to continue the move toward ecosystem-
based management in order to improve management, reduce conflicts 
between socio-economic impacts and biological sustainability, and 
provide a proper forum to address difficult management issues. In 
particular, issues such as habitat damage and bycatch should be 
approached from an ecosystem basis and management plans should be 
designed to reduce impacts from these factors.
    Because many of the stocks targeted by U.S. fishermen traverse 
international waters, it will be impossible to conserve some stocks 
without the aid of other countries. In addition, many endangered 
species such as sea turtles and whales travel the high seas. To promote 
international cooperation to conserve living marine resources, the 
Commission makes the following recommendations. The U.S. should work to 
encourage other countries to adopt and enforce existing international 
agreements to promote worldwide adoption of sustainable fisheries 
practices, in particular the Fish Stocks Agreement and the United 
Nations Food and Agriculture Organization's Compliance Agreement. The 
National Ocean Council should recommend effective methods to promote 
adoption of other important international conservation agreements, such 
as the Code of Conduct for responsible fisheries. In addition, the 
United States should continue to press for the inclusion of 
environmental objectives--particularly those specified in international 
environmental agreements--as legitimate elements of trade policy.

Marine Mammals and Endangered Species
    Because of their intelligence, visibility and frequent interactions 
with humans, marine mammals hold a special place in the minds of most 
people and are afforded a higher level of protection than fish or other 
marine organisms. The American public has also consistently been 
supportive of efforts to prevent species from becoming endangered or 
extinct from human-caused activities. Because of the concern that the 
American public has shown for marine mammals and endangered species, 
specific legislation was enacted to provide them greater protection. 
The Marine Mammal Protection Act and the Endangered Species Act are 
landmark laws that have protected marine mammals and populations in 
danger of extinction since their passage. However, both Acts need to 
move toward a more ecosystem-based regime to improve protections for 
these populations.
    The biggest threat to marine mammals worldwide today is their 
accidental capture or entanglement in fishing gear (known as 
``bycatch''), killing hundreds of thousands of animals a year. 
Commercial harvesting contributed to major declines in the populations 
of marine mammals but only a few nations still allow hunting for 
purposes other than subsistence. Hunters from those nations continue to 
kill hundreds of thousands of seals, whales, dolphins, and other marine 
mammals each year while legal subsistence hunting accounts for 
thousands more. Other potential causes of death and injury to marine 
mammals, such as ships strikes, pollution and toxic substances, and 
noise from ships and sonar, cause many fewer deaths than bycatch and 
hunting.
    The threats to endangered marine species such as sea turtles and 
sea birds are myriad and not easily categorized. One factor that is 
common to declines in many species is the destruction or degradation of 
their natural habitat. Thus the successful recovery of a species 
depends to a large degree on protection or restoration of this habitat.
    One of the critical components to improving protections for 
protected species is expanding the knowledge base. We know very little 
about the basic biology for these species, particularly marine mammals. 
The lack of basic scientific information has perhaps contributed to the 
frequent mismatch between causes of impacts to marine mammal 
populations and the amount of management attention paid to them. For 
example, the top two impacts to marine mammals by orders of magnitude 
are bycatch and hunting, yet most recent attention is being paid to 
other causes. Under ecosystem-based management, the most critical 
impacts should be addressed first. However, our overwhelming lack of 
knowledge of marine mammal and endangered species makes it difficult to 
properly rank and address impacts to these species. As the foundation 
to improving management, the Commission recommends an expanded 
research, technology, and engineering program, coordinated through the 
National Ocean Council, to examine and mitigate the effects of human 
activities on marine mammals and endangered species. In particular, 
Congress should expand Federal funding for research into ocean 
acoustics and the potential impacts of noise on marine mammals. The 
U.S. should increase efforts to extend the benefits of the expanded 
research program to other countries.
    Another important component to improving protections for protected 
species will be to clarify and coordinate Federal agency actions. The 
Commission recommends that jurisdiction for marine mammals be 
consolidated within NOAA, and that the NOC improve coordination between 
NOAA and the Fish and Wildlife Service with respect to the 
implementation of the Endangered Species Act, particularly for 
anadromous species or when land-based activities have significant 
impacts on marine species.
    The MMPA, with limited exceptions, prohibits the hunting, killing, 
or harassment of marine mammals. One of the exceptions authorizes the 
issuance of permits for the unintentional and incidental taking of 
small numbers of marine mammals provided it has only a negligible 
impact on the species. This provision has been problematic because 
terms such as small numbers and negligible impact are not defined in 
the Act, resulting in a lack of clarity about when a permit is 
necessary and under what circumstances it should be granted. Congress 
should amend the Marine Mammal Protection Act to require the NOAA to 
more clearly specify categories of activities that are allowed without 
a permit, those that require a permit, and those that are prohibited. 
Specifically, Congress should amend the Marine Mammal Protection Act to 
revise the definition of harassment to cover only activities that 
meaningfully disrupt behaviors that are significant to the survival and 
reproduction of marine mammals.
    As an adjunct to clarifying allowed and permitted activities, the 
permitting process itself should be streamlined. Specifically, 
programmatic permitting should be used where possible to simplify 
agency permitting.

Coral Communities
    Tropical and deepwater coral communities are among the oldest and 
most diverse ecosystems, rivaling tropical rainforests in biodiversity 
and economic value. But, tropical coral reef health is rapidly 
declining, with pristine reefs being rare or nonexistent and possibly 
one-third of the world's reefs severely damaged. The existing 
management structure is inadequate and agencies and laws overseeing 
coral reef management have made little progress in actually protecting 
corals. Immediate action is needed to avoid irreversible harm.
    In the short-term, the Coral Reef Task Force (CRTF) should be 
strengthened by placing it under the NOC, and adding the U.S. 
Department of Energy and the U.S. Army Corps of Engineers. The 
strengthened CRTF should begin immediate development of actions to 
reverse impacts of coastal pollution and fishing on coral communities. 
The EPA and USDA, at the minimum, should be charged with implementing 
the coastal pollution reduction plan and NOAA should be charged with 
implementing the plan for reversing impacts from fishing. In addition, 
the CRTF's area of responsibility should be expanded to include 
deepwater coral communities as well.
    In the long-term, the Congress should enact a ``Coral Protection 
and Management Act'' that provides direct authority to protect and 
manage corals, and provides a framework for research and cooperation 
with international protections efforts. This legislation should include 
the following elements: support for mapping, monitoring, and research 
programs; support for new research and assessment activities to fill 
critical information gaps; liability provisions for damages to coral 
reefs similar to those in the Marine Protection, Research, and 
Sanctuaries Act; support for outreach activities to educate the public 
about coral conservation and reduce human impacts; and, support for 
U.S. involvement, particularly through the sharing of scientific and 
management expertise, in bilateral, regional, and international coral 
reef management programs.
    As the world's largest importer of ornamental coral reef resources, 
the United States has a particular responsibility to help eliminate 
destructive harvesting practices and ensure the sustainable use of 
these resources. Many of these resources are harvested by methods that 
destroy reefs and overexploit ornamental species. A balance is needed 
between sustaining the legitimate trade in ornamental resources and 
sustaining the health and survival of the world's coral reef resources. 
The U.S. should develop domestic standards for the importation of coral 
species, to ensure that U.S. citizens do not indirectly promote 
unsustainable practices in coral harvesting countries.

Aquaculture
    Marine aquaculture has the potential to supply part of the ever 
increasing domestic and worldwide demand for seafood. However, there 
are two major concerns that need to be addressed: environmental 
problems with existing aquaculture operations, particularly net-pen 
facilities, and a confusing, inconsistent array of State and Federal 
regulations that hinder private sector investment.
    To oversee a comprehensive and environmentally sound management 
regime, Congress should amend the National Aquaculture Act to designate 
NOAA as the lead Federal agency for implementing a national policy for 
environmentally and economically sustainable marine aquaculture and 
create an Office of Sustainable Marine Aquaculture in NOAA.
    This new NOAA office should develop a single, multi-agency Federal 
permit for the aquaculture industry and ensure aquaculture facilities 
meet State and national environmental standards to lessen impacts from 
escapement and disease and protect the sustainability and diversity of 
wild stocks.
    Furthermore, the permitting and leasing system and implementing 
regulations should: reflect a balance between economic and 
environmental objectives consistent with national and regional goals; 
be coordinated with guidelines and regulations developed at the State 
level; include a system for the assessment and collection of a 
reasonable portion of the resource rent generated from marine 
aquaculture projects that use ocean resources held in public trust; 
require applicants to post a bond to ensure that any later performance 
problems will be remedied and that abandoned facilities will be safely 
removed at no additional cost to the taxpayers; and, require the 
development, dissemination, and adoption by industry of best management 
practices that are adaptable to new research and technology advances.
    Enhanced investments in research, demonstration projects, and 
technical assistance can help the industry address environmental 
issues, conduct risk assessments, develop technology, select species, 
and improve best management practices. It is also vital for developing 
fair and reasonable policies, regulations, and management measures. 
Most of the Federal research to support marine aquaculture has been 
carried out under the auspices of NOAA's National Sea Grant College 
Program, which funds primarily university-based research. Congress 
should increase funding for expanded marine aquaculture research, 
development, training, extension, and technology transfer programs in 
NOAA. The Office of Sustainable Marine Aquaculture should set 
priorities for the research and technology programs, in close 
collaboration with academic, business, and other stakeholders.
    Because the U.S. market for seafood is one of the largest in the 
world, we can use our market power as a positive force for promoting 
sustainable, environmentally sound aquaculture practices not only in 
the U.S., but the world as well. The U.S. should work to ensure that 
all countries adhere to aquaculture standards such as are in the UN FAO 
Code of Conduct for Responsible Fisheries.

Oceans and Human Health
    Beneficial and harmful links between human health and ocean health 
exist. While several important medical treatments are based on 
chemicals discovered in marine animals, increasingly common phenomena 
such as harmful algal blooms have demonstrated ability to negatively 
impact human health. The health of marine ecosystems is affected by 
human activities such as pollution, global warming, and fishing. But in 
addition, human health depends on thriving ocean ecosystems. A better 
understanding about the many ways marine organisms affect human health, 
both for good by providing drugs and bioproducts, and for bad by 
causing human ailments, is needed.
    Congress should establish an oceans and human health initiative to 
create a competitive grant program and coordinate Federal activities. 
Existing programs at NOAA, NSF and the National Institute of 
Environmental Health Sciences should be coalesced in this initiative. 
This initiative should be expanded to include other pertinent agencies 
such as the EPA and FDA.
    New knowledge and technologies are needed to detect and mitigate 
microbial pathogens. These methods must be quick and accurate so that 
information can be communicated to resource managers and the coastal 
community in a timely manner. As they are developed, technologies need 
to be integrated into biological and biochemical sensors that can 
continuously monitor high-risk sites. It is important that site-
specific sensor data and satellite sensor data be incorporated into the 
IOOS. To accomplish this task, the National Oceanic and Atmospheric 
Administration, National Science Foundation, National Institute of 
Environmental Health Sciences, and other appropriate entities should 
support the development and implementation of improved methods for 
monitoring and identifying pathogens and chemical toxins in ocean 
waters and organisms.

Offshore Energy and Mineral Resources
    Oil and gas development on the Outer Continental Shelf (OCS) 
provides over a quarter of our domestic oil and gas reserves, and 
contributes thousands of jobs and billions of dollars to our economy. 
In addition to its responsibilities for living marine resources, the 
Federal Government also exercises jurisdiction over nonliving 
resources, energy and other minerals located in the waters and seabed 
of the more than 1.7 billion acres of OCS. Offshore oil and gas 
development has the most mature and broadest management structure of 
all such resources. Although controversial in many areas, the process 
for oil and gas leasing and production is well institutionalized, 
reasonably comprehensive, and could be a model for new ocean-based 
renewable energy projects as part of a coordinated offshore management 
regime.
    MMS's Environmental Studies Program (ESP) is a major source of 
information about the impacts of OCS oil and gas activities on the 
human, marine, and coastal environments. Since 1986, annual funding for 
the program has decreased, in real dollars, from a high of $56 million 
to approximately $18 million in 2003. The erosion in ESP funding has 
occurred at a time when more and better information, not less, is 
needed. There continues to be a need to better understand the 
cumulative and long-term impacts of OCS oil and gas development, 
especially in the area of low levels of persistent organic and 
inorganic chemicals, and their cumulative or synergistic effects.
    The U.S. Department of the Interior should reverse recent budgetary 
trends and increase funding for the Minerals Management Service's 
Environmental Studies Program. The development of technologies and 
exploratory activities moving into very deep waters requires an 
increase in the MMS environmental studies program to keep track of new 
and emerging environmental issues. In addition to this program, the 
development of the IOOS could provide better information that can 
improve management of offshore resources. Industry and Federal agency 
partnerships should allow use of industry facilities to be incorporated 
into the IOOS.
    To make certain that the Federal-State partnership is strengthened 
and that critical marine ecosystems are protected, more investment of 
the resource rents generated from OCS energy leasing and production 
into the sustainability of ocean and coastal resources is necessary. 
Specifically, some portion of the revenues received by the Federal 
Government annually for the leasing and extraction of nonrenewable 
offshore resources need to be allocated to all coastal states for 
programs and efforts to enhance the conservation and sustainable 
development of renewable ocean and coastal resources. Congress should 
ensure that revenues received from leasing and extraction of oil and 
gas and other new offshore uses are used to promote sustainable 
development of renewable ocean and coastal resources through creation 
of a grant program to all coastal states, with a larger share going to 
OCS producing States.
    Conventional oil and gas are not the only fossil-based fuel sources 
located beneath ocean floors. Methane hydrates are solid, ice-like 
structures composed of water and natural gas. They occur naturally in 
areas of the world where methane and water can combine at appropriate 
conditions of temperature and pressure, such as in thick sediments of 
deep ocean basins, at water depths greater than 500 meters. The 
estimated amount of natural gas in the gas hydrate accumulations of the 
world greatly exceeds the volume of all known conventional gas 
resources. Conservative estimates reveal the quantity is enough to 
supply all of the Nation's energy needs for more than 2,000 years at 
current rates of use. However, there is still no known practical and 
safe way to develop the gas and it is clear that much more information 
is needed to determine if methane hydrates can become a commercially 
viable and environmentally acceptable source of energy. The National 
Ocean Council (NOC), working with the U.S. Department of Energy and 
other appropriate entities, should determine whether methane hydrates 
can contribute significantly to meeting the Nation's long-term energy 
needs. If such contribution looks promising, the NOC should determine 
how much the current investment in research and development efforts 
should be increased.
    There is continued interest in offshore renewable technologies as a 
means of reducing U.S. reliance on potentially unstable supplies of 
foreign oil, diversifying the Nation's energy mix, and providing more 
environmentally benign sources of energy. As long as Federal agencies 
are forced to bootstrap their authorities to address these activities, 
the Nation runs the risk of unresolved conflicts, unnecessary delays, 
and uncertain procedures. What is urgently needed is a comprehensive 
offshore management regime, developed by the National Ocean Council, 
which is designed to review all offshore uses in a greater planning 
context. A coherent and predictable Federal management process for 
offshore renewable resources that is able to weigh the benefits to the 
Nation's energy future against the potential adverse effects on other 
ocean users, marine life, and the ocean's natural processes, should be 
fully integrated into the broader management regime. Congress, with 
input from the National Ocean Council, should enact legislation 
providing for the comprehensive management of offshore renewable energy 
development as part of a coordinated offshore management regime. 
Specifically, this legislation should: streamline the process for 
licensing, leasing, and permitting renewable energy facilities in U.S. 
waters; subsume existing statutes, such as the Ocean Thermal Energy 
Conversion Act, and should be based on the premise that the oceans are 
a public resource; and, ensure that the public receives a fair return 
from the use of that resource and development rights are allocated 
through an open, transparent process that takes into account State, 
local, and public concerns.

Advancing International Ocean and Science Policy
    The United States has traditionally been a leader in international 
ocean policymaking and has participated in the development of many 
international agreements that govern the world's ocean areas and 
resources. That leadership must be maintained and reinvigorated. The 
international ocean challenges of the 21st century will require 
improved collaboration among domestic and international policymakers to 
establish ambitious objectives and take the actions necessary to 
achieve them.
    The United States can best advance its own ocean interests and 
positively contribute to the health of the world's oceans by first 
ensuring that U.S. domestic policies and actions embody exemplary 
standards of wise, sustainable ocean management. The new national ocean 
policy framework will be instrumental in setting this positive tone for 
the international ocean community. The Commission also recommends 
several specific actions to maintain and reinvigorate the leadership of 
U.S. in global ocean issues:

U.S. Accession to the United Nations Convention on the Law of the Sea
    The United States should accede to the United Nations Convention on 
the Law of the Sea--the preeminent legal framework for addressing 
international ocean issues. Until that step is taken, the Nation will 
not be able to fully participate in bodies established under the 
Convention that make decisions on issues of importance to all coastal 
and seafaring nations, or to assume its important leadership role and 
protect United States interests as the law of the sea evolves.

Enhanced Coordination Among U.S. Ocean-Related Federal Agencies
    Within the U.S. Government, the U.S. Department of State is the 
lead agency for most ocean-related international negotiations. However, 
the role of more specialized agencies is extremely important due to the 
science and resource focus of many multilateral ocean issues. 
Consistent involvement of a wide range of experts is essential both to 
establish international standards that reflect U.S. interests, and to 
ensure that subsequent actions by the United States and others are in 
accordance with those standards.
    A new mechanism is needed to provide the optimum degree of 
coordination among U.S. agencies sharing responsibility and knowledge 
of international ocean issues. An interagency committee should be 
established under the auspices of the National Ocean Council to enhance 
coordination and collaboration among U.S. Government agencies, 
strengthening U.S. performance at international negotiations and 
improving implementation of international ocean policy.
    Successful national and international ocean policy depends on sound 
scientific information. It is essential, therefore, to ensure that U.S. 
policymakers benefit from timely advice and guidance from the U.S. 
marine scientific community. This, in turn, requires procedures that 
both give scientists the opportunity to provide input and policy makers 
the chance to carefully consider their recommendations. The State 
Department should increase its internal training and scientific support 
to ensure better integration of ocean-related scientific expertise in 
policy and program development and implementation. In addition, the 
Department should develop more effective mechanisms to facilitate input 
from other government agencies and the broader scientific community.

Building International Capacity in Ocean Science and Management
    Implementation of international ocean policy and improved 
management of ocean and coastal resources worldwide are affected by the 
adequacy of the science and management capacity of every coastal 
nation. To maintain progress on a global scale, the United States and 
other capable nations must assist coastal nations of more limited 
means. To be most effective, assistance should be science-based and 
developed within the context of an ecosystem-based approach. The U.S. 
Department of State should offer strong support for U.S. scientists 
conducting research programs around the world. Existing international 
partnerships should be strengthened and new partnerships promoted to 
facilitate the conduct of international research.
    Capacity-building efforts should be concentrated on issues that 
have been identified as particularly critical for the health of an 
ecosystem or marine species, and have the greatest potential for 
positive impacts. In most instances, effective capacity-building will 
require long-term efforts to change detrimental practices and build 
support for new, sustainable management approaches. These efforts will 
require a funding commitment sufficient to make the changes needed to 
preserve or rebuild healthy ecosystems. As part of its international 
leadership role, the United States should increase its efforts to 
enhance long-term ocean science and management capacity in other 
nations through funding, education and training, technical assistance, 
and sharing best practices, management techniques, and lessons learned.

Implementing a New National Ocean Policy
    To implement the blueprint for a new national ocean policy outlined 
in our report, several key elements are required: the will to move 
forward, the actors to carry out the changes, and the resources to 
support sustainable management of our oceans and coasts. Congress and 
the President have already demonstrated political will by enacting the 
Oceans Act of 2000 and appointing the U.S. Commission on Ocean Policy. 
Our preliminary report specifies who should carry out each 
recommendation and discusses what the costs will be and how they can be 
covered.

Who Should Take Action
    In our report, we make 198 specific recommendations to implement a 
more coordinated and comprehensive national ocean policy. One of our 
goals was to ensure that every recommendation was aimed at a clear 
responsible party who could take action and be held accountable over 
time. As you read the report, you will see the recommendations grouped 
according to subject area. However, to highlight the assignment of 
responsibility, we also present a summary of all 198 recommendations, 
organized by the primary actors, in Chapter 31.
    In brief:

  <bullet> We include 54 recommendations for Congress, 69 for Executive 
        Branch leaders, and 125 for Federal Government agencies.

  <bullet> Of the 69 recommendations for Executive Branch leaders, 8 
        recommendations are for the President, 45 for the new National 
        Ocean Council, 13 for the offices under the NOC's Committee on 
        Ocean Science, Education, Technology, and Operations, 2 for the 
        Assistant to the President, and 1 for the Presidential Council 
        of Advisors on Ocean Policy.

  <bullet> Of the 125 recommendations aimed at Federal Government 
        agencies, 44 are for NOAA, 20 for EPA, 10 for the U.S. Coast 
        Guard, 9 for NSF, 9 for the Department of the Interior, 8 for 
        the U.S. Navy, 8 for the Department of State, 6 for the 
        Department of Transportation, 5 for NASA, 3 for the National 
        Institute of Environmental Health Sciences, 2 for the U.S. Army 
        Corps of Engineers, 2 for the Department of Agriculture, and 1 
        for the Department of Labor.

    (Note that some recommendations include more than one actor. As a 
result, the breakdown by organization adds up to more than 198.)
    Although we have avoided targeting States (and local, territorial, 
and tribal governments) as the primary actors in our recommendations, 
they have a critically important role to play in the new National Ocean 
Policy Framework--through establishment of regional ocean councils, and 
in areas such as coastal development, water quality, education, natural 
hazards planning, fishery management, habitat conservation, and much 
more. States should also participate in the design and implementation 
of regional ocean observing systems and their integration into the 
national IOOS, as well as other research and monitoring activities.

How Can the Needed Changes be Achieved: Costs and Revenues
    The recommendations I've just alluded to outline a series of 
ambitious proposals for improving the use and protection of the 
Nation's oceans and coasts. But meaningful change requires meaningful 
investments. In the case of the ocean, such investments are easy to 
justify.
    As I explained earlier and as we discuss in more detail in the 
preliminary report, more than one trillion dollars, or one-tenth of the 
Nation's annual gross domestic product, is generated each year within 
communities immediately adjacent to the coast. By including the 
economic contribution from all coastal watershed counties, that number 
jumps to around five trillion dollars, or fully one half of our 
Nation's economy. Those contributions are threatened by continued 
degradation of ocean and coastal environments and resources.
    Modest levels of new funding will reap substantial dividends by 
supporting new management strategies to sustain our ocean and coastal 
resources and maximize their long-term value.

Costs
    From the start, this Commission pledged to be clear about the costs 
of its recommendations. In keeping with that goal, the final report 
will include a complete accounting of the startup, short-term, and 
continuing costs associated with each issue area, including an analysis 
of Federal, State, and local budget implications to the extent 
possible.
    At this stage, I am able to provide a rough estimate of overall new 
Federal spending associated with the Commission's preliminary 
recommendations. The Commission continues to refine its calculations 
and the information on which they are based, and will have more 
detailed costs and revenue estimates in the final report to the 
Congress and the President.
    The total estimated additional cost for initiatives outlined in our 
report will be approximately:

  <bullet> $1.2 billion in the first year

  <bullet> $2.4 billion in the second year

  <bullet> $3.2 billion per year in ongoing costs thereafter

    A few special investments are worth highlighting:

  <bullet> Creation of the National Ocean Council and related elements, 
        with first-year costs of $1 million and ongoing annual costs of 
        $2 million.

  <bullet> Expansion of ocean education programs, with first-year costs 
        of $7 million, second year costs of $251 million, and ongoing 
        annual costs of $246 million.

  <bullet> Establishment of an integrated ocean observing system, with 
        first-year costs of $290 million, second-year costs of $312 
        million, and ongoing annual costs of $652 million.

  <bullet> Increased ocean science and exploration, with first-year 
        costs of $230 million, second-year costs of $395 million, and 
        ongoing annual costs of $760 million.

  <bullet> Dedicated Federal support for needed State actions, with 
        first-year costs of $500 million, second-year costs of $750 
        million, and ongoing annual costs of $1 billion.

    In view of the value generated by the ocean and coastal economy, we 
believe these are very reasonable investments.

Revenue: Creation of an Ocean Policy Trust Fund
    Mindful of intense budgetary pressures at both Federal and State 
levels--and sensitive to the hardship associated with unfunded Federal 
mandates--the Commission set out to identify appropriate sources of 
revenue to cover the cost of its recommendations. A logical, 
responsible funding strategy is outlined in the preliminary report and 
will be developed further in the final report.
    The Commission proposes creation of an Ocean Policy Trust Fund 
composed of rents generated from permitted uses in Federal waters. The 
Fund would include Outer Continental Shelf oil and gas revenues that 
are not currently committed. It would support the additional 
responsibilities we suggest for Federal agencies and prevent the 
creation of unfunded mandates to states.
    The critical nature of the Nation's oceans assets and the 
challenges faced in managing them make it clear that the time has come 
to establish an Ocean Policy Trust Fund in the U.S. Treasury to assist 
Federal agencies and State governments in carrying out the 
comprehensive ocean policy recommended by this Commission.
    The Fund would include Federal revenues from Outer Continental 
Shelf oil and gas development that are not currently committed to other 
funds. The Land and Water Conservation Fund, the National Historic 
Preservation Fund, and the OCS oil and gas revenues given to coastal 
states from the three mile area seaward of their submerged lands would 
not be affected. After those programs were funded, in accordance with 
law, the remaining OCS monies would be deposited into the Ocean Policy 
Trust Fund.
    Additional funds may also become available based on new offshore 
activities. In several sections of the preliminary report we discuss 
revenues that may be generated from permitted uses of Federal waters. 
In general, when a resource is publicly-owned, its use by private 
profit-making entities should be contingent on a reasonable return to 
taxpayers. Creating a link between permitted activities in Federal 
waters and the cost of associated regulatory and management 
responsibilities is logical and well justified by precedents in Federal 
land management.
    Approximately $5 billion is generated annually from OCS oil and gas 
revenues. Protecting the three programs noted above would remove about 
$1 billion. Thus, some $4 billion would remain available for the Ocean 
Policy Trust Fund each year under current projections. At this time it 
is not possible to specify the amount of revenue that might be produced 
by emerging uses in Federal waters, nor predict when they may begin to 
flow.
    The report recommends that a portion of the revenues received from 
the use of offshore resources be granted to States for the conservation 
and sustainable development of renewable ocean and coastal resources. 
OCS oil and gas producing States should receive a larger portion of 
such revenues to address the impacts on their States from extraction 
activities in adjacent Federal offshore waters.
    In the Commission's view, Trust Fund monies should be used 
exclusively to support improved ocean and coastal management consistent 
with the Nation's new coordinated and comprehensive national ocean 
policy. Such funds would be used to supplement--not replace--existing 
appropriations for ocean and coastal programs, and to fund new or 
expanded duties.

Closing Statement
    What I have presented to you today is a broad overview of the 
Commission's preliminary report--the culmination of two and a half 
years of work by 16 dedicated commissioners, 26 world-class science 
advisors, and a tireless staff of experts. To create this report, the 
Commission heard testimony and collected other information that shaped 
our understanding of the most pressing issues facing our Nation's 
oceans and coasts.
    The Commission balanced environmental, technical, economic, and 
scientific factors in making its recommendations. These bold 
recommendations for reform call for immediate implementation, while it 
is still possible to reverse distressing declines, seize exciting 
opportunities, and sustain the oceans and their valuable assets for 
future generations. Clearly, the Commission's recommendations will 
require some new investments. However, without major change, the 
tremendous potential of our oceans and coasts to American prosperity 
will continue to deteriorate.
    It has taken more than 35 years for the Nation to refocus its 
attention on these vital resources. Our report provides a blueprint for 
the 21st century to achieve a future where our oceans and coasts are 
clean, safe, and sustainably managed and continue to contribute 
significantly to the well being of all the Nation's citizens. The time 
to act is now and everyone who cares about the oceans and coasts must 
play a part. Leadership from this Committee and others in Congress, and 
from the White House, will be essential and we look forward to working 
closely with all of you in the months and years to come.

    The Chairman. Thank you, Admiral Watkins. Senator Stevens 
is required to go to another meeting and he'd like to make a 
comment or ask a question and we'd like to recognize him.
    Senator Stevens. I just want to make a statement. We do 
have a hearing at 2 p.m. on the financial aspects of this 
proposal, all of the recommendations. It will be, I hope, we 
want to confine that to the requirements for financing for the 
future to carry out your recommendations, so I look forward to 
seeing you at 2 p.m. That hearing's in room 138 of the Dirksen 
Building.
    The Chairman. Thank you, Senator Stevens. So you're going 
to have a full day today.
    Senator Stevens. Well, that's so they can go home tonight.
    The Chairman. Again, I want to thank you and members of the 
Commission. In the course of our questions by the members, if 
any of the members of the Commission choose to add or would 
like to respond, or Admiral, if you feel that one of the 
commissioners is qualified, might add something, please call on 
them. I've never known you to need to call on anyone, but 
perhaps this will be different.
    Admiral Watkins. Are you saying I talk too much, Mr. 
Chairman?
    The Chairman. No, sir. Admiral, I'd like you and any other 
member of the Commission to talk about climate change. 
Obviously in the report you talk about the potential of climate 
change to significantly alter the distribution of 
microorganisms in the oceans. We had a hearing not long ago 
where one of the witnesses talked about the Great Barrier Reef 
dying. I'm a frequent swimmer and diver and I believe in 
various parts of the world I've seen massive impact of climate 
change. Senator Stevens, who just left, knows very well the 
effect on Native Alaskan villages because of increasing water 
levels.
    I would just like a general assessment of how serious the 
problem is, and I'd be glad to hear from any of the other 
commissioners as well, and about how urgent it is that we take 
some kind of action and what action that might be. Thank you.
    Admiral Watkins. Mr. Chairman, I was Secretary of Energy at 
the time that the Nation was preparing for its first meeting on 
sustainable development in Rio de Janeiro. I thought our 
preparations were very poor. I don't think the United States 
came out with their head high in a leadership role. And one of 
the problems was that we didn't have a scientific, science and 
technology component to advocacy. We had an advocacy stream 
only pushing things, and we have rejected everything so far 
rather than trying to come to a common approach internationally 
on collaborative research to understand the oceans, and I think 
it's time to do that.
    And the climate change issue is powerful enough to drive 
some of these recommendations we make all by itself. And the 
way the Commission has approached this is we've noted 
throughout our report that climate change impacts every topic 
in our report--from health and safety of humans, health of 
environment, fisheries, distribution of marine organisms, 
including pathogens.
    And as you know, just a one to two degree increase in 
surface water temperature off Bangladesh, all the research 
studies have shown the direct proportion of that to malaria 
ashore, and we've seen it during the El Nino events in Africa, 
what happens there, droughts and floods and so forth. We can 
predict those things to some reasonable percent of accuracy if 
we get on with an observing system that makes some sense, and 
of course, we put a lot of strength on that in our report.
    We discuss the importance of the Integrated Ocean Observing 
System in the opening remarks, talking about its component of 
the Earth-observing system, which has to be brought together. 
And I think if the United States takes a leadership role in 
this area, it will be doing something great for mankind in 
addition to doing something great for our own country.
    So we believe very strongly that we have to have real time 
monitoring, we have to have real time assessment of what's 
going on out there, and the most complicated area of all the 
Integrated Ocean Observing Systems is the coastal component, 
which we have not invested in much in recent years. When the 
Russians went away, so did the interest, and that was deep 
ocean. So now we've got a real challenge on our hands to recoup 
some of the losses we could have had with a greater investment.
    The Chairman. Could I ask again, Admiral, how serious do 
you think the problem is?
    Admiral Watkins. I think it's a serious problem. I think if 
you want to have a gut grabber, read the Abrupt Climate Change 
Report coming out of the Woods Hole Oceanographic Institution 
recently. The 40 percent loss of ice depth in the Arctic is 
significant. The freshening of that water could well change the 
entire ocean circulation flow because of the salinity changes, 
and so those things--and they've happened in times past. The 
coring of the ice in Iceland has demonstrated this.
    So we have some serious problems. They may not be tomorrow. 
Tomorrow may be OK from today, but 10 years from tomorrow, 20 
years from tomorrow won't, and we have to start now to 
understand that. So I think it's very serious, and it's not 
that we're going to change nature, but we can optimize its 
benefits and mitigate its hazards that are just hanging out 
there right now unattended to. So in a way the climate change 
issue could drive all of these actions, because they're all 
interconnected with understanding and decisionmaking that makes 
some sense. Today it's advocacy, and that won't sell, I don't 
think, alone. We have to have alternatives and we have to have 
a balanced approach.
    You told us in Oceans Act of 2000 to balance economy with 
science and technology and with environment and we've done 
that, we've been true to that. And so I think this climate 
change issue is extremely important and it's throughout our 
report, but we're not the commission for climate change. We're 
the commission to say what is the oceans component, and we've 
given you that.
    The Chairman. I thank you, Admiral. Would any of the other 
commissioners like to comment on that issue?
    Mr. Hershman. The issue of immediacy came to our attention 
in the Northwest, the Washington coast, when in 1998, because 
of an El Nino situation, a low atmospheric pressure situation 
and a storm created some enormous wave action, which created 
great erosion problems. And what the scientists are saying is 
that that series of events was a sort of perfect storm of 
activities combining, and any modest increase of sea levels in 
general will create enormous kinds of erosion problems and 
demands for funding to protect coastal areas.
    And so the policy issues involving hazards are only 
aggravated extensively when you add the climate change and sea 
rise issue on top of that, so it's a local issue as well.
    The Chairman. Thank you. Dr. Sandifer?
    Dr. Sandifer. Mr. Chairman, thank you, sir. In addition, in 
this report I believe more than anywhere else you will find a 
call for adding, building new biological mechanisms of 
observation and adding them to the Integrated Ocean Observing 
Systems, so we can get a much better handle on not only what's 
happening in the physical environment, but how that translates 
into impacts on coastal resources, living resources, ocean 
resources, and then how those translate into impacts on humans.
    We also promote an effort linking the ocean's activities, 
ocean health to human health, and part of that specifically 
addresses the relationship of climate change to the transfer of 
diseases and invasive species through the marine environment. 
So I think the Admiral is absolutely correct. We have 
recognized this throughout the report, tried to address it as 
best we could within the context of the ocean commission that 
we were given, and I really think that this place more than 
anywhere else we push the need for adding biological 
observations on top of the physical and getting a much more 
complete picture than you would otherwise get.
    The Chairman. Thank you. And I just have one additional 
comment on this issue, and it's not exactly--this is no way a 
criticism. We keep observing and observing and observing and 
making more plans and spending more money on observing and 
gathering data. At some point, we're going to have to act. Does 
it take the Great Barrier Reef to die before we say, ``we've 
observed this.'' How much data have to be accumulated? The 
National Academy of Sciences has stated there is overwhelming--
I'll try to, I'll put the exact word that they use--evidence 
that climate change is taking place, and this administration is 
going to have some really great observations and the first 
report is going to be in the year 2012.
    So I'm certainly not complaining to you, because I think 
you all have done an outstanding job. But at some point we have 
to make a recommendation as to what actions we need to take. 
And you know why we won't? Because it's going to cost money and 
it's going to change our lifestyles.
    Admiral Watkins. Mr. Chairman, we do make a recommendation 
on what could be done. It's not just observations and data. You 
know, some place there has to be a virtual common data center 
that integrates the various databases that are all over the 
place. We've got county databases, we've got State databases, 
we've got NOAA databases, Navy databases. They don't talk to 
each other. And we have recommended in here very strongly that 
the National Ocean Council has a responsibility to set up a 
virtual common data center, and bring these things together. 
They can do it down at Stennis in Mississippi. They have the 
capability of doing it, the Navy can do it today. They can take 
disparate databases, bring them together, and generate products 
out of there that the regions want. The regions have to say, we 
need this information to run the Southeast region, we need it 
in the Northeast region, in Alaska, and others. Those are maybe 
different priorities and different requirements. They can 
demand that of the scientific community, and through the 
databases extract that.
    This would also apply to education. We can have complete 
curricula and information passed directly to our teachers who 
are ill prepared to teach about the oceans, and give them, hand 
it on a silver platter, what comes out of a database that's 
integrated. And that's the best information available 
worldwide. We need to couple that internationally. We've said 
that all in the report. If you want to do this, you can't just 
observe. You've got to take data, you've got to convert it to 
products, you've got to assess that. Everybody has to have 
access. We can't get wound up on intellectual property rights 
and all that other nonsense. We have to move out. Other than 
that, Mr. Chairman, that's about all I can say at this point. I 
agree with you.
    The Chairman. I thank you, Admiral, and I appreciate the 
work that you've done and that you continue to do. And finally, 
I hope that in your report you might address in some way the 
astonishing 20 percent of the NOAA oceans and fisheries program 
funding that is earmarked. Earmarking $676 million of its 
budget is really a remarkable thing, and of course, it's grown 
from like 1 percent. If we don't do something about it, it will 
be all earmarked before those pork-barreling organizations 
finish their work.
    But I hope that you would be able to address the impact of 
pork barrel spending and earmarks on this issue, and I'm sure 
that Senator Hollings will agree with me. Thank you.
    Senator Hollings.
    Senator Hollings. I'm a disciple of Senator Stevens.
    [Laughter.]
    Senator Hollings. Admiral Watkins and each of you on the 
Commission, you all have worked hard, diligently, extensively, 
professionally, and you've got a heck of a good report. At the 
time, we had to struggle here at the Committee level over a 
four-year period to get the Commission started under the Oceans 
Act, and one of the things that we had to go along with 
including in the bill was the Governor's report. I questioned 
that at that time. We have that requirement now in the 
commission process, that's why it's still an interim report so 
that a draft can be submitted to the Governors. And now I'm 
looking at that requirement and saying, well, maybe that's good 
because we in the Congress also really want to look at this 
draft report, because in essence the report has gotten a lot of 
little problems coordinated and everything else of that kind 
attended to, recommended for, but like Bossy the cow, you give 
us a full pail and then kick it over with the National Ocean 
Council, over at the White House. Boy oh boy, that's a non-
starter, if I have ever seen one.
    You have all the Cabinet members with their particular 
interests jumping on whoever's to be in charge of the National 
Ocean Council. The Cabinet members will attend, but they'll 
bitch, they'll fuss, they'll speak up when their departments 
have an issue. They won't have any ideas for really 
strengthening oceans policy, or having a lead agency. You keep 
talking about NOAA being strengthened into the lead agency. But 
you can bet your boots that it won't happen with that council. 
Well, right to the point, you're talking about science. I've 
been down to the Antarctic. I've looked up at the ozone in the 
atmosphere, and I've seen the beginning, as the scientists have 
described it, of climate and weather. And yet you say you're 
going to have that ocean policy council guide the effective use 
of science and ocean policy, whereas the science resides in 
NOAA, and politics is at the White House. Here again, I'm going 
to hear the same thing I've heard for 30 years; you will 
politicize scientific endeavors and those kinds of issues.
    Let me get right to the point and I want all of you to look 
at this in the summer when you review comments from the 
Governors. I harken back to Russell Train, head of the 
Environmental Protection Agency. In 1976, we introduced a bill 
creating a Department of Oceans and Environment. We were trying 
to do all the things that you folks are trying to do with this 
Council. If you ever could get, as the Stratton Commission 
recommended, the Coast Guard as a lead agency of a Department 
of Oceans and Environment, you can also get the climate 
programs, you can get the environment and oceans programs, and 
you can get the Coast Guard itself, which is either neglected 
in Transportation or now neglected in Homeland Security. We 
can't get more money for the Coast Guard from this 
Administration and the Department of Homeland Security. You 
have to experience these things to understand them.
    I just heard you talk about unfunded mandates. We just 
voted on an unfunded mandate with respect to port security. 
This Committee has reported out a port security bill, has 
passed three readings in both houses, and the President has 
signed it into law. We tried to put the money to it. It was 
voted down in this committee. Oh, we'll demonstrate and 
flagellate and get up and headline, but we don't make headway.
    Now, let's get right to the budget, because my time is 
limited and I want to yield, but that Ocean Policy Council, to 
me, takes away from what we've got now. NOAA has Admiral 
Lautenbacher, a good leader. He's out there in Tokyo 
representing our Nation and getting our international partners 
to work together on an Earth observation system.
    If you look at page 374 of your document, you finesse the 
one thing I wanted to find out; namely, the budget. I know you 
have a hearing on it today all, but if you turn to page 374, 
you have all the items listed there, the council, education, 
exploration, Federal support for states and everything else, 
and you've got many blanks to fill in regarding funding 
estimates. You've got to provide details. And don't worry about 
sticker shock. This crowd still gives $15 million to the oceans 
and $15 billion to space. You can't catch up with that 
spacecraft. We know far more about the surface of the moon than 
we do about the surface of the Earth itself. Seven-tenths of 
the Earth's surface is the ocean--Admiral, you know the 
statistic way better than me.
    Admiral Watkins. Are you suggesting, Senator Hollings, that 
we move some money from space to the oceans? We're all for it. 
Thank you very much.
    Senator Hollings. You don't have to move the money from 
anywhere. You just have to direct us and we're going to have to 
find it, but you've got to determine the needs and what would 
be a good start. Don't you all worry, up here now it's all tax 
cuts, tax cuts, tax cuts, and we can't find money. We don't 
have it for real security, much less false security. We don't 
have it for the Coast Guard. We don't have it for all of these 
other things and we don't have it for Iraq and Afghanistan. I 
just got back from Afghanistan. We spent $120 billion so far, I 
think, in Iraq, and they're begging for $5 billion in 
Afghanistan. The President's budget is $1.2 billion. 
Afghanistan's got 4 million more people. They're begging for 
more money--we in the Congress put it up to 2 million, we can't 
get it up to 5, which they could use immediately to win that 
operation. The people like us there, we've got NATO there. But 
we don't have any money for that.
    Those are all the endeavors of government, so you should 
look at the organization, whether NOAA needs to be an agency. 
Mind you me, the Stratton Commission came out and called for an 
independent ocean agency with the Coast Guard as the lead 
entity. We have a Secretary Evans who works with NOAA and lets 
Admiral Lautenbacher run with the ball, but I can never forget 
one good close friend and no finer fellow than Malcolm 
Baldrige. He was a cow puncher. He didn't know where any oceans 
were or anything else like that, and he thought it was a sort 
of insult to give him that kind of endeavor because he was 
interested in business, the Baldrige award and those sorts of 
things, and he did an outstanding job.
    But folks, we have an opportunity here. You see the House 
members interested, you see the Senate leadership now coming 
from the Foreign Relations Committee and the other 
Appropriations Committees, you see Senator McCain, and they're 
all interested in this. So you all need to go back and look at 
this document during the summer and forget about an ocean 
council, because it's at the White House. That's the place to 
get it lost, I can tell you that right now. You're transferring 
the decisions on science, you're transferring everything there, 
where nothing happens, and that's disorganizing the good work 
that NOAA's doing now.
    Go ahead, call for a Secretary of the Oceans and move the 
Coast Guard over to the new Department, where they can get the 
proper attention. They not only guard security, they guard the 
fisheries, they guard energy development, they guard coastal 
development, the Navy, recreational and commercial boats, and 
everything else of that kind.
    So thank you, Mr. Chairman, you or any of the other members 
can comment, but those are the things that are running through 
my mind right now. Having been in this game, it is hard to 
support the Council and the trust fund. You all haven't gotten 
to the Budget Committee yet. There isn't going to be a trust 
fund, I can tell you that. You can't set aside that money. To 
get the money, it's going to be tough. Let's list what funding 
we need in each one of those entities, because you all have 
spent way more time than anybody else thinking about the 
issues. List that down for us and see if you can't better 
organize this National Ocean Council.
    Admiral Watkins. Senator Hollings, we've spent two and a 
half years. We threw out the concept of a leadership position 
in the White House to integrate 15 Federal agencies and 
independent agencies over there in some cohesive fashion. If 
you look in our report, you'll see the functions performed by 
all of those agencies that are connected with the oceans. We 
heard a plea everywhere we went across the country that we're 
not being heard at the local level--I mean, from the local 
level to the Federal level. We have a discontinuity between 
what you drive down to us and what we think is reasonable to 
do, plus the fact we can't, we don't have the dough to carry it 
out either.
    So we set up, we said, there should be a leadership 
position in the White House that brings all of these disparate 
groups together, so if somebody comes up with an estuarine 
package to clean up things as they've done in the Northwest, 25 
different entities out there come together and get slam-dunked 
in NOAA because OMB says there ain't no money for that. Now, 
we've got to get away from that. We don't think the examiner, 
the budget examiner for NOAA should be other than the natural 
resources examiner. Why do we have the commerce examiner doing 
that? He doesn't know about Integrated Ocean Observing Systems. 
He doesn't know about bringing agencies together in the ocean 
matters.
    So we have--our framework doesn't just stick with the ocean 
council. It says, put a bunch of advisers who represent the 
regions for the first time to share information and demand that 
they be heard. So you can't separate the ocean council from all 
of the other six elements of that framework that we've defined.
    And we also have a step-change approach. We're not saying 
this is the last thing we want to do in this country. We're 
saying it's the first step, immediate step, and if you spend 
too much time on reorganizing all of the agency, we'll lose the 
energy and the specificity that we need to get on with real 
issues out there. We have real non-point pollution problems. We 
have real point source pollution problems. We have a lot of 
things we need to act on and we don't want to devote all of our 
attention to arguing when some kind of hierarchical system 
should be back here.
    So we've said, set up a leadership. As it went on, we said, 
what is the leadership? The leadership is going to be the 
President, who tells the assistant to the President, I want to 
do something for the ocean. I want to get some dough in there 
in the next budget, I want you to work with the Hill and get 
it. That's what George Bush did for me when I was Secretary of 
Energy. Department of Defense hated the $6 billion that I 
wanted to steal from them for cleaning up the waste of nuclear 
weapons, and George Bush said, do it, and then we did it.
    Senator Hollings. Give him a Cabinet position at the 
Secretary level. You're right, that's what we need.
    Admiral Watkins. That's what we need. And so if the 
President wants to do this, then I think the Congress, if they 
do it first and set up an organizational structure where 
integrated budgets can come up here, so if he says, all right, 
I want to put $700 million next year into oceans, you come 
back, Mr. OMB, and give me the programs out of those agencies 
through the National Ocean Council, and we'll ask the Congress. 
Because we then have the degree of specificity such as support 
to integrate the ocean-observing system, and that means new 
sensors of all kinds have to be developed in our research 
laboratory.
    So it's not going to work by itself. It works because the 
President says, I want to make a commitment to this. Otherwise 
it won't work, I agree with you, if there's no commitment. And 
we were asked the other day, well, what happens if we leave 60 
committees that ocean policy has to go before the Senate and 
the House. I said, if the Executive Branch moves, my guess is 
that they'll move very nicely up here and respond to integrated 
budget submissions and all the other things, because they're 
interested in this. We find a lot more interest here on the 
Hill on what we're doing than any place else in the country, 
and the Governors feel the same way. We've talked to the 
Governors, we've been out there talking to them. I've been up 
to Massachusetts, down to Florida, and they're very anxious to 
see themselves plugged into a system that has some kind of 
coordinated loop in it that makes some sense.
    So we don't say this is everything, but we said it's a 
concept, and if you're not going to do this, who is going to 
head this monster in Washington and bring these people 
together? So we don't think of this alone, but we think with 
the President's interest in it that we can do this and do it 
smoothly, and we move to a strengthened NOAA, moving more 
functions in in Phase II from other agencies, and eventually 
maybe somebody will sit back and say, haven't we developed a 
concept for the long haul that brings land, ocean, and 
atmosphere together? It's called natural resources, and so 
that's been debated up here in the 1970s; you were involved in 
some of those bills. And they make some sense for the long 
haul, but not today, not immediately. Let's go through this in 
a step-by-step process. We don't think the National Ocean 
Council is everything at all, but linked to all the other 
things we're recommending and linked to the seven-point program 
and framework, we think it makes a lot of sense, and it stood 
the test of two and a half years, because these commissioners 
didn't agree with it either at the outset. But over time it 
seems to have stood the test that we have put on it in case 
study after case study that it will work. Now, there may be a 
better model.
    Senator Hollings. It won't happen unless you change the 
Council and establish a department and put environmental issues 
in there and then you'll get all of these things together.
    Thank you, Mr. Chairman.
    The Chairman. Do you want to respond to that, Admiral? Dr. 
Rosenberg?
    Dr. Rosenberg. Thank you, Mr. Chairman. Senator Hollings, I 
think that your point about the National Ocean Council being 
the overall leader in some ways is correct, but we're not 
suggesting that this does not include a greatly strengthened 
NOAA, nor a consolidation of programs from other agencies, nor 
are we suggesting that the National Ocean Council be the 
implementing entity.
    But at some point, no matter how much you consolidate, how 
much you strengthen NOAA, even if NOAA was a department, you're 
still going to have to coordinate with the Navy, you're going 
to have to coordinate with other programs in EPA, you're going 
to have to coordinate with the National Science Foundation. I 
don't think that those programs can be consolidated with 
respect to ocean activities in a single agency.
    NOAA still has to be the lead for implementation. They 
still have to be the manager. They still have to be the lead 
for applied science, and we are still recommending that NOAA be 
strengthened. But you still have to have that coordination at 
the Federal level and at the regional level. Now, there may be 
a way to do that without a council, but it's unclear to me that 
you could actually be as effective without getting people to 
sit at the table to at least explain their programs. And having 
spent 10 years in NOAA and being a great supporter of NOAA for 
those 10 years, I think it's a great agency and it does need 
strengthening. But to be the lead on its own and then go and 
talk to the Navy, with respect to Admiral, or to go and talk to 
the National Science Foundation and expect that you can do that 
on an equal footing on an ad hoc basis, I just don't think is 
feasible as you try to work through the various issues.
    I worked on fisheries issues. We would have to deal with 
the Navy on a whole number of protected species concerns. 
That's going to happen no matter how much you strengthen NOAA. 
You still are going to have to deal with the Navy or the 
National Science Foundation or the National Institute of Health 
or EPA. If you had a formal structure by which those issues 
were considered at the highest level, then at least as an 
employee in NOAA, I would have a hope of being able to get 
those issues heard fully.
    So I think the report does lay out a path to a much 
stronger NOAA, and ultimately to a Cabinet-level or an 
independent agency, but if we don't have that coordination now, 
then I think it's going to be very, very hard to make any 
progress on the recommendations in the report. Thanks.
    The Chairman. Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman. Admiral, you've 
had a glorious career and your mission has been to protect our 
country and our citizens. What you're doing now in my view is 
an extension of that same thing, and that is to try and save 
lives and save a way of life, et cetera, that is rapidly 
disappearing in front of us because we're not taking any 
action. At this point, with this report you're kind of like the 
Paul Revere of the ocean assault, and we just don't get the 
message here.
    And, Senator Hollings, I suggest that you extend your 
retirement date by a couple years and just give us a chance to 
get used to your not being here. We won't take a vote on it 
until we have full committee, but we're sure going to miss your 
voice, including your accent, Senator Hollings, but your 
knowledge is particularly significant.
    Dr. Rosenberg just said something about the Navy being 
included, and if one looks at the report issued in the last 
couple of months by the Pentagon about the significance of our 
defense posture as a result of global climate change, the 
forecasts are so grim. We're not talking about 100 years away. 
That report says that by the year 2007, parts of the 
Netherlands are going to be inundated with water, and that can 
create a very difficult situation there. But when you go into 
the Indian Ocean areas, lower lands, the prospects are 
terrible.
    And the Defense Department is trying to prepare itself for 
the day when famine and riots and so forth will overtake parts 
of the world, assaulting our borders and our coastlines. No 
place will be exempt. And so no matter how strongly you make 
the case, Admiral and your colleagues, you've all done a 
terrific job, the report that's released is excellent, we have 
to just bring things together.
    For instance, if we look at what's happened by way of 
comparisons between agencies that administer the Endangered 
Species Act, the Fish and Wildlife Service has listed 1,500-
plus species as endangered, while the National Marine Fisheries 
Service has listed only 19 marine species as endangered. Did 
your Commission assess whether the NMFS is doing a good job of 
protecting endangered and threatened marine species?
    Admiral Watkins. I'd like Dr. Rosenberg to take that. He is 
our special commissioner for the fisheries issue and I think he 
can shed some light on that.
    Dr. Rosenberg. Thank you, Senator. I do think the National 
Marine Fisheries Service is doing a good job with endangered 
species. I think it is a much more difficult job in the ocean, 
partly for the reasons that have been described here, and that 
is we know so little. Our research budgets have been so 
constraining that what we know about marine species is much 
less than what we need to know. Most of the listed species, of 
course, that have been listed by the National Marine Fisheries 
Species are so-called anadromous species like salmon that spawn 
in fresh water, as well as sea turtles and some of the marine 
mammal populations.
    But I actually think that there is an understanding gap in 
the marine environment and that contributes to this. I also 
think that the impacts on land, of course, are much greater, 
much more advanced than they are in the ocean, so I don't think 
it's a matter of they have not been careful in examining 
endangered species issues. I think they've worked with the 
information at hand and it is a much more difficult environment 
to work in. That's part of the reason that the budget needs to 
be much greater. It also is part of the reason that we need to 
strengthen the other actions so that we don't end up using 
Endangered Species Act as a way to manage, because it's of 
course the very last way we actually want to manage any of 
those species.
    Senator Lautenberg. Admiral, in the recommendations on the 
trust fund that perhaps revenues from offshore oil and gas 
operations can be used, but they are used elsewhere now. And 
the question is, where do we go? And I think the question's 
been raised by Senator Hollings and Senator McCain, where do we 
go to get the revenues? I am very involved in environmental 
programs and we have one, Superfund, that was financed and 
moving well and we cut out the financing there. Has anybody got 
any ideas where we go to get the funding for this program?
    Admiral Watkins. Let me tell you, Senator Lautenberg, we 
always have a hard time when it comes to who's going to fund 
this thing. We get those questions all the time. We've looked 
at the existing laws that deal with the revenue stream from oil 
and gas revenues. Those are Federal waters, some returned to 
the American public, the taxpayer, by setting up the necessary 
fund to see that those monies are allocated properly and they 
come back into the country at about $5 billion a year just from 
the oil and gas primarily, there are some other revenues.
    All right, $1 billion of those we wouldn't touch. The $1 
billion or $1.1 billion now that are allocated, you leave it 
alone. We want to make a run on the remainder to say, let's 
help the states ourselves get on with carrying out a national 
ocean policy. Now, I recognize how you score those things in 
the Budget Committee, and I know they're all part of the 
appropriations process. You've got to consider where we are. 
We're just saying that's a legitimate revenue stream for these 
purposes--to feed back and improve the conservation 
initiatives, try to carry out our coastal ocean policy and so 
forth.
    So, it won't be done, it won't be voted. Well, what will be 
voted? We can only recommend. We're not the authorizers and the 
approvers up here. So we're giving you an idea that seems to 
have merit, to follow the highway trust fund concept. This is 
as big a deal as the highway trust fund in my opinion, in our 
opinion, of the Commission. So we didn't think it was illogical 
to have some kind of a thing that's allocated, approved by the 
Congress, allocated through the National Ocean Council, given 
to OMB, and they have some kind of review of that. And you all 
have the oversight over here anyway to take a look at that.
    So it's, I'm going to say, similar to a little gimmick. I 
know everybody makes a run on that account, they want to have 
those revenues, and I recognize that. But we think it's a 
logical one for the oceans, because that's what's intended 
right now--to feed back to the producing states for the most 
part some revenue streams that can help them out in all of the 
other issues that the state has to face regarding offshore oil 
production, for example, in the Gulf.
    Senator Lautenberg. Mr. Chairman, one closing statement, 
and that is, if you don't see it, we don't pay a lot of 
attention to it around here. We take a very short-sighted view 
of things. And the long-range implications of this constant 
destruction of the ocean and its environment are going to cause 
a crisis that we never could have imagined will exist.
    And, Mr. Chairman, I think that we ought to give Admiral 
Watkins, as far as we can, a medal for public service for this 
duty. Thank you.
    Admiral Watkins. Dr. Ballard is our expert on undersea 
observations and I'd like him to----
    Dr. Ballard. Thank you, although I'm only a commander, sir. 
Senator, when we talk about where our revenue's going to come 
from to support work in the oceans, I think it's important to 
realize that before our country benefited from the revenues of 
the Kenecott copper mines, Alaska, before we benefited from the 
corn fields of Missouri, before we benefited from the ranches 
in North Dakota and South Dakota, we had the Lewis and Clark 
Expedition. And I think you need to realize how much of our 
territories--when President Reagan signed that exclusive 
economic zone, we doubled the size of America, the majority of 
it being under water, and we have yet to do Lewis and Clark 
expeditions of half our country, let alone the rest of the 
world.
    As I came flying down this morning for the hearing, I was 
reading this most recent issue of Oceanography, which is the 
official magazine of The Ocean Society, which consists of all 
the major ocean experts on our planet, and they made an 
interesting comment at the very beginning of this that I'd like 
to read into the record. And that said that public opinion 
polls find that people in the United States favor ocean 
exploration over space exploration by a ratio of 2-to-1, and 
yet as Senator Hollings pointed out, NOAA's budget for ocean 
exploration is one-tenth of one percent of NASA's budget.
    It also goes on to show a map, in this recent issue, of 
Mars and a map of the ocean floor, and it says in this issue 
that these images have the same horizontal and vertical scale, 
yet the horizontal resolution of Mars in the horizontal context 
is 15 times better than the horizontal resolution of Earth. It 
goes on to say that the vertical accuracy of the maps between 
Mars and Earth, Mars is 250 times more accurate. I just let 
that just sit there.
    And so I just think that if you want economic revenue, 
let's get on with the exploration and find out what our planet 
has.
    Senator Lautenberg. Thanks, Mr. Chairman.
    The Chairman. Senator Snowe.
    Senator Snowe. Thanks, Mr. Chairman. Admiral Watkins, I 
think there's no question that your Commission, the report, and 
all of you will help us to advance some of the critical issues 
facing the ocean. So many of your recommended activities are 
going to be essential for preventing the further degradation of 
the ocean and the marine environment.
    But first we do have to start with what you say is one of 
the major priorities, and that is creating a whole new 
framework to coordinate these activities. How do you visualize 
this happening? For example, for the National Ocean Council, is 
there a concern that it might be duplicative of any existing 
agencies, or that it would conflict with what NOAA is doing 
presently?
    Admiral Watkins. It's really an amalgam of existing 
agencies. It doesn't take a rocket scientist to know that in 
order to be able to have an integrated budget, you need to be 
able to bring all of the various budgeteers to the table, and 
that's the Secretaries and the heads of the independent 
agencies, and so it has to be done that way. And it has to have 
guidance from the Office of Management and Budget that allows 
them to come in and integrate their various programs, which 
would be really important for the Integrated Ocean Observing 
System. You integrate those programs, star those items that are 
coming up in the budget submission every year, and say, if 
you're going to touch those, let us know because you're taking 
a serious link out of the chain of the integration. NASA has 
its role, EPA has its role, NOAA has its role, Navy has its 
role. Make sure they're coming in in some kind of integrated 
program for an integrated comprehensive ocean policy execution.
    That can be done in my opinion. As I said earlier, it takes 
the President to do that. Initially the President can bring 
that together by executive order, but we're saying that's not 
good enough. We're saying the Congress should authorize that so 
it doesn't change from Administration to Administration and we 
set this up in a cohesive way. It's not unapplicable to many 
other issues.
    Let's take human health. Most every department has a 
component for human health. Do we integrate all those? Why is 
NIH going up exponentially and the others staying constant? I 
don't know. Does somebody really adjudicate that, say that's 
the right priority? I don't think so.
    And so my feeling is that we have a lot of work to do at 
the executive level to integrate our budgets to carry out these 
many functions, which we can't separate from department to 
department to department. They're all the same. NOAA has a 
wonderful thing on floats, on floats that bob up and down--the 
Argo floats go down to 2,000 meters, come up and report 
salinity and temperature and wind conditions. It's very 
important. That's now going worldwide. Well, who's on those 
buoys? Who's riding on the buoys? Is NIEHS on the buoy? No. OK, 
well, who integrates those things? Who demands that, when we go 
up front and design these things? Well, National Ocean 
Partnership Program under an act passed by the Congress in 1997 
allows them to do that. But do they get support from OMB and 
the White House? No.
    So we're at about $25 million a year. We've been there for 
years and years. We don't do anything. Now is the time to do 
something and use those bodies, like the National Ocean 
Council, which is the same people that appear before the 
National Ocean Partnership Program. They're the Secretaries of 
the agencies. But can they do the job without high level 
acceptance? No.
    And so it takes that kind of initiative, and I think the 
Congress, with their zeal to get on with something like this, 
can put pressure on the White House to say this is a good idea. 
You get the executive order going for the feds, and that's the 
locals too in the local regions, they don't talk to each other 
either, but he can demand that and he can pull the Federals 
together, so when the voluntary councils that we're proposing 
out in the region areas come together, they can have somebody 
to talk to that makes some sense, and then vector that up to 
the White House and the Presidential Council of Advisers and 
say, we demand to be heard on these issues.
    And I think your Gulf of Maine Ocean Observing System is an 
embryo of what ought to be done nationwide. That is a Federal 
to State relationship which is working, but at a modest level. 
It ought to be moved more rapidly, and we're recommending that 
in the coastal component of the IOOS.
    Senator Snowe. And I congratulate you on that. I think it's 
an excellent idea, and I'm just delighted that you have 
included a proposal to create a national system. Obviously it's 
going to require a significant investment.
    Admiral Watkins. And we've outlined all that investment. 
Centers know, you know, and Senator Hollings is right, you 
know. Where is the money going to come from? I don't know. We 
think we know. It's not going to come from the states. They're 
saying they're broke. Our country's saying they're broke. We 
think this is every bit as important as a few billion dollars 
going into other efforts, maybe that we can shift a little 
priority here at this point.
    Senator Snowe. Well, with respect to the council, do you 
think that the breadth of activities that would be assigned to 
the council would overwhelm it in any way?
    Admiral Watkins. I don't think so, because I think we'd 
probably never meet in the council in the plenary session, I 
doubt it. That's called a Cabinet meeting. What you do is say 
specific issues. Let's say the Coral Reef Task Force, who do 
they talk to? Well, you bring those agencies that are involved 
in coral reef health together, maybe there are five of them, 
and they talk to that group.
    So that's what I see as a mechanism to keep working this 
problem. We have the Arctic Commission. Who do they talk to? I 
don't know. They haven't been very effective over the years. We 
have a standing commission there. We have many others. They 
need a place to go. And we haven't upset any of the existing 
structure in the Office of Science and Technology Policy, the 
National Ocean Partnership Program. They're all factored into 
our framework, so that we're not upsetting anything and 
spending all of our energies on trying to reshuffle things 
around. We're just saying, just do it right over there and get 
a commitment and get the right people in the Office of 
Management and Budget responding to the President and the 
President has a feeling, a visceral feeling that this is an 
important national commitment.
    Senator Snowe. And what was the thinking behind the 
Commission's recommendation for a council as opposed to 
creating a whole new agency?
    Admiral Watkins. We're not against a new concept of an 
agency. We have set out a three-step program that says what we 
can do immediately with the existing structure, what we then 
can do by reshuffling functions from other agencies that ought 
to be in NOAA for the most part--some of NOAA ought to be in 
Interior, some of EPA ought to be in NOAA. That comes in what 
we'd call phase II.
    For Phase III we're saying, somebody's going to say, voila, 
you've got land, ocean, and atmosphere coming together for the 
first time. Land is interior. EPA is the regulatory body. They 
have research bases that are very much in the game here of 
monitoring all this. So we're not against that. But to do that 
now, in the aftermath of Homeland Security, and to spend all 
our energies on reorganization when in the meantime things are 
going down the drain out there in the field--they need help now 
and we think we can do it now as well as transition over time. 
Maybe in 5 to 7 years you all say, let's get a task force 
together, go back and see what the lessons learned were out of 
the Ocean Policy Act of 1994, or 2004 rather.
    And so that may lead to something better, but we think it 
ought to go in that form, because I don't think we're ready to 
go to an independent department. I don't think we're ready at 
all. We're not up to ecosystem-based management in NOAA. We 
think your organic act ought to be passed this year. It ought 
to define what we mean by that. We don't have to tell them 
exactly how to organize in there, but we've made some 
recommendations and principles in here. We're willing to work 
with the staffs up here. We've got some things in our back 
pocket that say exactly how you write the bill that we didn't 
put in the report because we knew it would be so controversial. 
We're ready to work up here with you in any way, and we've done 
a lot of thinking about this ecosystem-based management and how 
to put it into our Federal Government, which is vertically 
standpipe oriented that can't hack it. They can't do the job 
for a lot of reasons; budget preparation things and all that 
kind of thing constrain us.
    We haven't done all we can do in the global climate change 
program and that's an expensive program, and Chairman McCain 
talked about that. Is that adequate today? We don't think so. 
We don't even think it's close. And the Integrated Ocean 
Observing System is a major component of that and there's a lot 
of dough that has to go into that, and a lot of our 
recommendations, that takes up quite a sizable chunk, and we're 
giving NOAA the responsibility to run that. But they can't run 
it unless they've got the authority to do so.
    Senator Snowe. Thank you.
    The Chairman. Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman, and let me thank 
you, Admiral Watkins, for your continued leadership in the area 
of ocean policy. We've worked together many times in the past. 
And thanks to all the commission members who have given their 
valuable time and expertise in this area, as well as many of 
the commission members who are not with us today who served on 
this important commission. Also recognize Dr. Tom Kitsos, who 
served as your executive director for the excellent work I know 
he did in helping to prepare this. He is a true expert in this 
area in his own right.
    I would think that--I mean, you had a monumental task. 
You're dealing with approximately 75 percent of the surface of 
the Earth, which is the oceans of the world. And the last time 
I was talking to Senator Hollings, it's like deja-vu all over 
again. Thirty years ago, I guess, we received the Stratton 
Commission report with new ideas and here we are 30 years 
later, same committee in the same room continuing to talk about 
what do we need to do about the oceans.
    I think part of the responsibility for highlighting the 
necessity for giving greater attention to the oceans is not in 
a council or anywhere else. It's here with us in the Congress. 
We have the ability as political leaders to make this one of 
the top issues in the country. That's part of our 
responsibility and part of this committee's responsibility. If 
you're not going to get strong leadership from the 
Administration, any Administration, talking bipartisan here, 
then Congress has to step up to the plate and talk about these 
ideas, talk about these problems, and hopefully this report 
will be the basis for Congressional hearings to really get 
people interested in this even if you don't live near an ocean. 
That's somewhat of a problem and the Chairman of this committee 
is an insular state, obviously, in Arizona, but he has given a 
great deal of attention and we need more insular members that 
are also concerned about the ocean.
    Now, with regard to the report, a couple of areas, I'm 
pleased that you looked at the hypoxia problems. Louisiana 
drains, two-thirds of all of North America comes right down the 
Mississippi River and right past the City of New Orleans and 
dumps billions of gallons of water every hour into the Gulf of 
Mexico. And as a result of that, every year 12,000 square miles 
of the ocean dies because of the extra nutrients that are 
dumped into that area, and you all have talked about looking at 
this, that this cannot continue, and the fact that the non-
point source pollution is occurring up and down that river.
    This is a hard thing for us to get resolved. Farmers don't 
want to be restricted in what they drain off their agricultural 
areas that go into the Mississippi River and the other 
tributaries and end up creating the algae problems we have in 
the Gulf and destroying everything in a 12,000 mile area.
    And looking at this and the work that's being done, we have 
the Louisiana consortium that is looking at it, we have another 
Mississippi River Basin Alliance that's working on it. Are 
things being done in your opinion that would be the right 
things that we should be doing with regard to killing this 
large portion of the Gulf of Mexico every year?
    Admiral Watkins. Senator Breaux, you've identified an issue 
which came before the commission in New Orleans when we held 
hearings down there, and we were overwhelmed with the kind of 
actions that you have to take to deal with this issue. We had 
presentations from a senior official in the State of Iowa that 
fully recognized what they were doing up there. If the Congress 
passes a $6\1/2\ billion farm subsidy to generate more ethanol, 
what do you think that does to the nutrients flowing into the 
Mississippi?
    The farmers are doing the best they can to prevent that 
kind of nutrient flow. They are also sensitive to the 
environment and good water conditions, but these are the kind 
of things that need attention across the board. What have we 
just done to ourselves? There are 41 states and two Canadian 
provinces that feed the dead zone in the Mississippi. We're 
sending this report to all Governors because they're all 
involved in this, not just the 35 Governors in the coastal 
states.
    And so we know you have a huge problem. This is why we say 
regional councils become important, because the regional 
councils are made up of the kinds of people you had to pull 
together just for that one issue. But the councils are needed 
for a lot of other issues, not the same people necessarily, but 
the same group of people have to come together and deal with 
it.
    So we're very sensitive to that issue. We're very sensitive 
to the Chesapeake Bay, the Northwest, the Columbia River--many 
of the other estuarine situations are unhealthy as well. You 
are really in the middle of a humdinger down there, and we know 
it. We're sensitive to it; we think what you're doing is the 
best you can and we think you need help, and we think some of 
this revenue stream ought to go back and help solve those 
problems in the states that are involved in the dead zone in 
the Gulf.
    Senator Breaux. Well, I'm glad you all addressed it. It's 
going to help us use what you all have said about it. It's 
incredibly important. I like also that you all had recommended 
that a portion of the OCS revenues, we worked on this for 100 
years that I've been around it seems like, is trying to say 
that as we develop the offshore resources, there is a 
particular need for the offshore states who bear the brunt of 
the infrastructure requirements to be able to try and have some 
of those offshore revenues delegated to coastal restoration and 
dealing with the problems that we're talking about. I'm very 
pleased that you all have recommended that concept.
    The final thing I'd say is one that I disagree with you on 
is the recommendation on the fisheries financing programs. You 
all have made a recommendation in the report, Recommendation 
1916, that recommends that Congress repeal the fisheries 
finance program, the capital construction funds, and other 
programs that encourage overcapitalization in the fishing 
areas.
    Well, all of those programs that provide assistance, 
financial assistance, in the fishing areas, all have 
requirements that they not loan money or make investments that 
would overcapitalize a particular fishing area. That's already 
a requirement. So I'm not sure whether I'm misreading what the 
report said or what, because my recommendation is you don't 
wipe out the whole program, you just make sure that the program 
is not utilized to overcapitalize a particular area that the 
program is designed to benefit.
    These programs have gone a long way to help legitimate 
fishing operations, and the requirements already say you cannot 
make these guarantees or loans if in fact they would contribute 
to the overcapitalization of an industry in this particular 
area.
    Admiral Watkins. I'm going to ask Dr. Sandifer to take 
that.
    Dr. Sandifer. Thank you, sir. Senator Breaux, we simply 
tried to identify--perhaps the recommendation wording needs 
some work--we simply tried to identify the problem that has 
been pervasive in some areas of fisheries, where the 
capitalization funds have ended up not meeting all the goals of 
reducing overcapitalization in those fisheries, or 
overcapacity, with the result of negative impacts on the 
fishermen, as well as on the fish stocks.
    Senator Breaux. But the answer is not to kill the program. 
The answer is to strengthen the requirements that you cannot 
use the money to overcapitalize an industry that's already 
overcapitalized.
    Dr. Sandifer. And that may be the best way to go----
    Senator Breaux. Is that an amendment to your 
recommendation?
    Dr. Sandifer. I'll leave that for us to discuss at an 
appropriate time, Senator, as we get all of the comments back. 
But again, the issue was to try to figure better ways to reduce 
overcapitalization with the least impact both on the fisherman, 
on the taxpayer, on the resources.
    Senator Breaux. Well, there's a way to do that without 
ending the programs. Thank you all for your good work.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Gentlemen, it's 
good to see all of you. I'm assuming there are some women on 
this commission. Maybe that speaks to task that we need to 
accomplish, we need to get more women.
    Admiral Watkins. We have two wonderful members of our 
commission that are women, and both of them are out talking to 
the Governor of California, talking to the Governor of New 
Jersey, talking to the Governor of New York and couldn't be 
with us today. They were with us yesterday and the day before 
that, so they are here in spirit with us and they've been great 
contributors to our work.
    Senator Cantwell. Thank you. I know we are concerned about 
healthy oceans, so Admiral Watkins, thank you, and Professor 
Hershman, thank you for being here, and I know we have another 
representative from the State of Washington, Bill Ruckelshaus, 
who isn't here as well, so I thank you for your hard work.
    As we move forward in talking about this regional approach, 
I wanted to bring up a particular issue as it relates to the 
North Pacific Northwest Fish Council and the issue of 
overfishing and how to base important decisions on good 
science. It seems in the report, because obviously yours is not 
the only report that's out there in the sphere of what to do 
about oceans, you more or less hold up the North Pacific 
Council as a good council that has made good progress in the 
issue of dealing with fisheries management. I don't want to 
overstate that, so I want to have a little more dialogue about 
whether that is in fact the case. Do you think that the North 
Pacific Council has worked well juxtaposed to the councils in 
other parts of the country, and where does that take us if we 
are going to then move to this larger regional approach as 
you're suggesting?
    Admiral Watkins. Let me ask Dr. Rosenberg. He was up in the 
Northwest recently at a AAAS conference. A lot of this was 
debated there. Bill Ruckelshaus was there of our commission, 
and I think that he can best answer this. Ed Rasmuson, one of 
our commissioners from Alaska.
    Mr. Rasmuson. Senator Cantwell, I'm from Alaska and I'm 
also on the North Pacific Fisheries Management Council, and 
it's specifically mentioned in the report as a commission that 
works well, and we have four members from the State of 
Washington, one from Oregon, and the other members are from 
Alaska.
    The report further states that the tools are in place to 
regulate our offshore fisheries, they just need to be adopted 
and used as they were originally intended to be. What we 
particularly make an emphasis on is to place more 
recommendations in sound science that comes to the 
recommendation to the SSC, and that's where we're trying to 
strengthen the commissions.
    I think that when we finally go through the reorganization 
of the Magnuson-Stevens Act, we'll see a lot of these, 
hopefully, recommendations coming through with the 
reauthorization. But it works well because your state and our 
states have a very vital interest in it and it's a big economic 
driver of both of our states. As a result, we take a very keen 
interest in it, because for us, our State, it's over 20 percent 
of our economic growth product. And you have some very large 
companies residing in the State of Washington, so they pay 
attention to it. We make sure that we have a very healthy 
fishery.
    Dr. Rosenberg. Senator, I think the report is clear that 
the North Pacific Council has been quite successful in 
managing, particularly the target species that are the subject 
of the fishery, in other words, the commercial fisheries. They 
also have been more successful in terms of research funding 
than probably any other area. Senator Stevens has left, but 
that certainly is clear, and has made a huge difference in 
dealing with some of the issues in the North Pacific and 
shouldn't be lost in the discussion.
    I think the challenge is to, first of all, move toward a 
stronger ecosystem-based management approach. In other words, 
link together the different pieces of management, not just in 
fisheries but also in other areas, and that's perhaps a greater 
challenge in the lower 48 than in Alaska, even simply because 
of the more complicated management problems in coastal 
developments and so on in States with higher population, the 
coastal areas.
    So while the North Pacific Council and the Fishery 
Management Council system has some good lessons for us with 
regard to creating regional management and ecosystem-based 
management, we're recommending some significant advances or 
strengthening of not only the fisheries council system, but the 
overall management system for coastal and ocean activities, and 
that's what that whole theme of ecosystem-based management is 
about.
    Senator Cantwell. What is the key issue in which you would 
distinguish the North Council from other councils? Where did 
they fail? Was it on science or was it on coming together with 
a decision-making process on various harvest levels?
    Dr. Rosenberg. I think there are two things that have--
well, perhaps three things--that have distinguished the North 
Pacific Council. One is on a science basis, at least in the 
last, well, since the Magnuson Act, now Magnuson-Stevens Act, 
was passed. The North Pacific Council has adhered very closely 
to the science advice on the target species, in other words, 
the most commercially important species. That has not been the 
case over the history of all of the councils. I served on two 
councils and my colleagues on the councils might not like me to 
say that, but I'm afraid it is the case. It's also the case in 
State commissions that the science advice has not been adhered 
to in many cases. That's not the situation in the North Pacific 
for a number of reasons.
    I think that the North Pacific Council also had a different 
history to deal with than many of the other councils in terms 
of initially a largely foreign fishery that was Americanized as 
part of the Magnuson Act originally in 1976. That's very 
different from New England, my home area, where you had a very 
long fishery tradition and a lot more vested interests, or the 
South Atlantic and some of the fisheries issues for Senator 
Hollings, or in the Gulf and so on where there are much more 
complicated problems with a number of vessels.
    And so--and third I think that the North Pacific Council 
has at least recently used one of the tools that we recommend 
in our report, that is dedicated access privileges, more 
effectively than most any other council in the country for 
rather particular legal reasons. It's probably been more 
advanced there than elsewhere, and I think that that has 
enabled them to do some things with regard to allocation 
between user groups that have not been enabled in other areas.
    Senator Cantwell. Did you want to add something?
    Mr. Rasmuson. One other--I'd like to further elaborate just 
real quickly. The North Pacific Fisheries Council got a jump 
start on everybody else because the INPFC, the International 
Pacific Fisheries Commission, was folded into the North Pacific 
fisheries in 1976. It was chaired by my father for 20 years and 
their main interest was regulating the fisheries in the North 
Pacific vis-a-vis the Japanese. And as a result, they took the 
whole council and moved it into the fish council and adhered to 
those particular points that my colleague is reiterating. So we 
had a framework already involved that was there.
    Senator Cantwell. Well, thank you, gentlemen. You've 
actually made the point that I wanted to make. I'm sure we're 
going to continue to have a debate about the councils, and 
while some people will propose various changes to those 
councils. As far as improvements go, you're bringing up the 
point that I think we in the Northwest know well, and that is, 
whatever species issue it is, whatever environmental issue it 
is, it has to be based on good science.
    So as we move forward with the Magnuson Act reauthorization 
and began looking at that, we should keep in mind that the 
essence of what you want to do on regionalism, what we want to 
do is make sure that science is adhered to. So thank you.
    The Chairman. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. One of your key 
recommendations is the idea of ecosystem management rather than 
uncoordinated policies that don't recognize the connection 
between all of the ecosystems, and this has been a concept that 
has been employed very successfully in the Florida Keys 
national marine sanctuary. It uses ocean zoning to govern those 
marine systems and they reach out to all of the relevant 
government agencies and employs a science-based management to 
balance human activities.
    And so I just wanted to point that out that it can serve as 
a model to be duplicated in other areas across the country, and 
I commend you for bringing that out in your report.
    I want to ask you about the Coastal Zone Management Act, 
which is very important to us in Florida because it is another 
tool since Floridians do not want oil drilling off of our 
coast. It is a tool that is utilized, and I want to confirm 
with you all that this report does not recommend weakening a 
state's ability to object to drilling off of its coast.
    Admiral Watkins. I'm going to ask Professor Marc Hershman 
to talk about that.
    Mr. Hershman. Senator, one of the great innovations of the 
Coastal Zone Management Act was what's called the Federal 
consistency requirements, and this in effect gives the states a 
chance to require that they interact with Federal agencies on 
their policies on the ocean area beyond the 3-mile limit, or in 
the case of Florida, beyond the 9-mile limit.
    This has been applied now for over 30 years and it's been 
very contentious with respect to the offshore oil issue. As 
you're probably aware, many lawsuits, much political debate and 
dialogue, additions to appropriations bills and that sort of 
thing. But in the long run, across all the issues between 
Federal and State agencies, this is considered an 
intergovernmental mechanism that has a very positive record, 
and the report is that this is working the way it is intended, 
that is, because the State governments have the ability to in 
some cases veto and in some cases require full consideration of 
State interests by the Federal agencies, that it has created 
the dialogue that's necessary to resolve some of these issues.
    That's not saying there aren't remaining ones, and I think 
there may still be issues in offshore oil, perhaps dumping of 
dredged materials and issues like that in which there is still 
considerable debate between the states and the Federal 
Government. But there is a mechanism in place that now has a 
30-year history for sorting that out in a constructive 
dialogue. That is not affected in any of our recommendations. 
We identify it, discuss it, and indicate that this is an 
important intergovernmental tool.
    Senator Nelson. So your report does not weaken a state's 
ability through the Coastal Zone Management Act to object to 
activities off its shore?
    Mr. Hershman. No, it does not. It acknowledges its role and 
also has many recommendations to strengthen the Coastal Zone 
Management Program. There's a whole chapter 9 that deals with 
that.
    Senator Nelson. That's very good for you to underline that 
particular point of strengthening the Coastal Zone Management 
Act. Thank you for that clarification.
    Let me quote to you another part from your report on the 
issue of climate change, ``the specter of abrupt change and a 
growing awareness of the impacts climate change could have on 
coastal development, terrestrial and marine populations, and 
human health calls for a significant improvement in climate 
research, monitoring, assessment, and prediction 
capabilities.'' That's from your report.
    The Pew Report says, ``the one thing that can directly 
limit the effects of climate change on the marine environment 
is to reduce our emissions of greenhouse gases that contribute 
to this problem. Only then can we assure coming generations and 
ourselves that the recommendations we offer will yield the 
bountiful seas we envision.'' That's the Pew Report.
    Do you all agree with the Pew Report on that issue?
    Admiral Watkins. We didn't really address the issue on the 
Kyoto protocol, CO<INF>2</INF> reduction and so forth. We felt 
that that is a decision that is going to be outside the purview 
of any of the direction we received in the Oceans Act of 2000. 
We agree that there is an impact. You know the arguments 
between whether it is anthropogenic or natural variability. 
Nobody has really come out in a uniform way and said, other 
than the globe is warming, OK, one or two degrees at the low 
edge of the projections by mid-century. That's enough to change 
a lot of things in the world. It's enough to change the world 
ocean circulation business. It affects climate all over.
    So we recognize that, but for us to take a position on how 
much CO<INF>2</INF> reduction we should have would be beyond 
the scope of our text, much as offshore moratoria. We don't get 
into that. Those are political decisions that have to be made 
at a higher level. Also, there are different scientific 
programs that are going on in the atmosphere that we're not 
directly connected with. Are we worried about climate change? 
You better believe it. Are we saying that we need the 
assessment and the monitoring system and the kinds of tools we 
need out there to know what's going on in real time? You better 
believe it.
    So we are connected in a lot of ways, and maybe we can 
bring to the table a better debate about anthropogenic versus 
natural variability, which seems to always be fighting each 
other. The degree to which the oceans contribute here--the 
oceans contribute so much, they give us our oxygen, they give 
us our life, and we know that. So we don't want to destroy, we 
don't want to stop the Gulfstream. That's not a good idea. And 
if 40 percent of the ice that was lost in the freshening of the 
ocean of the Arctic and we don't study the Arctic, we're not 
doing enough research in the Arctic now, and yet it's key to 
climate change understanding.
    So we have a lot of things we have to do and they're in our 
report.
    Senator Nelson. And I thank you, and of course, you 
understand that I have a vested interest in this coming from 
the State of Florida, which has more coastline than any other 
state, of which we want our oceans healthy.
    Let me ask you one more question, Mr. Chairman, if I may. 
Up in the panhandle of Florida just recently, over 100 dolphins 
have washed up on shore and basically we don't know what has 
caused their death. When you go in and examine them, there 
doesn't seem to be any particular reason. Now, the question is, 
do we have enough money to go in there and find out? What does 
your report recommend to combat marine mammal mortality?
    Dr. Rosenberg. Thank you, Senator. I think we don't have a 
specific recommendation that would say for stranding mortality, 
such as the dolphins in the panhandle, this should be the 
investment, but it's very clear that we have within the broader 
research program a need to address issues such as marine mammal 
mortality. We recommended specifically, for example, an 
increased emphasis on sound in the ocean, which is potentially 
one of the major drivers for things such as marine mammal 
strandings, dolphin or otherwise.
    We also have recommendations for a major increase in 
funding for oceans and human health. Well, human health is an 
important attribute, but many of the factors that affect human 
health also affect mammal health in general in the oceans. 
Clearly, the marine mammal conservation areas need greater 
attention. We do have a chapter on marine mammals and 
endangered species, which incidentally includes sea turtles as 
another incredibly important group of species at risk, and 
there is a research imperative here as well as a management 
imperative. I hope that's adequately addressed and it's 
understood in the marine mammal chapter, but it's understood 
when we're talking about major increases in research funding 
that cuts across a broad range of issues, including those 
things such as ocean health-related issues, marine mammal 
mortalities and sound in the ocean.
    Dr. Sandifer. Senator, to follow up a little bit, in 
addition we called in our marine mammals chapter for 
specifically more research on basic biology and understanding 
of marine mammals so we would have a clearer understanding of 
what may be driving these kinds of mortality events, 
understanding the population biology so we can do more to 
protect them.
    We also have in the oceans and human health area and a 
couple of other places we talk about harmful algal blooms. In 
the case that you just mentioned in the panhandle, it appears 
very likely that a bloom of a toxic alga that was undetected 
ended up at least resulting in contributing significantly to 
that mortality event. That means that we need to do a better 
job of building the detection and prediction capabilities for 
what's happening with the harmful algal blooms and the toxins 
and where they might come ashore and things that we have not 
yet had the attention paid to that needs to.
    And as Dr. Rosenberg said, we are recommending increase in 
funding across the board for these kind of resource-based 
research activities along with the basic sciences. There is no 
separation in our minds. Part of the increase would go into 
basic understanding, like exploration that Dr. Ballard talked 
about, and part would go into dealing with just this kind of 
problem, the answer to which appears to be growing. We are 
paying significant attention to those things.
    The Chairman. I want to thank the Commission and--Senator 
Hollings?
    Senator Hollings. One more time, Admiral Watkins and each 
of the commissioners, you all have done an outstanding job. But 
to go right to Admiral Watkins, when I talked about this 
solution of a National Ocean Council, you ran a touchdown on 
everything that we agree upon. You and I agree on the need, you 
and I agree on the lack of one agency talking to the other, we 
agree on the need for coordination, we agree on the importance 
of the oceans, we agree on the importance of monetary and the 
financial issue.
    I wish you were all up here at this desk. You folks are 
professional, you're experts, you know what you're talking 
about, you've given a lot of time to it, and we are in 
agreement with it. But Admiral Watkins, you were passionate 
about your answer to my comments and we agree on all that, but 
you are almost sissy in the recommendation. Listen to this 
recommendation, no kidding.
    Admiral Watkins. I've never been called a sissy before, 
Senator Hollings.
    [Laughter.]
    Admiral Watkins. You and I have been friends for many 
years. I would never call you a sissy.
    Senator Hollings. This concerns the recommendation about 
your council--I'm glad you have the summer. Count me in as one 
of the Governors. A council composed of Cabinet Secretaries of 
departments and directors of independent agencies. You'll never 
get a quorum for that. I can tell you the Secretary of Defense 
will never attend. The Secretary of State, he'll never come, 
although we have all kinds of law of the sea issues and 
everything, but he'll say, ``I've got work to do, I can't go to 
that.'' In the office of the assistant to the President, we 
already have telecommunications assistants, we have economic 
assistants, we have scientific assistants. In fact, the 
scientific assistant to the President some years back was so 
inadequate and ineffective that we organized a national 
technology assessment board. I was on the original membership 
of that board that was to assist the President.
    If you think this helps you with the OMB--the President's 
worried about spending, so the assistant to the President on 
oceans comes in and says, ``Mr. President, but the oceans need 
so and so, the OMB fellow said no, we can't afford that,'' he's 
going to go along with his OMB. You have got to give this thing 
another look--make me not be a sissy myself. I hadn't 
recommended the department, because I'm a realist too, and 
that's what you all are trying to do is be realistic and I 
acknowledge that.
    But listening to you, you're going to have to get a 
department. You can get President McCain to appoint a new 
Secretary----
    [Laughter.]
    Senator Hollings. As a Secretary, I can always get the 
President's ear, not as an assistant to the President. He'll be 
down in the cellar of the Old Executive Office Building. You 
can't find those assistants, no kidding. Let's get into the 
real world. But if I'm a Secretary, I say, now, ``Mr. President 
McCain, you've gotten me to serve and you've given me this job, 
but we are in real trouble, we have these needs.'' I can at 
least get the President to call up OMB and say ``change that 
thing around now and let's get at least half of what they 
want.''
    Incidentally, you have all been in government one way or 
the other and you're not going to shoot the moon, but give us a 
dollar figure on what you think is a realistic need for ocean 
spending, something reasonable to get the job done. We're not 
going to get it, don't worry about it. We're the authorizing 
committees and we never get what we want out of appropriations, 
but we at least find out what the needs are from you folks who 
spent 2 years on it. And please do that and think about that 
department idea. Get us organized. That's what you're talking 
about, and you're not going to get it organized with an ocean 
council and an assistant over there in the bottom of the OEOB 
and there will be no quorums, I can tell you that.
    The Chairman. Thank you, Mr. Secretary.
    [Laughter.]
    Admiral Watkins. I would disagree with you, because I don't 
expect the Secretary of Defense to attend any of the meetings, 
but I do expect somebody at the third or fourth echelon level 
who has the ear of the Secretary and is authorized to go over 
there. I had the same thing with global climate change when I 
was Secretary of Energy. I didn't go to those meetings and yet 
it was set up for all the Cabinet Secretaries involved in 
climate change to be there. But I had a person down at the 
third echelon that knew what he was talking about in science 
and technology, he'd come up and brief me as to what he was 
going to take to that council meeting, and I said, go for it, 
you got my blessing on it.
    But you set up the thing so that at least you give some 
respect to say Secretary Rumsfeld that he might be interested 
in the oceans. But that trickles down to maybe it's Admiral 
Lohr, who is the JAG official over there for ocean policy, 
maybe he comes to the meeting. That's all right, as long as the 
Secretary knows it and knows what he's going to say over there.
    So I don't necessarily write off the Ocean Commission as 
being an outfit that just can't maneuver. I believe it can, as 
long as the President says so.
    The Chairman. Admiral, I would also assert that the reason 
why what you're doing can be enormously effective is because of 
the warnings that you are sounding about the conditions of our 
oceans. It's gotten a lot of attention, and I hope that when 
your final report comes out it will get much more attention. 
Every newspaper in America that I know of has covered your 
preliminary conclusions, and I believe your conclusions are so 
alarming to many that your recommendations will be and should 
be taken very seriously. I think that's part of this equation.
    And I know from having been involved in this issue, not 
nearly to the degree that Senator Hollings has or you have, 
we're talking about some very, very serious consequences unless 
action is taken immediately. If we can make the American people 
and the Congress and the Administration aware of the dire 
situation we face, which is what I get out of your report, then 
hopefully that can be transferred into both reorganizations 
such as Senator Hollings is recommending, but also sufficient 
funding.
    And it is a disgrace if the inequities between space and 
oceans are $16 billion to some million or whatever it is, and 
hopefully we can get attention on this issue. And already I 
think your commission has performed a signal service and 
contribution by what you've said already.
    Senator Cantwell, did you want to----
    Senator Cantwell. If I could make a final request, because 
I know this is a draft report and you have an opportunity to 
consider other issues in your final version. I would just, 
adding on to the previous comments about atmospheric issues, 
that we have a specific issue we're dealing with in the State 
of Washington with the Southern Resident orca population. Most 
people know orcas as Free Willy, they are an icon to us in the 
Northwest, and it looked like we are losing that resident 
population. It has already been declared an endangered species 
by the state and it is currently being considered by NOAA for 
Federal listing as an endangered species.
    One of the number one issues related to the orca's decline 
is PCBs. It is an atmospheric issue and it will take 
international cooperation to address. Believe it or not, it's 
air from Asia, China in particular, coming over and polluting 
our ocean. So in your final recommendations, I would appreciate 
it if you would consider beefing those up--I mean, you 
approached the atmospheric issue from a regional perspective, 
but we need to focus on an international solution as well. If 
you would consider beefing up that section of your report about 
atmospheric deposition, I think it would be greatly received by 
the Northwest.
    The Chairman. Are there any final comments that you, 
Admiral, or any other members of the Commission would like to 
make?
    Admiral Watkins. We'll take Senator Cantwell's comment into 
consideration. I thought we had well covered the atmospheric 
deposition of contaminants that affect the water systems of our 
country. If we haven't, we'll go back and take a look and see 
what we have said there, and perhaps there is some way to 
strengthen it. But I don't think there's any question on the 
Commission's part that that's a key part of non-point source 
pollution, point source pollution and so forth, I mean, the 
mercury in the water and so forth. So we understand all that 
and I thought we had covered it pretty well.
    But anyway, we want to thank you, Mr. Chairman, for 
allowing this hearing this morning before this important 
committee and you can be assured that this is a dedicated 
commission. They were set up by the Congress primarily and 
you're the ones that gave us 12 out of 16 of these 
commissioners. It's the right way to do business up here, pick 
out people who know what they're talking about, give two of 
those names to the President, ask him to pick one of them and 
we don't care which one, and that's what we are. And I think 
we've done a good job and I think our commissioners deserve a 
lot of credit for having what I would say is a very ecumenical 
approach to this, very unbiased. Sure they defended their 
region of the country, and properly so, but we were able to 
find balance and consensus throughout this. It was very 
difficult, and I think that what we've got here is an excellent 
start and I hope that the Congress would move now even on the 
preliminary report. The final report to the President may not 
be a lot different from this; I don't see how it could be. We 
have to listen to the Governors' input and we'll see--if 
there's a common thread across those Governors' input, we'll 
put it in. If not, I'll just tell the President in the 
forwarding letter, Mr. President, you've got 18 Governors that 
have serious reservations about voluntary regional councils, 
and we'll have to say you'll have to do the best you can, but 
we still think it's the right idea.
    So those are the kind of things that we're not jousting 
with within the commission as we move to the final phase. This 
will be on the President's desk on July 23. That will drive my 
executive director here today nuts, but we're going to do it. 
We have to get it on the President's desk. He has 90 days to 
come back to the Congress by the Oceans Act of 2000 and that 
takes it to October 23, which is an interesting time of the 
year here. And we want to get this in this Administration, get 
this action started so the next session of Congress, if we 
can't get anything done this time, is going to launch off on a 
series of things that can be very helpful to the Nation.
    The Chairman. I know you'll bring the two women 
commissioners with you at our next appearance as well.
    Admiral Watkins. We will.
    The Chairman. Thank you, Admiral, and Secretary Hollings. 
We'll be looking forward to your report. Thank you. This 
hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                            A P P E N D I X

 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                        Admiral James D. Watkins

    Question 1a. One of the most important recommendations made by this 
Commission--and there are very many--is on page 73, where it recommends 
that Congress should: ``. . . solidify NOAA's Role as the Nation's lead 
civilian ocean agency through the enactment of an organic act.''
    The Commission also recommends that NOAA's structure be 
``consistent with the principles of ecosystem-based management'' and 
cover 3 areas--

  <bullet> Assessment, prediction, and operations for ocean, coastal, 
        and atmospheric environments.

  <bullet> Management of ocean and coastal areas and living and 
        nonliving marine resources.

  <bullet> Research and education on all aspects of marine resources.

    I couldn't agree with you more! But, on page 48, you recommend that 
a ``National Ocean Council'' should:

        ``Guide the effective use of science in ocean policy''

        ``Develop principles and goals for governance of oceans and 
        coasts''

        ``Make recommendations . . . on carrying out national ocean 
        policy''

        ``Assess the state of the Nation's oceans and coasts''

    Aren't these squarely in NOAA's area of expertise? What is NOAA's 
role?
    Answer. While the Commission views NOAA as the Nation's lead 
Federal agency for oceans and coasts, it doesn't view NOAA as the only 
federal agency with a leadership role in the marine environment. Also, 
the Commission has highlighted the need to move towards an ecosystem-
based management approach, one that integrates land, sea and air, which 
will require greater emphasis on interagency cooperation. Where 
appropriate, NOAA should be designated at the lead agency for core 
ocean and coastal related activities. However, there will likely be 
cases where another Federal agency may have an equal or greater role. 
NOAA's role is to facilitate the development and implementation of a 
national ocean policy, relying on both internal as well as external 
resources and expertise.

    Question 1b. Aren't we subjecting every decision of our stronger 
NOAA to a ``group think,'' lowest common denominator approach?
    Answer. The successful development and implementation of a national 
ocean policy will require the collective participation of the full 
suite of Federal agencies that have responsibilities or mandates that 
impact the marine environment and resources. The process of reconciling 
competing mandates priorities among the various agencies is one of the 
principle roles of the National Ocean Council (NOC) and, in particular, 
the Assistant to the President. Such a process will require compromises 
by each of the players in order to strike the necessary balance of 
social, economic, and ecologic objectives. The Assistant to the 
President--who would chair the NOC--and other key cabinet officials, 
will be responsible for ensuring that national policies endorsed by the 
President represent far more than the ``lowest common denominator.''

    Question 1c. Doesn't this also raise the concern that there will be 
more politics in our scientific decisions, not less?
    Answer. The Commission's recommendations include the establishment 
of a Committee on Ocean Science, Education, Technology and Operations 
(COSETO). COSETO, an interagency entity chaired by the Director of the 
Office of Science and Technology Policy, will be the scientific 
advisory body to the NOC. COSETO's recommendations and guidance to the 
NOC will represent the best collective judgment of the Federal 
Government's scientists, with the advice of their nongovernmental 
colleagues. Its advice will be the foundation upon which policy 
decisions are made. Given our recognition of the complexity and 
interrelated nature of interactions in the marine ecosystem, it is 
imperative that we establish management entities that are capable of 
working across scientific disciplines and coordinating multiple agency 
efforts to ensure that science plays a stronger role in the development 
of policy.

    Question 2a. I am glad that the Commission has suggested 
strengthening NOAA, but the Report at this point is a little slim on 
how we might help with that. Did the Commissioners have further 
recommendations that might help us strengthen the Agency's national 
stature and leadership? Will the final version have more information? 
For example, could the Agency work better if there were only 3 line 
offices, organized along these three mission areas?
    Answer. The Commission believes that NOAA's entire structure, 
leadership, and staff should be oriented to support the effective 
exercise of the three functions identified in chapter 7 of the report. 
Beginning with a strengthened science program and a more service-
oriented approach, NOAA should be organized not only to improve its 
efficiency, but also to promote inclusiveness and a commitment to 
meaningful partnerships with other agencies, states, the private 
sector, and the academic community.

    Question 2b. Would regionally-based science centers, built around 
the existing laboratory system, help to strengthen the agency's 
national profile and visibility?
    Answer. Ideally, efforts to meet regional information needs should 
be carried out under the guidance of regional ocean councils. However, 
because the process to develop these councils is voluntary and may take 
time to implement, in the interim these efforts should be undertaken by 
some other entity, as determined by each region. The organization 
tasked with meeting these needs should draw on existing governmental 
and nongovernmental institutional capacity in the region and be guided 
primarily by the needs of the users in the region. Each region should 
also collaborate with others, as appropriate, to address issues that 
transcend regional boundaries. In our Final Report, the Commission 
states that pending the creation of a regional ocean council, the 
governors in each region should select a suitable entity to operate a 
regional ocean information program that carries out research, data 
collection, information product development, and outreach based on the 
needs and priorities of ocean and coastal decision makers.

    Question 2c. What recommendations are there to strengthen NOAA's 
infrastructure--labs, ships, buoys, etc.?
    Answer. The Commission report generally does not identify or 
recommend agency specific infrastructure needs. Instead it calls for 
the development of a national ocean and coastal infrastructure and 
technology strategy--developed through the National Ocean Council's 
Committee on Ocean Science, Education, Technology, and Operations--to 
guide individual agency plans for facility (land-based and remote 
platforms) construction, upgrade or consolidation.

    Question 2d. Which other Federal agency programs could be brought 
into NOAA that would really help raise NOAA's stature in the scientific 
and resource communities?
    Answer. The Commission recommends that the Assistant to the 
President, with advice from the National Ocean Council (NOC) and the 
President's Council of Advisors on Ocean Policy, review Federal ocean, 
coastal, and atmospheric programs, and recommend opportunities for 
consolidation of similar functions as part of the Phase II 
strengthening of the Federal agency structure. While deferring this 
process to the NOC, the Commission believes that programs appropriate 
for consolidation can be found in several departments and agencies, 
including DOI, EPA, USACE's Directorate of Civil Works, and NASA. These 
agencies carry out important functions related to managing and 
protecting marine areas and resources, conducting science, education, 
and outreach, and carrying out assessment and prediction in the ocean, 
coastal, and atmospheric environments.

    Question 2e. Can you provide the Committee with a list of candidate 
programs that would help guide us in assessing further consolidation?
    Answer. Additional discussion of possible candidates for program 
consolidation can be found throughout this report, including in Chapter 
9 (area-based ocean and coastal resource management), Chapter 14 
(nonpoint source pollution), Chapter 16 (vessel pollution), Chapter 17 
(invasive species), Chapter 20 (marine mammals), Chapter 22 
(aquaculture), and Chapter 26 (satellite Earth observing operations).

    Question 3a. On page 74 of the report, the Commission recommends 
that NOAA ``strengthen its performance'' in 18 different areas, 
including some very resource-intensive areas that we have struggled 
with. These include:

        Ocean Exploration

        Mapping and Charting

        Domestic and international fishery management

        Marine mammal and other marine species protection

        Coastal and watershed management

        Habitat conservation

        Invasive species control

        Natural hazards planning and response

        Data and information Management and communication

    Is the funding NOAA received in FY2004 sufficient to meet any of 
these needs?
    Answer. Given the current state of the ocean and the general 
agreement that our understanding of ocean and coastal processes is 
limited and the management of marine resources is lacking, the current 
level of funding for NOAA and other Federal agencies ocean and coastal 
science, management and education activities is inadequate.

    Question 3b. If not, did you include the cost of NOAA's meeting all 
these requirements in your $3.2 billion estimate for annual increased 
costs on page 374?
    Answer. The Commission's Final Report estimates that the Nation 
needs to invest an additional $3.9 billion per year in our oceans, and 
the annual cost to improve NOAA programs is included in that total. It 
is important to note that while the Commission recommends that a 
strengthened NOAA expand its role as the Nation's lead Federal agency 
for oceans, funding is needed for a wide array of programs throughout 
the Federal Government.

    Question 3c. Could the Commission provide us with your estimates of 
what it might cost to strengthen NOAA's performance in each of these 18 
areas within the next 5-10 years (including costs of some of the 
programs recommended for moving to NOAA?
    Answer. Chapter 30 and Appendix G in the Final Report provide first 
year and outyear budget estimates for each of the Commission 
recommendations. However, the funding levels presented in the Final 
Report are by no means definitive or authoritative, and the outyear 
estimates are not based on 10-year projections, but are intended to set 
the stage for ongoing discussion.

    Question 3d. Given that NOAA will be the lead civilian ocean 
agency, is it accurate to assume that most of the funding increases 
would be for NOAA? If not, why not, and which agency would be involved?
    Answer. We have not provided a breakdown of funding by agency, 
although each recommendation is assigned to one or more primary actors 
in Chapter 31 and its cost estimated in Appendix G. In some areas, such 
as pollution control, marine transportation, or fisheries enforcement, 
agencies outside NOAA have primary roles. One of the roles of the 
National Ocean Council will be to determine the appropriate roles of 
individual agencies in respects to various ocean and coastal programs 
and to make recommendations for an integrated budget submission to the 
Office of Management and Budget. So, while we anticipate significant 
new funding for NOAA, the distribution of funding will rely heavily on 
the respective roles of the various agencies.

    Question 4. From the President's most recent biennial budget report 
to Congress (called for in the Oceans Act of 2000): for FY 2005, the 
following 5 Federal agencies have the largest budgets for ``ocean and 
coastal activities'' (--which of course wouldn't include atmospheric 
programs):




          Department of Homeland        $2.68 Billion
           Security (CG)
          Department of Commerce        1.644 Billion
           (NOAA)
          Department of Defense         1.385 Billion
          EPA                             827 million
          Agriculture Department          661 million


    In Oceans Act, we also directed the Commission to conduct ``a 
review of existing and planned ocean and coastal activities of Federal 
entities''----

  <bullet> Does the President's Report appear to accurately depict the 
        relative roles of each agency in ocean and coastal activities?

  <bullet> Has the Commission prepared its own list of the various 
        ocean and coastal programs conducted by other Federal agencies? 
        If not, will it be in the Final Report?

  <bullet> If neither the Commission nor the President has compiled 
        accurate information on the amount we are spending on ocean and 
        coastal activities--and where we are spending it--how would you 
        recommend we get this information?
    Answer. The Final Report does not contain one comprehensive list of 
Federal entity ocean and coastal activities. Rather, information about 
these activities is included throughout the issue-specific chapters of 
the report. The Commission also recommends that the newly created 
Assistant to the President, as head of the National Ocean Council 
(NOC), consult with the Office of Management and Budget and NOC members 
to prepare in-depth biennial reports that identify ocean- and coastal-
related programs and recommend appropriate funding levels for these 
activities (Recommendations 4-4 and 30-2).

    Question 5a. Also, I am puzzled that the Commission's 
recommendations do not appear to be closely linked to the size of the 
programs--or the magnitude of some of the problems. For example, there 
are 40 recommendations for NOAA, but only 10 for DOD (limited to 
education), and 2 for USDA. Given that DOD has been in the hot seat 
with respect to marine mammal deaths, and polluted runoff from farms is 
identified by the commission as a huge problem, this seems surprising. 
Can you explain how you conducted your review of the programs of 
agencies other than NOAA?
    Answer. The Commission collected information from the Federal 
agencies through a variety of channels, including senior administration 
representative participation in our public meetings, formal and 
informal meetings and conversations with agency personnel, information 
provided in the Federal Ocean and Coastal Activities Report issued by 
OMB in March 2003, as well as information taken from websites and 
conversations with various state and nongovernmental constituents of 
programs and agencies.
    The number of Commission recommendations reflect the extent of 
ocean and coastal activities conducted by Federal agencies, and not the 
size of the agencies. The relatively low number of recommendations 
directed at USDA and DOD compared to other agencies does not discount 
the importance of their roles in improving the health of the Nation's 
ocean and coastal resources, and closer review of the Final Report will 
demonstrate a broader recognition of these agencies' involvement than 
indicated in the Preliminary Report.

    Question 5b. Where are the results of these reviews reflected in 
your Report? Will it be in the final report?
    Answer. The results of these reviews are reflected in the 
explanatory text of the report and our recommendations; there is not a 
separate compilation with descriptions of each program provided in the 
report.

    Question 5c. Is there a need for continuing independent review of 
Federal ocean and coastal programs and funding? Given that OMB has not 
performed as well as we would like on the Ocean Budget report, would it 
be appropriate to establish an independent body within the Federal 
Government specifically to gather this sort of information?
    Answer. There remains a need to prepare comprehensive reports of 
these activities, including appropriate funding levels, on an ongoing 
basis, as required in the Oceans Act of 2000. The Commission recommends 
that the newly created Assistant to the President, as head of the 
National Ocean Council (NOC), consult with the Office of Management and 
Budget and NOC members to prepare these reports (Recommendations 4-4 
and 30-2).

    Question 6a. The Commission makes a number of important 
recommendations on the management of marine mammals and endangered 
marine species, including placing the protection of all marine mammals 
under NOAA. However, some parts of this chapter appear incomplete or 
weak. The Commission recommended that Congress amend the Marine Mammal 
Protection Act (MMPA) to require the Marine Mammal Commission (MMC) to 
coordinate with all relevant Federal agencies, while remaining 
independent. What motivated this recommendation?
    Answer. The MMC is charged with reviewing and making 
recommendations on domestic and international actions and policies of 
all Federal agencies with respect to marine mammal protection and 
conservation. It also manages and funds a research program to support 
management activities. Although the Commission's independence has been 
essential to its functioning, establishment of the National Ocean 
Council will provide it with a venue to coordinate with other Federal 
agencies involved in marine mammal research and management. Thus, the 
motivation for this recommendation is to ensure that the MMC is brought 
fully into the Federal interagency coordinating mechanism established 
under the National Ocean Council.

    Question 6b. I did not find any discussion of the need for more 
routine and robust scientific information on marine mammal and 
endangered species stocks, which has been documented in other reports 
to Congress (e.g., 2001 NAPA study, MMC reports). Why not?
    Answer. Chapter 20 of the Final Report has been expanded and now 
discusses the importance of increased research and education on marine 
mammals as well as protected and endangered species. Recommendation 20-
8 states that NOAA and DOI should develop expanded research programs 
focusing on research, monitoring and assessment, as well as advanced 
technology and engineering programs to eliminate or mitigate human 
impacts.

    Question 6c. I was pleased to see that the Commission recommended 
that Congress amend the MMPA to place all marine mammals under NOAA's 
authority. What problems did the Commission identify with the split in 
jurisdiction? (U.S. Fish and Wildlife Service handles some marine 
mammals like manatees, and NOAA handles others, like whales)?
    Answer. As noted, the management of marine mammals is currently 
divided between NOAA and USFWS. This split was intended to be temporary 
and makes little sense. The original Congressional committee reports 
that accompanied the MMPA in 1972 show that Congress did not intend 
marine mammal jurisdiction to be permanently divided between NOAA and 
USFWS. Rather, House and Senate committees anticipated the creation of 
a new Department of Natural Resources that would combine NOAA and 
USFWS. The report stated that if the proposed new department did not 
become a reality, they would reexamine the question of jurisdiction and 
consider placing the entire marine mammal program within a single 
department. Nevertheless, the jurisdictional split remains today and 
has resulted in the establishment of separate marine mammal programs 
and increased efforts to facilitate coordination.

    Question 6d. I was a bit surprised that the Commission did not 
offer any direction on some of the major risks to marine mammals, such 
as vessel strikes (This is the biggest source of mortality for of 
Northern Atlantic Right Whales, and only about 300 individuals remain 
in the stock). Why?
    Answer. Many human activities can harm individual marine animals, 
including, but not limited to; coastal development, offshore oil and 
gas exploration, vessel traffic, military activities, and marine 
debris. Understanding the danger of these activities is critical to 
focus attention, research, technology development and enforcement 
efforts where they are most needed. Increased research into impacts on 
marine mammal (including Northern Atlantic Right whales), sea turtles, 
and other protected species populations will allow for more 
comprehensive, ecosystem-based management--recall that the ecosystem-
based management focuses significantly on managing the impacts of human 
behavior and activities. Furthermore, for activities where interaction 
with protected populations is likely and unavoidable, better scientific 
data will lead to more effective permitting procedures and the 
development of technological solutions to minimize impacts.

    Question 6e. Only one specific recommendation for increased funding 
is included--for additional research on the impacts of noise on marine 
mammals. Is that all that NOAA is going to need to solve all these 
problems?
    Answer. The Commission agrees there is need for a better 
understanding of the effect of sound on marine mammals. Currently, the 
U.S. Navy and, to a lesser extent, the Minerals Management Service, are 
the only Federal agencies with significant marine mammal acoustic 
research programs, including studies to examine the impact of noise on 
marine mammals. Expanded research efforts and data dissemination are 
needed to understand marine mammal interactions with sound and reduce 
or prevent the negative impacts of human-generated noise on these 
animals. In recommendation 20-9 the Commission recommends that a 
consortium of Federal agencies, including The National Science 
Foundation, National Oceanic and Atmospheric Administration, U.S. 
Geological Survey, and Minerals Management Service expand research on 
ocean acoustics and the potential impacts of noise on marine mammals. 
These additional sources of support are important to decrease the 
reliance on U.S. Navy research in this area. The research programs 
should be complementary and well coordinated, examining a range of 
issues relating to noise generated by scientific, commercial, and 
operational activities. This research is necessary to assist 
policymakers in making judgments and determinations on the 
appropriateness of human noise generating activities in the proximity 
of marine mammals.

    Question 6f. I was surprised that the Report did not really discuss 
endangered sea turtles and the need to bring other countries in line 
with conservation requirements--even though lawsuits regarding turtles 
have shut down U.S. fishing fleets while foreign fleets are decimating 
them. Can the Commission comment on that problem?
    Answer. In its Final Report, the Commission expanded Chapter 20 to 
address issues associated with the conservation of sea turtles and the 
need for international cooperation to reduce the impacts of human 
activities on marine species at risk in foreign and international 
waters (see recommendation 20-10).

    Question 7a. The Commission recommends that funding oceans and 
human health programs should be doubled to $28 million annually. 
However, the draft report notes that the annual economic losses from 
harmful algal blooms alone total close to $50 million with a likely 
multiplier effect bringing losses to $100 million. Given statistics 
such as these, do you feel that $28 million annually is sufficient 
funding for oceans and human health programs?
    Answer. We recommend a doubling of the existing budget of $14M for 
research on Oceans and Human Health. As the program expands, additional 
future investments may be warranted. In the final report we also added 
a recommendation on seafood safety (Rec. 23-5) with an estimated cost 
of $10M per year. It should be noted that the funding levels presented 
in the Final Report are by no means definitive or authoritative, but 
the Commission believes they will be helpful in setting the stage for 
ongoing discussions.

    Question 7b. Can I assume correctly that this $28 million also 
includes funding for research regarding pharmaceuticals, nutrients, and 
other industrial products derived from marine organisms?
    Answer. $28M is an estimate for the federal research investment. 
Private investments by industry or other research institutions are not 
incorporated into our funding recommendation. Again, as this program 
matures it is likely that the investment of additional resources will 
be necessary and beneficial.

    Question 7c. Do you think this level of funding is sufficient 
considering Japan has spent close to $1 billion dollars annually for 
the last decade?
    Answer. Again, the funding levels presented in the Final Report are 
by no means definitive or authoritative, but the Commission believes 
they will be helpful in setting the stage for ongoing discussions.

    Question 7d. The draft report notes that only 2 percent of the 4 
billion lbs. of imported seafood is inspected upon its arrival to the 
U.S.--the GAO recently said it was not even that much! Will the $28 
million cover any costs needed to inspect a greater portion of the 
imported seafood, especially when considering that many of the 
exporting countries have lower food safety standards than the U.S. and 
many use hormones and antibiotics that are illegal in the U.S.? Did the 
Commission look at this issue at all?
    Answer. The Commission considered the issue of seafood safety and 
added an expanded section on this topic in the final report in Chapter 
23. We estimate an annual cost of approximately $10M for improved 
inspections, which is separate from the research costs discussed above. 
We also note that the spending recommended to improve water quality and 
monitoring will contribute to improved seafood safety and other human 
health concerns.

    Question 8a. The Report recommends that Congress establish and 
appropriate significant funding ($110 million) for an expanded national 
ocean exploration program. The Commission also discusses the need for 
dedicated ocean exploration platforms, such as submersibles and ships. 
Would the $110 million estimate include costs for NOAA vessels?
    Answer. No, that figure is for grants and operating expenses . We 
provide a separate estimate of $160M to construct needed infrastructure 
for the Exploration program (Recommendation 27-4).

    Question 8b. What are the ``hot spots'' for discovering new drugs 
and cures?
    Answer. The potential of the ocean in terms of bioprospecting is 
vast, and there is no easy answer as to where to search for promising 
new compounds. Much research has been conducted on tropical and 
temperate, shallow-water species, but there is still much to be done. 
Invertebrates from the deep present a relatively new source of 
compounds that should be explored. In addition, all bacteria hold the 
potential to biosynthesize molecules that can be utilized for human 
medicines, whether they come from the water column, bottom substrate, 
symbiotic organisms, or sediments (even deep sediment cores). Virtually 
everywhere we can look, we should.

    Question 8c. Roughly 95 percent of the ocean remains unexplored. In 
your opinion Dr. Ballard, where should a national ocean exploration 
program direct its efforts in the short term? Which ocean environments 
and regions should be a priority and why?
    Answer. The Commission did not discuss priorities for the national 
ocean exploration program since these priorities would most likely 
change depending on the time it takes to establish the program. 
However, the NOC or COSETO would be nicely positioned to discuss 
priorities when the time comes.
    In addition, the commission recommends that the COSETO should 
determine national oceanographic research priorities, and ideally the 
Nation's exploration and research priorities should be complementary. 
So, it would be logical for the same interagency group to discuss and 
decide upon both.

    Question 8d. Back in 2000, the President's Panel on Ocean 
Exploration called for $75 million for ocean exploration. The 
Commission recommends $110 million, plus infrastructure such as ocean 
exploration platforms. How did the Commission arrive at this figure?
    Answer. As with all our cost estimates, we used a combination of 
sources including the report from the President's Panel, a more recent 
study by the National Research Council, and communication with 
knowledgeable experts.

    Question 9a. The Report recommends a coordinated mapping and 
charting effort, led by NOAA, to address the backlog of hydrographic 
surveys, surveys of the U.S. Continental Shelf, and the lack of 
integrated maps. In addition, the Report suggests the National Ocean 
Council should make recommendations on consolidation of certain 
federal, nonmilitary mapping and charting activities within NOAA. What 
are some of the agency mapping programs or activities that may be 
appropriate for consolidating within NOAA?
    Answer. In its Final Report, the Commission acknowledges that there 
are a multitude of Federal agencies involved in mapping and charting. 
However, instead of recommending the consolidation of various programs 
or activities at this time, the Commission emphasize the importance of 
coordinating these activities through the Federal Geographic Data 
Committee (Recommendation 25-7). More intensive Federal coordination 
and evaluation of these programs may result in recommendation for 
consolidation as part of Phase II, as discussed in Chapter 7, 
Strengthening the Federal Agency Structure.

    Question 9b. Additional resources may be needed to address survey 
needs, infrastructure needs, and integrate maps. Of the $650 million 
increase proposed for ocean research, does this include increases for 
mapping and charting at NOAA?
    Answer. In the Final Report, the cost of mapping and charting the 
Nation's coasts and EEZ is estimated at $50M in year one and $200 
million per year in ongoing costs (Recommendation 25-7). This amount 
includes infrastructure-related costs, as well as costs associated with 
the development of integrated maps. The cost for these activities and 
programs is separate from the $650M for research called for in 
Recommendation 25-1.

    Question 10. Recommendation 28-5 says the Navy should periodically 
declassify appropriate naval oceanographic data and make it available 
for civilian use. What kind of problems and delays did you identify 
regarding declassification of naval data? What were the specific 
roadblocks and your recommendations to fix them?
    Answer. Based on concerns voiced by a variety of stakeholders, 
governmental and nongovernmental, about the lack of access to naval 
data, the Commission is recommending that the Navy engage in a more 
regular process to review and declassify military data.

    Question 11a. The Commission calls for the establishment of a 
national Integrated Ocean Observing System (IOOS) with NOAA as the lead 
agency for implementing and operating the IOOS. Ocean.US, with National 
Ocean Council oversight, would be responsible for planning of the 
system. If NOAA is in charge, what is the National Ocean Council's 
role? Why?
    Answer. The role of the NOC is one of general oversight for 
Ocean.US and the entire IOOS multi-agency system. The NOC members 
should be briefed on and approve IOOS plans, funding and any 
expenditures of money, since the NOC represents the interest of all of 
the Federal agencies and will be provided with advice from the 
President's Council of Advisors on Ocean Policy. However, since the NOC 
is not an operational group, the Ocean.US office will be in charge of 
the daily tasks needed to implement and coordinate the IOOS.

    Question 11b. The Report also recommends funding of $650 million 
for implementation of [the IOOS] system. However, implementation of 
IOOS will require a tremendous investment in data archiving, 
assimilation, modeling and distribution systems. NOAA's data holdings 
alone are projected to grow by a factor of 100 by 2017, and only 4 
percent of NOAA's digital data archive is available online. Yet the 
Report only proposes collaborative efforts between agencies as a way of 
addressing these gaps, and the creation of a task force to develop a 
plan for modernizing data management systems. Does the $650 million 
estimate [for IOOS] include funds to address data management needs in 
the future?
    Answer. Yes, data management costs are included in the estimates in 
the final report. The first year start-up costs alone include $18 
million for developing data communications and data management systems 
(See Table 26.4 of the Final Report).

    Question 11c. Shouldn't the Commission propose funding to address 
this critical need now so as to ensure the end-to-end needs of IOOS are 
met?
    Answer. Yes, these are issues that need to be addressed as the 
system develops. The funds for them are an essential part of the start-
up and ongoing costs. In addition, Ocean.US has already drafted their 
final Data Management and Communications (DMAC) Plan and these systems, 
and their associated costs will need to be continually updated as the 
complete IOOS progresses.

    Question 12a. The Commission has made the development of national 
ocean education a priority in the draft report. The Report stresses the 
importance of informal education and public outreach, and recommends 
the establishment of a national ocean education coordinating office 
(Ocean.ED) under a National Ocean Council (NOC) subsidiary committee 
called the Committee of Ocean Science, Education, Technology, and 
Operations (COSETO). The Report also recommends that NOAA establish a 
national ocean education and training program to provide diverse, 
innovative ocean related opportunities to college and graduate school 
students. Why does the Commission believe that an interagency program 
such as Ocean.ED would be the best way to further and strengthen ocean 
education?
    Answer. Despite the existence of many positive efforts, ocean, 
coastal and watershed education remains a patchwork of independently 
conceived and implemented programs and activities. These uncoordinated 
efforts cannot provide the nationwide momentum and visibility needed to 
promote sustained ocean education for students, teachers, and the 
general public. Within the Federal Government, there is little 
discussion of ocean education, even among those agencies with the 
greatest responsibility for ocean issues. Different programs and 
funding mechanisms are not coordinated and resources are seldom 
leveraged. Even within individual agencies, offices that have education 
components often do not collaborate or communicate.
    A national ocean education office, like Ocean.ED, would be able to 
coordinate and integrate Federal agency programs, leverage resources, 
serve as a central point of contact for K-12, university-level, and 
informal education partners, and work with state and local education 
experts and others to develop a vision, strategy, and coherent, 
comprehensive plans for national ocean education.

    Question 12b. Given that ocean education is part of NOAA's mission, 
that the Report recommends that the Ocean.ED office be funded through a 
NOAA line item, and that the Report recommends that NOAA create an 
ocean education and training program, why shouldn't a strengthened and 
better funded NOAA be the lead agency with respect to Ocean.ED?
    Answer. While NOAA will play an essential role in promoting and 
supporting increased ocean education, Ocean.ED is needed to coordinate 
activities across government agencies and departments, including the 
Department of Education. Having a central interagency office will also 
provide states and other non-federal organizations a central contact 
point for ocean education related questions and ideas.
    Furthermore, while Ocean.ED will focus on ocean-related education, 
these efforts will have a greater chance of success if they are linked 
with efforts to improve education in other subjects, including natural 
sciences, technology, engineering, math, and a range of social 
sciences. Therefore, Ocean.ED will have a broader mandate than the 
ocean education and training program within NOAA.

    Question 13a. Recognizing the significant growth and congestion 
issues facing the Nation's Marine Transportation System (MTS), the 
Commission wisely recommends the need to address intermodal 
connections--key choke points where cargo is transported from vessels 
to railways, highways or airports. The Commission also recommends 
improved coordination among the various agencies with oversight of the 
MTS. The Commission specifically calls for the codification of the 
existing Interagency Committee on the Marine Transportation System, 
which is comprised of 18 Federal agencies, and names the U.S. 
Department of Transportation (DOT) the lead agency on marine 
transportation issues. Besides port security, what is the single 
greatest challenge facing the marine transportation system today and 
how does the Report address this?
    Answer. One of the larger problems facing the Nation's marine 
transportation system (MTS) is the inadequacy and lack of integration 
among intermodal facilities, a situation that is exacerbated by the 
lack of Federal coordination. The Commission recommends that DOT be 
designated the lead Federal agency for planning and oversight of the 
MTS, codifying the MTS, and developing a new national freight 
transportation strategy that links the MTS to other components of the 
transportation infrastructure (highways, railways and airports). A 
further element of the strategy should include emergency preparedness, 
which will allow the Nation to respond in a coordinated and rational 
manner in the event of a natural or manmade disaster.

    Question 13b. The Report offers several recommendations to study, 
analyze, or develop strategies regarding a number of MTS issues. What 
specific, short-term actions can the Nation take to ensure that our 
port infrastructure is capable of handling increasing cargo volume and 
the ever-larger vessels moving through U.S. ports?
    Answer. In addition to initiating the development of a national 
freight strategy, there should be a focus on developing regional 
dredging and sediment management plans to facilitate the maintenance 
and, where appropriate, deepening of shipping channels to the Nation's 
ports.

    Question 13c. The report recommends that DOT work closely with the 
U.S. Department of Homeland Security on port security issues. Why 
didn't the Commission recommend that the U.S. Coast Guard retain its 
co-chair position on the Interagency Committee on the Marine 
Transportation System? (The report recommends that DOT chair the 
Interagency Committee when it is codified. Presently, the Interagency 
Committee is chaired by Coast Guard and DOT's Maritime Administration. 
Coast Guard has responsibility for port security in the U.S.)
    Answer. Throughout the report the Commission recommends that, where 
appropriate, one Federal agency be designated as the lead entity. The 
intent of this recommendation is to minimize the confusion when 
multiple Federal agencies are involved in an activity, such as marine 
transportation or marine aquaculture. There is no desire to minimize 
the role of the Coast Guard in the MTS, and the codification of the MTS 
will should result in a formalized structure that will solidify the 
role and responsibilities of the agency.

    Question 14. The draft Report states that coral reefs have 
tremendous economic benefits, providing a worldwide total of $375 
billion a year in goods and service. However, many of our Nation's 
reefs are in a state of emergency. Two-thirds of all reef fish species 
are overfished, and during the 1990s, white band disease killed 90-96 
percent of the most common near-shore species of coral. Did the 
Commission perform any estimates regarding how much revenue has been 
lost due to coral reef degradation? Can we assume that the full 
economic potential of our coral reefs is not fully realized?
    Answer. The Commission did not estimate economic losses associated 
with the degradation of coral reefs or other marine resources. Given 
the substantial decline in the health of coral reefs around the Nation 
and world, and the disproportionate level of biodiversity and 
productivity associated with coral habitat, it is difficult to judge 
the full economic and ecologic effect of these losses. However, we can 
assume that their economic potential has been substantially impaired. 
The importance of restoring and protecting coral resources, both 
tropical and coldwater, cannot be overstated.

    Question 15a. The Commission recommends strengthening the 
permitting and leasing system for offshore oil and gas development. 
However this change is recommended without amending the Coastal Zone 
Management Act or the Outer Continental Shelf Lands Act. Why has the 
Commission decided these laws should remain unchanged? Would NOAA have 
a central role in reviewing proposed uses for environmental and 
ecosystem effects?
    Answer. The Commission has not made a recommendation to strengthen 
the permitting and leasing system for offshore oil and gas development. 
It does recommend that the National Ocean Council and Regional Ocean 
Councils establish a balanced, ecosystem-based offshore management 
regime that coordinates both existing as well as emerging offshore 
activities. It also suggested that the OCSLA statutory and regulatory 
regime for oil and gas exploration and development is comprehensive and 
broad and could serve as a model for individual and perhaps a 
comprehensive regime taking into consideration a number of different 
variables associated with both new and emerging offshore issues. The 
Commission does recommend strengthening the CZMA with respect to the 
development of state management plans that are consistent with national 
and regional goals. NOAA will continue to play a central role in 
reviewing proposed uses in offshore waters through its extensive 
statutory responsibilities associated with the CZMA, ESA, MMPA, MSFCMA 
and consulting role under numerous other statutes and regulations.

    Question 15b. Does the Commission feel that the Federal-state 
revenue sharing program will have any significant effect on the Federal 
budget? In times of deficit such as these, would the program have to be 
altered, with a higher percentage of revenues going back to the Federal 
Government?
    Answer. The proposed Federal-state revenue sharing program will 
impact the Federal budget since oil and gas revenues are not a new 
funding source, but would result in the redirection of these funds to 
ocean and coastal related activities. The Commission feels strongly 
that revenues generated in offshore waters should be used to protect, 
maintain and restore the Nation's coastal and ocean resources and 
environment. The design of such a funding regime is clearly within the 
jurisdiction of Congress; however, the dedication of a stable revenue 
stream for ocean and coastal programs and activities is of critical 
importance if the Nation is to successfully make the transition toward 
ecosystem-based management. Also, most of the money in the Ocean Policy 
Trust Fund, recommended by the Commission, would go to Federal agencies 
to implement the Commission's recommendations.

    Question 16. The report recommends a modernization fund for 
critical ocean infrastructure and technology (such as ships, 
submersibles and environmental sensors). How much money out of the 
proposed $760 million in annual ocean science, research and education 
funding should be directed to this fund?
    Answer. Infrastructure and technology are considered separately 
from research in the report and are assigned a separate budget. To 
upgrade and modernize science-related infrastructure (Recommendation 
27-4), we estimate a cost of approximately $200M per year. However, 
Chapter 27 does not attempt to provide a comprehensive review of all 
marine-related infrastructure and technology needs and costs. Rather, 
it highlights several key areas where improvements in Federal planning, 
coordination and investment are sorely needed. Thus, we have not 
included an estimate for the cost of upgrading the operational ocean 
and coastal infrastructure of the Federal Government, such as agency 
fleets, satellites, laboratories, and other Federal facilities. (See 
Appendix G, 27-5.)

    Question 17a. The Report recommends that state coastal zone 
boundaries be expanded landward to encompass coastal watersheds. Can 
you elaborate on the effect that extending the coastal zone boundaries 
will have on state enforceable policies and Federal consistency? Did 
the Commission intend to require the states to expand all current CZMA 
requirements up the watershed or were more gradual, voluntary models in 
mind for these upland areas?
    Answer. Because of the interrelated nature of coasts and upland 
watersheds, activities in coastal watershed areas have the potential to 
affect the health of ocean and coastal resources. For this reason, the 
Commission recommends extending the boundaries of state coastal 
management programs under the CZMA to include these coastal watersheds 
(Recommendation 9-1). It will be up to each state--in consultation with 
the National Oceanic and Atmospheric Administration, the administering 
agency of the CZMA--to determine how best to incorporate the management 
of these new areas in their coastal programs and policies.

    Question 17b. What types of incentives will be provided to states 
to implement conservation measures in coastal and upland watersheds?
    Answer. The Commission stresses the importance of improving the 
linkage between watershed and coastal area management, including 
recommending that state coastal management programs extend their 
boundaries under the CZMA to incorporate coastal watersheds 
(Recommendation 9-1). The Commission also recommends that the CZMA be 
amended to create a dedicated funding program to support partnerships 
among state and local governments and private-sector partners to 
perform coastal and estuarine land conservation activities throughout 
the areas included in the state programs (Recommendation 11-1).

    Question 18. The report recommends that states provide periodic 
assessments of their coastal resources--in essence a ``State of the 
Coast'' report for each state. Will the funding for these assessments 
come from the doubling of the science funds that the Commission 
proposes or from the Ocean Policy Trust Fund? Do you have an estimate 
of what these assessments will cost?
    Answer. These assessments would be funded by existing state funding 
and the $1 billion allocated to states from the Ocean Policy Trust 
Fund, complemented by information collected with or by Federal agencies 
and private partners. The cost for the assessment will vary by state 
and the geographic area they must cover.

    Question 19. The Report recommends changes to Federal 
infrastructure programs to discourage development in fragile coastal 
areas. How can we be successful in linking transportation and other 
Federal infrastructure investment to state and local growth management 
plans?
    Answer. An overarching theme of the Commission's report is the need 
to move toward ecosystem-based management of the Nation's ocean and 
coastal resources, which includes coordinating the efforts of multiple 
entities within a geographic area to better consider the cumulative 
impacts of their activities. An important step in coordinating these 
efforts is to establish national, regional, and state goals aimed at 
achieving economically and environmentally sustainable development (see 
Recommendation 9-3). Regional coordination of Federal agency 
activities, along with the establishment of regional ocean councils and 
regional ocean information programs, as recommended in Chapter 5, would 
greatly improve Federal project planning and implementation.

    Question 20a. The Commission raised a number of important points in 
its discussion of international oceans policy, and generally supported 
the need for the U.S. to work with other countries to ensure that the 
U.S. and global marine ecosystems are well-managed. It also recommended 
that an existing inter-agency working group, led by State Department, 
be brought under the leadership of the proposed White House NOC.
    However, the discussion and recommendations fell short of 
addressing some of the pressing international issues and improvements 
in the interagency process, that are necessary to ensure that U.S. 
international oceans policy is effective. For example, while the 
Commission reiterated its strong recommendation that the U.S. accede to 
the UN Convention on the Law of the Sea (UNCLOS), it did not discuss 
any of the recent international fisheries treaties that have been 
negotiated, nor the need for strong international agreements on marine 
mammals and turtles.
    Answer. Chapters 19 and 20 in the Final Report have been expanded 
to include discussions on managing international fisheries, including 
recommendations for strengthening, and where appropriate, expanding 
these agreements to provide the necessary protection for endangered or 
threatened marine resources.

    Question 20b. The Commission recommended that an existing inter-
agency working group, led by the State Department, be brought under the 
proposed National Ocean Council. It also recommended that the expertise 
of the resource agencies be more effectively brought to bear on the 
shaping on U.S. international positions. Could you elaborate on the 
need for these proposals?
    Answer. Within the U.S. government, the U.S. Department of State is 
the lead agency for most international negotiations. However, the role 
of more specialized agencies is extremely important due to the 
scientific and resource focus of many multilateral ocean issues. For 
example, living marine resources are primarily the responsibility of 
the National Oceanic and Atmospheric Administration; the U.S. Coast 
Guard generally takes the lead in developing and enforcing vessel 
safety and environmental protection regulations; the U.S. Environmental 
Protection Agency does the same in mitigating pollution from land-and 
water-based sources; and the U.S. Trade Representative has a role in 
the interface of international trade and ocean policy. Consistent 
application of a wide range of expertise is essential both to establish 
international ocean standards that reflect U.S. interests, and to make 
certain that subsequent actions by the United States and others are in 
accordance with those standards. A new mechanism is needed to provide 
improved coordination among U.S. agencies that share responsibility 
for, and knowledge about, international ocean issues. Since the early 
1970s, various interagency groups have attempted to address these 
issues, most recently as a subcommittee under the National Security 
Council's (NSC's) Global Environmental Affairs Policy Coordinating 
Committee. While the NSC subcommittee should continue to focus on 
specific security-related issues, the National Ocean Council will be a 
better home for a broad interagency committee dealing with all facets 
of international ocean policy.

    Question 20c. I was also pleased to see recognition by the 
Commission that conservation and environmental objectives are 
legitimate elements of international trade policy. Do you also agree 
that conservation and environmental objectives are legitimate elements 
of domestic trade measures, as we have done with the shrimp-turtle law 
that has been upheld by the WTO?
    Answer. In its Final Report, the Commission clarifies that the U.S. 
should continue to press for the inclusion of environmental 
objectives--particularly those specified in international agreements--
as legitimate elements of trade policy.

    Question 20d. This is consistent with the Law of the Sea as well, 
as I recall? (NB: The State Department has said this in Senate FRC 
hearings). I was surprised that the Commission did not discuss in this 
section the need for strong international agreements on marine mammals 
and turtles. What can the Commission tell us about this problem? What 
about the need to develop international institution capacity, since 
neither the FAO, the IWC or the IMO really deal with these issues 
across the board?
    Answer. As mentioned above, the Final Report discusses the need for 
improved international efforts to protect marine mammals, turtles, 
seabirds and other protected species. Chapter 29 also includes a 
recommendation (29-8) specifically directed at building international 
capacity.
                                 ______
                                 
    Responses to Written Questions Submitted by Hon. Trent Lott to 
                        Admiral James D. Watkins

    Question 1. Admiral, the Commission report advocates requiring 
governors of states with representation on Regional Fisheries 
Management Councils to provide the Secretary of Commerce with a Council 
nomination choices that represent both commercial and recreational 
fishing interests. I certainly think that is appropriate for the Gulf 
of Mexico, where the catch is evenly split between those groups. 
However, different regions have different levels of recreational and 
commercial participation. Would you support a goal or requirement that 
the distribution of recreational and commercial appointees on a region 
council more accurately reflect the distribution of the fishing catch 
between those two sectors?
    Answer. The Commission recommends that Governors be required to 
submit a broad slate of candidates for each vacancy. This process will 
help ensure that RFMC membership is balanced among competing user 
groups and other interested parties, and that fishery management plans 
reflect a broad, long-term view of the public's interests. Identifying 
the best mix of council members will require knowledge of the Federal 
fishery management process and an understanding of other factors 
affecting ocean ecosystems. This expertise resides in the NOAA 
Administrator, not the Secretary of Commerce, who is currently 
responsible for appointing RFMC members.

    Question 2. The report recommends strengthening the application of 
the Magnuson-Stevens Act national standards to regional council 
fisheries management plans, but I think does not account enough for the 
real differences in each region's fisheries. After all, that is why the 
Magnuson-Stevens Act established regional fisheries management 
councils. Admiral, do you agree that the councils need to have 
flexibility to manage their fisheries to account for regional-specific 
situations?
    Answer. The Commission fully appreciates and supports the need for 
regional flexibility. However, the uneven application of the current 
national standards by the regional fishery management councils in the 
past, and the impact this had had on fisheries resources, indicates a 
need for clearer guidance on the parameters within which the Councils 
can operate.

    Question 3. Admiral, I understand the Commission's interest in an 
ecosystem-based approach to coastal and ocean management, however, I 
have some concerns. The designation of an ecosystem should be limited 
to as narrow an area as possible. Otherwise, we end up with the same 
problem as trying to identify essential fish habitat under the 1996 
amendments, which turned out to be the entire Gulf of Mexico for many 
species. If the entire EEZ and landside watershed is an ecosystem, you 
aren't going to manage fisheries better, you'll make it too complex to 
manage anything. Do you agree?
    Answer. In its recommendation that the Nation move toward an 
ecosystem-based management approach, the Commission recognized the need 
to better define what constitutes an ecosystem. The designation of 
Large Marine Ecosystems (LMEs), which are generally congruent with the 
jurisdictions of the Regional Fishery Management Councils, provides a 
logical starting point for regional discussions on how best to manage 
areas--or ecosystems--with these LMEs. However, determining the 
relative size of the ecosystem to manage will depend significantly upon 
the geographic extent of the impact(s) of the activity under 
consideration. This point further emphasizes the need for flexibility 
in evaluating and implementing regionally-based ecosystem management 
strategies.

    Question 4. Admiral, the Gulf of Mexico red snapper fishermen 
support the idea of an IFQ system to manage that fishery, but they have 
been concerned about whether the imbalanced Gulf Council would create a 
fair system. That is why I insisted in 1996 that they participate 
through referendum in the decision on whether to use IFQs, including 
whether they approve of what kind of IFQ system the regional council 
comes up with. Do you support giving fishermen this kind of direct 
voice in the use of IFQs?
    Answer. The Commission believes that IFQs or other Dedicated Access 
Privileges should only be adopted after adequate public discussion and 
close consultation with all affected stakeholders, to ensure community 
acceptance of a dedicated access plan prior to final Regional Fishery 
Management Council approval. This process may, or many not require a 
referendum.

    Question 5. Admiral, It's clear that NOAA is difficult to manage. 
On the one hand, the Congress directs NOAA spending to a degree not 
experienced by any other agency, and on the other hand, it constantly 
has to fight lawsuits protesting its decisions, mostly filed by 
environmental groups. Maybe better use of science will help, but many 
of these lawsuits are related to the quality of NOAA's process for 
making and documenting its decisions. While organizational changes such 
as those the Commission advocates would elevate the importance of NOAA 
programs, it seems to me that the problems may run deeper into the 
organization's bureaucracy. How do the Commission's recommendations 
address these concerns?
    Answer. The Commission does not offer specific recommendations 
addressing NOAA's internal bureaucracy or organizational decisionmaking 
processes. However, the Commission does strongly believe that NOAA's 
entire structure, leadership, and staff should be oriented to support 
the effective exercise of the three functions identified in Chapter 7 
of the report. Beginning with a strengthened science program and a more 
service-oriented approach, NOAA should be organized not only to improve 
its efficiency, but also to promote inclusiveness and a commitment to 
meaningful partnerships with other agencies, states, the private 
sector, and the academic community. The realignment of NOAA's 
organization to address its core functions, and greater emphasis on 
cooperative interaction with its partners, should help minimize 
existing internal procedural and organizational concerns.

    Question 6. Admiral, the Commission visited NASA's Stennis Space 
Center in Hancock County, Mississippi. Stennis is home to more than 30 
resident agencies, many of which actively support missions aligned with 
the Commission's recommendations, including the Navy, NOAA, 
universities, and private sector technology firms. Stennis has the 
largest contingent of oceanographers in the world, as well as 
facilities for the transmission, management, and storage of large 
volumes of data. There is also technology development and remote 
sensing expertise. Do you think that Stennis would be a suitable 
location from which to manage and store coastal and ocean observation 
data nationwide?
    Answer. Chapter 28 recognizes the unique capabilities at Stennis 
and the Commission recommends (Recommendation 28-2) that NOAA and the 
Navy establish an information management partnership that marries the 
strengths of the two agencies. The facilities, expertise and 
capabilities at the Stennis Space Center suggest that it would be a 
suitable location to store and manage ocean and coastal observation 
data nationwide and this role should be more fully considered as part 
of the development of a National Virtual Ocean Data System 
(Recommendation 28-3).

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
